<html>
<title> - BUS AND TRUCK SECURITY AND HAZARDOUS MATERIALS LICENSING</title>
<body><pre>[Senate Hearing 107-1029]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1029
 
        BUS AND TRUCK SECURITY AND HAZARDOUS MATERIALS LICENSING
=======================================================================






                                HEARING

                               before the

       SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation










                   U.S. GOVERNMENT PRINTING OFFICE
89-502                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001













       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGIA ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel
                                 ------                                

       Subcommittee on Surface Transportation and Merchant Marine

                  JOHN B. BREAUX, Louisiana, Chairman
DANIEL K. INOUYE, Hawaii             GORDON SMITH, Oregon
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
RON WYDEN, Oregon                    OLYMPIA J. SNOWE, Maine
MAX CLELAND, Georgia                 SAM BROWNBACK, Kansas
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JEAN CARNAHAN, Missouri              JOHN ENSIGN, Nevada
JOHN EDWARDS, North Carolina















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held October 10, 2001....................................     1
Statement of Senator Breaux......................................     1
Statement of Senator Cleland.....................................     3
Statement of Senator Ensign......................................    18
Statement of Senator McCain......................................     2
Statement of Senator Rockefeller.................................    23
Statement of Senator Smith.......................................    14
    Prepared statement...........................................    15
Statement of Senator Snowe.......................................    20

                               Witnesses

Acklie, Duane W., Chairman of the Board, American Trucking 
  Association....................................................    26
    Prepared statement...........................................    28
Clapp, Joseph, Administrator, Motor Carrier Safety 
  Administration, U.S. Department of Transportation..............     4
    Prepared statement...........................................     6
Claybrook, Joan, President, Public Citizen, and Program Co-Chair, 
  Advocates for Highway and Auto Safety..........................    55
    Prepared statement...........................................    58
Engleman, Ellen, Administrator, Research and Special Programs 
  Administration, U.S. Department of Transportation..............     8
    Prepared statement...........................................    11
Gleason, Keith, Director, Tankhaul Division, International 
  Brotherhood of Teamsters.......................................    39
    Prepared statement...........................................    42
Pantuso, Peter, President and CEO, American Bus Association......    33
    Prepared statement...........................................    35
Sheridan, Ralph F., President and CEO, American Science and 
  Engineering, Inc...............................................    51
    Prepared statement...........................................    53
Sullivan, Paul, Lieutenant, Massachusetts State Police, 
  Commercial Vehicle Enforcement Division........................    44
    Prepared statement...........................................    46













        BUS AND TRUCK SECURITY AND HAZARDOUS MATERIALS LICENSING

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2001

                                       U.S. Senate,
Subcommittee on Surface Transportation and Merchant Marine,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John B. 
Breaux, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. The Subcommittee will be in order. I thank 
our witnesses for being with us this morning, and Senator 
Cleland and other Members will be joining us shortly.
    We will begin our hearing with a few opening comments of 
our Members. This Subcommittee hearing is a continuation of a 
series of hearings on security in the transportation area that 
the Subcommittee on Surface Transportation has embarked upon. 
We will continue to examine the security of both passenger rail 
systems and transportation systems in general, as well as 
freight transportation as well. Of particular concern, I think, 
are reports that terrorists may have been seeking licenses to 
drive trucks containing hazardous materials.
    On October 4, a federal grand jury in Pittsburgh indicted 
20 people on charges of fraudulently obtaining commercial 
driver's licenses, including licenses to haul very dangerous 
hazardous materials. In September, the Federal Bureau of 
Investigation arrested an individual linked to Osama bin Laden 
who had a hazardous materials driver's license issued by the 
State of Michigan.
    While we require employment and criminal background checks 
for aviation employees, we do not require such background 
checks for truck drivers who are seeking licenses to haul 
hazardous materials. We could potentially look at requiring 
companies that are hauling hazardous materials to create 
security plans, including verifying the identification of their 
drivers picking up the hazardous material cargo. We might also 
need to more closely track the transportation entity, the 
movement of the most dangerous materials, including the use of 
electronic tags or satellites.
    Other potential steps might include increasing funding for 
hazardous material handling and training programs, and creating 
potential federal penalties for the hijacking of trucks 
carrying hazardous materials, particularly on the interstate 
system.
    These issues surrounding the hazardous materials that truck 
driver licensing, border enforcement and bus safety are 
obviously very difficult to solve. There are no easy answers. 
We want to increase safety and security, obviously, but not 
jeopardize the convenient travel of American citizens and the 
free movement of goods that are the livelihood of a strong 
economy.
    With regard to border issues at the Mexican and Canadian 
border crossings, law enforcement, intelligence, customs, truck 
safety and immigration functions, all coverage must be better 
coordinated by the relevant federal agencies, and coordinating 
the sharing of their information and responsibilities at the 
border is a very important step of stopping terrorism and 
making sure that foreign trucks are safe on American roads.
    With regard to bus safety, on October 3, the driver of a 
Greyhound bus was attacked, as we all know, in Tennessee, 
resulting in the deaths of six passengers. While the attacker 
was not linked to any terrorist organization, it was an 
important reminder that our transportation system outside of 
aviation also is vulnerable.
    In 1999, we passed the Motor Carrier Safety Improvement Act 
following a charter bus accident in Louisiana, outside of New 
Orleans, on Mother's Day of 1999, in which 22 people were 
killed. The driver was found to have several medical problems. 
He had marijuana in his system at the time of the accident, and 
in my opinion should be behind bars and not behind the wheel of 
a bus.
    Legislation strengthened the enforcement of bus safety by 
increasing the fines and requiring more monitoring of the motor 
carriers, but some parts of that legislation along with bus-
related parts of TEA-21 in 1998, still have not been 
implemented by the Transportation Department.
    We need to know from the Transportation Department what we 
have done to address these issues, and what we plan to do in 
the near future to increase bus safety. We may seek to increase 
the coordination between bus drivers and the local police 
departments, create more stringent licensing requirements for 
bus drivers so they are trained to handle the threats, to 
create remote check in for buses at airports, and help bus 
companies better screen their baggage and verify their 
passenger identification.
    In conclusion, it is not clear what type of precautions 
would be truly effective and possible to implement. It would be 
a logistic impossibility to have law enforcement check every or 
even most of the 800,000 shipments of hazardous materials or 
the millions and millions of truck movements annually. Every 
conceivable precaution could potentially be defeated, and 
precautions that made one transportation mode less vulnerable 
may simply shift the threat to more vulnerable targets.
    The goal is to strike a balance between safety and security 
versus the free flow of goods and people that drive our just-
in-time economy. I look forward to the panel members and their 
suggestions and thoughts, and welcome our witnesses to our 
Committee, and would recognize our distinguished Republican 
Ranking Member, Senator McCain, for any comments he might have.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I want to thank you, Senator Breaux, for 
having this hearing. It is a very important one. During the 
past 4 weeks, we have been working in a bipartisan manner to 
address the Nation's most pressing needs in the wake of the 
September 11 terrorist attacks. Part of the effort is focused 
on the survival of the aviation industry, and rightly so. Our 
Nation, our citizens and our economy cannot afford further 
deterioration of this critical segment of the transportation 
industry, and we cannot afford to leave other sectors of our 
transportation system vulnerable to attack.
    As we have noted in previous hearings, transportation 
systems are the target of 40 percent of terrorist attacks 
worldwide. That is why it is necessary for the Government to 
play a key role in assessing potential security threats to our 
Nation's transportation system. We must ensure that we have 
taken every reasonable precaution to safeguard critical 
infrastructure, and that procedures are in place to protect 
people and property in the event of actual terrorist attacks.
    In that effort, this Committee has been conducting a series 
of hearings to gain information we need to help us evaluate 
potential security risks and determine how best to respond to 
those potential risks. In addition to addressing aviation, we 
have considered rail and maritime security, and today we will 
be addressing bus and truck security issues.
    I am proud of the work conducted by this Committee, and 
commend the Chairman and the Subcommittee Chairman for holding 
these important hearings on transportation safety and security.
    Again, Chairman Breaux, thank you for holding this hearing. 
I look forward to hearing from all of today's witnesses, and 
hearing their recommendations as to how we can best address the 
security of bus and truck transportation.
    Senator Breaux. Thank you, Senator.
    Any comments, Senator Cleland?

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you, Mr. Chairman. Some 9 billion 
tons of cargo are transported annually by the trucking industry 
and the passenger buses around America carry some 774 million 
passengers per year, double the amount of passengers carried 
domestically by the airlines and rail combined. Given the large 
dependence of Americans on these means of transportation, Mr. 
Chairman, I think it is time and appropriate for Congress to 
dedicate its time and resources to review the vulnerability of 
these modes of transportation.
    I mentioned at last week's hearing on port and rail safety 
that Anthony Cordesman, a terrorism expert at the Center for 
Strategic and International Studies here in Washington, said 
``he expects any future attacks by the terrorists will use 
different tactics and the next time they attack it will not be 
using aircraft. It could be mass transit, or it could be public 
utilities, historical sites, or the media. Tightening security 
in one area will tend to push terrorists into other directions, 
but one act of mass terrorism does not predict the next 
occurrence.''
    A balance obviously must be struck between all modes of 
transportation to ensure all available resources are not overly 
committed to only one form of transportation. I would like to 
find out today what the bus and truck industry need and what 
they need to ensure safety, security, and integrity.
    I will say that I have been encouraged to hear individual 
efforts by trucking companies. There is a trucking company in 
Georgia--Mr. Wayne Smith of Felton Pearson Company in Georgia 
handles several types of cargo transports. In order to ensure 
the integrity of his loads, his driers back up their loaded 
trailers to other trailers so that access to the cargo by 
outsiders is virtually impossible. This protective measure 
seems obvious and easy for any trucking company to do. Mr. 
Smith also commits his own resources to do criminal background 
and reference checks on his drivers.
    The Department of Transportation I believe has a role here 
to provide correct centralized access to information on CDL 
drivers, and I would like to learn more today on how the 
Department plans to work with the states to gather and provide 
this information, and what additional resources may be needed 
in order to meet this goal. I pledge my full efforts to work 
with all of you to ensure the safest roadways for the traveling 
public.
    Thank you, Mr. Chairman.
    Senator Breaux. Thank you, Senator Cleland, and I welcome 
our first panel of witnesses, Administrator Joseph Clapp, of 
the Motor Carrier Safety Administration at DOT, and 
Administrator Ellen Engleman, Research and Special Programs 
Administration, also with DOT.
    We know that you folks are relatively brand new on the job, 
and welcome right into the fire, and we hope you have a long 
and distinguished career at the Department of Transportation--
and these are difficult times. You are not responsible for 
everything that happened for the last 10 years, or even the 
last 10 months, but this is your duty now, and this is your 
job, and we want to hear from you as to where you think we are, 
and where you think we are headed.
    Mr. Clapp, you are first.

STATEMENT OF JOSEPH CLAPP, ADMINISTRATOR, MOTOR CARRIER SAFETY 
       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Clapp. Thank you very much, Mr. Chairman and Members of 
the Committee. I appreciate the opportunity to appear before 
you today.
    Senator Breaux. Joseph, get that mike real close to you so 
we can all hear.
    Mr. Clapp. I also appreciate that you favorably reported my 
nomination to be the first Administrator of the Federal Motor 
Carrier Safety Administration. I know that when you established 
this agency in 1999, you did not do so lightly, but rather 
because you believed it was an important step to improved motor 
carrier safety. I personally applaud your decision.
    I have been asked why I would choose to come out of 
retirement, a retirement that I frankly thoroughly enjoyed, to 
accept this appointment. I would like you to know the answer, 
which is twofold. One is the great respect that I have for 
Secretary Norman Mineta. He is a great American, as I am sure 
you know. The other is the admiration I have for the Federal 
Motor Carrier Safety Administration and what it does.
    Very early in my career as a young safety director at that 
time for Ryder Tank Line, I went through what today we would 
call a compliance review. The result of that experience was to 
gain genuine respect for the sincerity and the dedication of 
the so-called bureaucrats with whom I came into contact from 
the state level right on through to Washington. More 
importantly, I can tell you that as result of that review, I 
was a better safety director and my company was a better 
company.
    FMCSA is focused, as I am now, on continuing to improve 
motor carrier safety. We will do so with continued emphasis on 
compliance. We conduct over 10,000 compliance reviews each year 
now, more than double the level of 2 years ago, when you 
created this agency. We are working with our state partners to 
give greater emphasis to the driver's side of the safety 
equation, and to increase the security of their commercial 
driver's license systems. At the same time, we expect the 
states to maintain the very substantial level of roadside 
vehicle inspections, which are now over 2 million a year.
    Meanwhile, the events of September 11 have necessitated an 
additional focus. The credible threat of terrorism directed 
toward our transportation system requires that we take 
deliberate action to prevent, prepare for, and respond to 
violence. Secretary Mineta has challenged each modal 
administrator to establish a new definition of normal in 
transportation security. We must achieve this new level of 
vigilance while maintaining the mobility that underpins our 
country's economic strength.
    FMCSA's first actions have been directed at the areas of 
greatest potential risk: hazardous materials transportation and 
passenger carriage. Right now, virtually our entire field 
organization is engaged in visiting hazardous materials 
carriers to review with them the need for appropriate security 
measures in the light of the new reality. Company officials are 
asked to assess their operations to identify all potential 
vulnerabilities and to take immediate steps to tighten 
procedures. Special emphasis is given to conducting thorough 
background checks on drivers and being alert for suspicious 
behavior.
    This major effort necessarily means some reduction, as of 
the moment, in the number of regular compliance reviews that 
our safety inspectors would otherwise be performing. I believe 
this is nonetheless the correct priority for our people at this 
critical time. If we believe there is serious failure on the 
part of the carrier safety program, we will, of course, 
respond. Our enforcement partners, I am happy to say, in the 
states are stepping up security measures as well.
    The lead Motor Carrier Safety Assistance Program (MCSAP) 
agency in each state has been asked to place greater priority 
on hazmat enforcement at the roadside. In addition, driver-only 
inspections are increased, and states are conducting commercial 
driver's license information system inquiries on hazmat 
drivers.
    FMCSA has been cooperating with the Federal Bureau of 
Investigation and other law enforcement agencies to check on 
drivers with hazardous materials endorsements. In the past 2 
years, our agency has substantially increased its scrutiny of 
state licensing agencies and made recommendations to states to 
prevent fraud. Last year, we made more than $15 million 
available to states to evaluate and improve their licensing 
systems.
    Since September 11, over-the-road bus companies and other 
commercial passenger carriers have actively worked with our 
agency to heighten security by reviewing baggage and ticketing 
procedures, and consulting with security professionals. 
Greyhound is to be particularly commended for its swift 
response last week, when one of its bus drivers was attacked in 
Tennessee.
    We are continuing to work with the bus industry to ensure 
that its security needs are met. FMCSA will continue to find 
ways to improve security in the days ahead. I look forward to 
working with this Subcommittee to build a safer, more secure 
motor carrier system.
    Thank you, Mr. Chairman and Members of the Committee.
    [The prepared statement of Mr. Clapp follows:]

Prepared Statement of Joseph Clapp, Administrator, Motor Carrier Safety 
           Administration, U.S. Department of Transportation
    Mr. Chairman and Members of the Subcommittee. Good morning. Thank 
you for the opportunity to testify today on behalf of the Federal Motor 
Carrier Safety Administration (FMCSA). FMCSA has a critical role in 
protecting the security and safety of highway transportation, and I am 
very proud to serve the Administration and our country in these 
challenging times. I want to express my particular appreciation for the 
Senate Commerce Committee's recent efforts in the consideration of my 
nomination.
    The Subcommittee on Surface Transportation and Merchant Marine is 
highly respected for decades of strong leadership in motor carrier 
safety, from the creation of Motor Carrier Safety Assistance Program 
(MCSAP)--the foundation of our safety partnership with the states--to 
the establishment of the FMCSA. I look forward to working closely with 
the Subcommittee over the months ahead as we take vigorous action to 
ensure the safety and security of our Nation's highways.
    The recent attacks on the World Trade Center and the Pentagon using 
hijacked airliners remind us all that we must respond to a new kind of 
terrorism--one that is well financed, well organized, and utterly 
ruthless. The credible threat of increasing terrorism directed toward 
our Nation's transportation systems requires that we take immediate 
action to prevent, prepare for, and respond to violence--the nature and 
magnitude of which was once inconceivable.
    FMCSA employees in our New York office near the World Trade Center 
were eyewitnesses to the first attack and were evacuated from their 
building. Our New Jersey staff was quickly on the scene in the 
Meadowlands helping coordinate the movement of emergency and rescue 
equipment into lower Manhattan. Members of the New Jersey Motor Truck 
Association voluntarily brought in thousands of pieces of heavy-duty 
equipment, flatbeds, refrigerated trucks, cranes, dump trucks, 
earthmovers, and front-end loaders, to help rescue efforts.
    In the hours after the crisis, FMCSA closely collaborated with the 
Federal Bureau of Investigation and other law enforcement agencies, 
first to help identify activity related to the events of September 11, 
then to investigate any other leads that might be related to terrorist 
activity. FMCSA's Rapid Response team alerted state enforcement 
officials and transport and hazardous materials associations across the 
country to be on the alert.
    Secretary Mineta has challenged each modal administration to 
establish a new definition of ``normal'' in transportation security. We 
must maintain a new level of vigilance, while maintaining the mobility 
that underpins our country's economic strength.
    Commercial vehicles--buses and trucks of all types--present unique 
security challenges. There are more than 7.5 million vehicles and 
approximately 10.5 million holders of Commercial Driver's Licenses 
(CDLs) widely dispersed throughout the country. Almost 2.5 million of 
the drivers who have CDLs have an endorsement that allows them to 
transport hazardous materials. It is relatively easy to acquire a truck 
or bus, even on a temporary basis, and each vehicle has a large cargo 
capacity. Trucks and buses are highly mobile with easy access to key 
national sites and population centers.
    Our agency's first actions have been focused on the areas of 
greatest potential risk, hazardous materials transportation and 
commercial passenger carriers. FMCSA and RSPA have coordinated their 
actions.
    On September 26, FMCSA directed its credentialed staff in each 
State's Division Office and every Resource Center to conduct Security 
Sensitivity Visits to hazardous materials carriers throughout the 
country to urge heightened vigilance. Companies we meet with are asked 
to assess their operations to identify all possible potential 
vulnerabilities--and take immediate steps to tighten procedures.
    Particular emphasis is given to conducting thorough background 
checks on drivers and being alert for suspicious behavior from drivers, 
including applicants, shippers, consignees or the public. Company 
officials are being urged to conduct thorough interviews when hiring 
new drivers and verify U.S. citizenship or immigration documents for 
employees. Factors such as gaps in employment, frequent job shifts, and 
criminal history are to be considered.
    Companies are asked to review their own security procedures, 
looking at who has access to their facilities and storage areas, and 
the adequacy of protection. Carriers are urged to know their business 
partners, their vendors, their service providers, and their shippers.
    FMCSA is urging all carriers to avoid transporting particularly 
hazardous materials near high population centers, whenever possible, 
and reinforcing the need to strictly follow en route security measures. 
We are urging companies to take advantage of technical innovations that 
can improve security and communication, such as satellite tracking, 
surveillance systems, and cell phones as well as state of the art 
locks, seals, alarms, and engine controls.
    Enhanced communications systems provide another window of 
opportunity for companies to tighten security. A good communications 
network can help detect patterns of activities that when taken alone 
may not seem significant but when taken as a whole may cause concern. 
Security messages and training should be regularly and widely provided 
to employees and should be comprehensive, covering overall company 
security, specific security procedures, and the employee's personal 
role in security.
    In addition to directly contacting carriers, each FMCSA State 
Director and Field Administrator has been asked to contact trucking 
associations and other trade associations involved with hazardous 
materials. Associations are asked to contact their members and share 
detailed suggestions for improving security.
    Our enforcement partners in the states are stepping up security 
measures as well. The lead MCSAP agency in each state has been asked to 
place greater priority to hazardous materials enforcement at the 
roadside. States are stepping up ``driver only'' (Level III) 
inspections and conducting Commercial Driver's License Information 
System (CDLIS) inquiries on all hazardous materials drivers.
    FMCSA has been cooperating with the Federal Bureau of Investigation 
and other law enforcement agencies to check on drivers who hold 
licenses to transport hazardous materials. In the past 2 years, our 
agency has substantially increased its scrutiny of state licensing 
agencies to root out corruption in commercial licensing. We have been 
involved in the current investigation of a fraudulent hazardous 
materials licensing scheme in Pennsylvania.
    Even before September 11, states were cooperating with FMCSA in 
stepped up examination of their licensing procedures. This started when 
cases of fraud emerged in Illinois and Florida. Last year FMCSA 
conducted a special review of operations in Illinois and Florida and 
issued recommendations on specific actions these and all states could 
take to prevent fraud. State employees and private individuals within 
states have been our most fertile source of tips on fraudulent 
licensing schemes. We have encouraged each state to review its 
procedures and spot test its systems to detect fraud. During fiscal 
year 2001, FMCSA made more than $15 million available to states to 
evaluate and improve the systems. A similar level of funding has been 
requested for fiscal year 2002.
    Fraudulent licensing schemes come in many forms--from use of a 
language interpreter, who actually provides answers to the test taker, 
to third party testers who pass on the basis of fees paid, to licensing 
personnel who take kickbacks. FMCSA now reviews a third of the state 
CDL programs each year to see if they are complying with federal 
requirements. In this process, FMCSA points out state procedures or 
practices that may make their programs particularly susceptible to 
fraud. For example, we discovered that one state gives discretionary 
authority to a desk clerk to override checks of CDLIS for license 
applicants without consulting supervisors.
    Since the events of September 11, over-the-road bus companies and 
other commercial passenger carriers and their related trade 
associations are cooperating with FMCSA to heighten security by 
reviewing baggage checks and ticketing procedures, consulting security 
professionals, and, as much as possible, avoiding locations that might 
pose security risks to passengers.
    Last week, at 4 a.m., a disturbed passenger on a Greyhound bus 
viciously attacked the bus driver causing a crash that tragically took 
six lives. Although the incident is not believed to be related to 
terrorist activity, it highlights how we must anticipate what we never 
before could have imagined. Greyhound is to be highly commended for 
their quick, aggressive action to suspend operations to ensure further 
episodes would not occur if terrorism was involved. The Department of 
Transportation provided Greyhound with appropriate intelligence and 
security support to expedite its resumption of service.
    FMCSA is evaluating the additional measures that will be needed to 
protect security in the passenger carrier industry.
    While the focus of this hearing is security, before I conclude my 
remarks, I want to underscore for you my personal lifelong interest in 
motor carrier safety. I believe my background in industry will be an 
asset in helping the FMCSA meet its safety goals. When I was in the 
industry and its trade association, I was an early supporter of 
measures Congress passed into law, such as the Commercial Driver's 
License, random drug testing, and significant increases in roadside 
inspections. All are now responsibilities of the agency I now head. I 
understand the business of this industry which is so vital to this 
country's well being. A core element of that understanding is the 
absolute requirement for sharing the highways safely and with due 
regard to the rights of those who travel alongside commercial vehicles.
    I very much hope that I may make a contribution to building a safer 
and better motor carrier system. To do that, I will engage parties 
throughout the spectrum, from carriers to truck inspectors, and from 
safety advocates to safety directors--to listen and to learn. One of my 
priorities will be seeing that a Commercial Motor Vehicle Safety 
Advisory Committee is established as soon as possible. I believe an 
advisory committee could be a real resource for the agency, potentially 
providing guidance and expertise in matters of security as well as 
safety.
    Again, I look forward to working closely with this Subcommittee in 
the months ahead, and I would be happy to answer any questions that you 
may have.

    Senator Breaux. Thank you, Administrator Clapp.
    Administrator Engleman.

          STATEMENT OF ELLEN ENGLEMAN, ADMINISTRATOR, 
 RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION, U.S. DEPARTMENT 
                       OF TRANSPORTATION

    Ms. Engleman. Thank you, each and every member and staff, 
for the opportunity to appear before you to talk about this 
critical topic that faces us and our Nation. I want to express 
my sincere and personal appreciation to the Committee for the 
opportunity, and to share with you my sincere sympathy with the 
families and the victims of the events of September 11.
    The possibilities that we now face were driven by a 
deliberate attack that none of us could have really imagined 
prior to September 11, and the Research and Special Programs 
Administration within the Department of Transportation has 
worked diligently to respond and prepare for our new public 
safety and security reality.
    The RSPA mission has always been focused on public safety. 
We administer comprehensive and national programs through our 
offices of Pipeline Safety, Hazardous Materials Safety, and the 
Office of Emergency Transportation. Our job is to protect 
people, property, and the environment from harm or damage that 
would result from accidents or events that include the result 
of transportation of hazardous materials from damage of oil or 
natural gas pipelines, and to respond to emergency 
transportation issues that result from natural or manmade 
events.
    We traditionally, however, focused on the likelihood of an 
accidental event, and our job was to minimize the consequences. 
Fortunately, we have proactively addressed security concerns of 
all areas under our jurisdiction since September 11. Within 30 
minutes of the first attack on the World Trade Center, 
Transportation Secretary Mineta ordered the activation of the 
Crisis Management Center, the CMC, which is part of RSPA's 
Office of Emergency Transportation.
    The CMC is in direct communication with emergency 
responders on a regional basis. Their job is to acquire, 
assess, and analyze emergency communication and response 
activities in support of the Secretary. The Center has 
representatives from all nine transportation divisions, or 
modes as we call them, which includes FAA, transit, highways, 
rail, maritime, motor carriers, pipeline, and the Coast Guard. 
We also have general counsel, public affairs, and intelligence 
security functions.
    We gathered information in real time and created immediate 
situation reports to the Secretary. The CMC was manned on a 24-
7 basis, and has remained fully operational since September 11. 
In addition, the Office of Emergency Transportation immediately 
responded to support the federal response plan activities with 
FEMA, the Federal Emergency Management Agency.
    We coordinated, facilitated, and provided, where necessary, 
all transportation to support FEMA, including the movement of 
the urban search and rescue teams, personnel, equipment, 
supplies, including blood and provisions to New York City and 
the Pentagon sites.
    Last, this office directly supported individual activities 
of the Coast Guard and FAA, Federal Aviation Administration.
    On September 11, RSPA's Office of Pipeline Safety 
immediately issued a security bulletin to over 1,000 pipeline 
owner operators. OPS personnel made immediate telephone contact 
with major pipeline operators to ensure that they understood 
and adhered to the security issues. OPS personnel contacted all 
the state pipeline safety programs to provide them with 
security information. On September 14, the Office of Pipeline 
Safety requested that operators continue to strengthen their 
security efforts, and that emergency security measures remain 
in place until further notice. We continue to be in close and 
immediate communication with the pipeline owner operators.
    RSPA's Office of Hazardous Material Safety worked closely 
with the Federal Motor Carrier Safety Administration and issued 
a safety alert to ensure that security measures were in place 
within the hazardous materials transportation community, the 
manufacturing industries, and the local and state governments.
    A working group of representatives from several of the 
Department's operating administrations are conducting an 
assessment for the security of hazardous materials. I am 
pleased to announce that last night we received final approval 
and review of our proposed hazmat reauthorization proposal that 
will be sent over today by Secretary Mineta. We look to 
reauthorize the DOT hazmat program to increase inspection 
authority and to look and demand any requirements for security 
and safety.
    Last, RSPA is focused on risk and vulnerability assessment. 
We need to identify and are identifying our current procedures, 
authorities, determining necessary improvements, refinements, 
and responses to public security and safety issues. We are 
reviewing all current regulatory and administrative tools that 
we can use to increase security.
    We have issued a broad agency announcement for research and 
development of transportation infrastructure security 
technologies, and are an integral participant in the total 
National Infrastructure Security Committee. RSPA's Volpe 
National Transportation Systems Center is an acknowledged 
leader in transportation security and analysis, and has a 
leadership role in developing physical security-related 
programs currently involved with the Federal Transit 
Administration, the Bureau of Printing and Engraving, and even 
the U.S. Capitol Police.
    The Transportation Safety Institute in Oklahoma has been 
developing critical safety and education training programs for 
multimodal application, and is specifically reviewing all 
programs to incorporate and develop security applications.
    While I have highlighted what RSPA has been doing since 
September 11, many of our daily activities in promoting public 
safety have not changed. With 2.1 million miles of pipeline, 
and over 800,000 shipments of hazardous material every day, as 
Senator Cleland said, 4 billion tons annually, RSPA's role in 
pipeline safety and packaging and shipping of hazmat materials 
is critical. Many hazardous material shipments may be innocent 
paint, or aerosol containers. However, for those materials that 
would provide for a harmful platform, we will work closely to 
ensure that these shipments are identified, labeled, packaged, 
prepared for shipment, and shipped in a safe manner.
    We share regulation for nuclear materials transportation 
with the Department of Energy. We work with the Federal 
Aviation Administration to keep unauthorized hazardous material 
shipments out of passenger aircraft. We cooperate with the 
Federal Motor Carrier Administration on development of minimum 
requirements for driver's licenses for commercial vehicles and 
authorizations to transport hazardous materials. However, 
issuing commercial driver's licenses is a function of the 
individual states, and under federal motor carrier rules.
    My personal commitment as a member of this administration 
and as a Navy Reserve officer is quite simple--not on my 
watch--and that is what we are doing each and every day.
    Each RSPA employee is dedicated to the safety and security 
of the American public. We are continuing to evaluate and 
implement additional measures, and we will continue to work 
with pipeline, hazardous material, and the emergency 
transportation communities towards those mutual goals. We offer 
our full support to this Subcommittee and to the Committee as a 
whole, and thank you again for the opportunity to begin this 
discussion to protect the American people.
    [The prepared statement of Ms. Engleman follows:]

   Prepared Statement of Ellen Engleman, Administrator, Research and 
   Special Programs Administration, U.S. Department of Transportation
    Thank you for the opportunity to appear before you on this critical 
topic of concern for our entire Nation. I want to express my 
appreciation to the Members of this Committee for their interest and to 
share with them my sincere sympathy for the families and friends of the 
victims of the tragedy of September 11th. The possibilities we now face 
are driven by a deliberate attack that most could not have imagined 
prior to September 11th. The Research and Special Programs 
Administration (RSPA) has worked diligently to respond to the events of 
September 11 and prepare for our new reality concerning public safety 
and security.
    The RSPA mission has always been focused on public safety. RSPA 
administers a comprehensive, national series of programs through the 
offices of pipeline safety, transportation of hazardous materials and 
the office of emergency transportation. Our job is to protect people, 
property and the environment from harm or damage that would result from 
accidents or events resulting from the transportation of hazardous 
materials, from damage by oil or natural gas pipelines and respond to 
emergency transportation issues resulting from natural or manmade 
events.
    Our safety programs traditionally focus on the likelihood of 
``accidental'' events in order to minimize the consequences when 
incidents occur. Fortunately, RSPA has also proactively addressed 
security concerns for all areas under our jurisdiction.
    In less than 30 minutes after the first attack on the World Trade 
Center, Transportation Secretary Mineta ordered the activation of the 
Crisis Management Center (CMC) which is part of RSPA's Office of 
Emergency Transportation. The CMC is an inter-modal communication 
center that is in direct communication with regional emergency 
responders to acquire, assess and analyze emergency communication and 
response activities in support of the Secretary. The CMC includes 
representatives from all 9 transportation modes, including Federal 
Aviation, Transit, Highways, Rail, Maritime, Motor Carriers, Pipelines, 
and Coast Guard, as well as general counsel, public affairs and 
intelligence/security functions. We gathered information in ``real 
time'' via our AIM (Activation Information Management System) reporting 
system and created immediate hourly (sometimes more often) situational 
reports for the Secretary. The CMC was immediately manned on a 24/7 
basis and has remained fully operational since September 11th.
     In addition, the Office of Emergency Transportation immediately 
responded to support ESF-1 (Emergency Support Function under the 
Federal Response Plan) activities with the Federal Emergency Management 
Agency (FEMA) and coordinated, facilitated and provided, when 
necessary, all transportation support for FEMA. This included movement 
of the urban search and rescue teams and other personnel, equipment, 
supplies, including blood and provisions, to the New York City and 
Pentagon sites. Lastly, this office directly supported individual 
activities of the Coast Guard and Federal Aviation Administration.
    On September 11th, RSPA's Office of Pipeline Safety (OPS) 
immediately issued a security bulletin to over 1,000 pipeline owner/
operators. OPS personnel made immediate and individual telephone 
contact with all major pipeline operators to ensure that communication 
was open and viable between our offices and that they understood and 
adhered to the security issues. Additionally, OPS personnel contacted 
all of the state pipeline safety programs to provide them with security 
information. On September 14, RSPA's Office of Pipeline Safety amended 
the security bulletin and requested that the operators continue to 
strengthen their security efforts and that emergency security measures 
remain in place until further notice. RSPA is pro-actively working with 
the pipeline industry to increase security awareness and individual 
measures and continues to be in close and immediate communication with 
pipeline owner/operators.
    Responding to the increased level of transportation security, 
RSPA's Office of Hazardous Materials Safety, in coordination with the 
Federal Motor Carrier Safety Administration, issued a hazardous 
materials safety alert to ensure that adequate security measures are in 
place when transporting hazardous materials. This alert was distributed 
throughout the hazardous materials transportation community, 
manufacturing industries and state and local governments. The office 
also established an intermodal working group composed of 
representatives from several of the Department's operating 
administrations. The working group is conducting a multi-modal 
assessment of the existing security measures in place for the 
transportation of hazardous materials by all modes to see which ones 
may need to be strengthened or revised.
    Last, RSPA is focused on risk and vulnerability assessment, 
identifying current procedures and authorities and determining 
necessary improvements, refinements and response to public security and 
safety issues. We are reviewing all current regulatory and 
administrative tools that can be utilized to support increased security 
responsibilities, have issued a Broad Agency Announcement for Research 
and Development of Transportation Infrastructure Security Technologies 
and are an integral participant in the Department's intermodal National 
Infrastructure Security Committee. The Volpe Transportation Center, a 
key member of the RSPA team, is an acknowledged leader in 
transportation security analysis and programs. The Volpe Center has a 
leadership role in developing programs related to physical security 
issues for the Federal Transit Administration, the Bureau of Printing 
and Engraving and the U.S. Capitol Police prior to and in concurrence 
with the events of September 11th. The Transportation Safety Institute 
in Oklahoma City has been developing critical safety education and 
training programs for multimodal application and is specifically 
reviewing all programs to support security issues.
    These are just a few highlights of what the Research and Special 
Programs Administration has been doing since the September 11th 
terrorist attack on America. Many of our daily activities in promoting 
the public safety have not changed since September 11th. With 2.1 
million miles of pipeline and over 800,000 shipments of hazardous 
material every day, equaling 4 billion tons annually, RSPA's role in 
promulgating rules and regulations concerning pipeline safety and the 
packaging and shipping of hazmat materials is critical. It must be 
noted, that from a security perspective, many of the shipments 
classified as hazardous materials may be as innocent as paint or 
aerosol containers. However, for those materials which would provide 
for a harmful platform, RSPA works closely to ensure that hazardous 
material shipments are identified, labeled and packaged for shipment in 
a safe manner. For instance, we share regulation of nuclear materials 
transportation with the Department of Energy. We work with the Federal 
Aviation Administration to develop measures to keep hazardous materials 
out of passenger aircraft. We cooperate with the Federal Motor Carrier 
Safety Administration on the development of minimum requirements for 
commercial drivers licenses and drivers authorized to transport 
hazardous materials. However, RSPA is not responsible for issuing 
commercial drivers licenses. This is a function of the individual 
states in adherence to Federal Motor Carriers rules.
    My personal commitment and that of each RSPA employee is to the 
safety and security of the American public. RSPA continues to evaluate 
and implement additional measures and will continue to work with the 
pipeline, hazardous material and emergency transportation communities 
towards those mutual goals. We offer our full support to this 
Subcommittee and the Committee as a whole and we thank you again for 
the opportunity to meet with you today and respond to your questions, 
concerns or comments.

    Senator Breaux. Thank you very much, both administrators, 
for being with us.
    If you look at all that you have on your plate, Mr. Clapp, 
you may continue to wonder why you came out of retirement. My 
staff and I sent you a list of things that Congress, when we 
did the Federal Motor Carrier Safety Administration, said we 
want you to do meaning your office. While the Motor Carrier 
Office had been dealing with highways, Congress felt we ought 
to have a separate agency to deal particularly with safety, and 
that time Congress ordered a number of studies and rulemakings, 
regarding jobs to be completed by the Federal Motor Carrier 
Safety Administration.
    I have got 2\1/2\ pages of things that Congress said needed 
to be done, commercial vehicle driver identifier, national 
uniform system of permits for interstate motor carriers 
transporting hazardous materials, regulations dealing with the 
transportation of hazardous materials, trying to improve the 
flow of driver history, very important, medical certificates to 
make sure that people who drive commercial vehicles have an 
updated medical certificate.
    My information tells me that none of them have been 
completed. Now, I know you are brand new, and you were not here 
when we did all of this, but it is your office, and what can 
you tell this Committee and this Congress, and I hate to say 
it, but that is deplorable. What is your expression on why it 
has not been done?
    Mr. Clapp. Well, thank you, Senator. I believe we have 
replied for the record with respect to where each rulemaking 
called for by MCSIA stands. The review that I have been able to 
do since last Thursday when I first joined the agency convinces 
me that every one of the rulemakings is, in fact, in progress 
in one way or the other. They are certainly not all final, and 
I agree with you about that.
    In general, what has happened at the agency with respect to 
rulemaking is the creation of a dedicated division within the 
agency for the purpose of carrying out the rulemaking activity. 
These folks are solely dedicated to that purpose. They have 
created--and I believe my first official act will be to create 
a directive, that they have created a handbook which lays out 
all the procedures.
    Senator Breaux. You do not need a handbook. You need a 
hammer. I mean, really, you need to get in there and break some 
china. You have got to tell them that these things are 
incredibly important. These medicals, that situation in New 
Orleans, when we had the hearings, we had 22 people die, and 
the gentleman that was driving a bus at that time should never 
have been behind the wheel.
    He was high on marijuana, he was taking Benedryl, and could 
not see straight. He was suffering from congestive heart 
failure and bad kidneys. He had gotten out of the hospital less 
than 8 hours before he went to work and killed 22 people, and 
so Congress as a result of that created your administration, 
and we requested updated medical certificates on people who 
drive commercial vehicles.
    You have been there since Thursday. This is not your fault, 
but I would say, do not go back and publish a manual. Go in 
there and call them in and say, what are you going to do and 
when are you going to do it, and Congress is going to be all 
over me and all over us if it is not done. It is not a manual 
that needs to be issued, it is strong leadership and direction. 
Do you disagree with that?
    Mr. Clapp. I agree with it completely. As a matter of fact, 
Senator, you also created and put in place a Regulatory 
Ombudsman. That person is on board. That person meets weekly 
with all of the people involved in rulemaking, and it is a team 
process at this point, and we also have installed a tracking 
system for the rulemaking. In fact the new medical procedures, 
the medical form, is a final rule that was issued last year. 
The kind of guidance that is given to physicians examining 
drivers now is much more direct and much more easily 
understandable than the guidelines that were in existence at 
the time of that bus accident, which I am absolutely sure broke 
your heart, as it broke mine, to read about it and see what 
happened.
    I could not agree with you more, and I agree with you on 
the leadership.
    Senator Breaux. What can you tell this Committee and the 
Congress about the situation in Pennsylvania? Just this October 
4, the federal grand jury in Pittsburgh returned 16 
indictments, and I think the same grand jury has also returned 
20 separate indictments, charging 20 individuals from a number 
of states, basically for buying commercial licenses allowing 
them to carry hazardous materials on the highways of this 
country.
    The people named in the indictment, not to cast any 
unnecessary concepts about who they are and where they are 
from, but almost all of them are from the Middle East, and are 
Iraqi refugees in this country, every single one of them, and I 
am sure they are decent people trying to become American 
citizens, but it raises the concern when you have 16 
indictments, all Iraqi refugees, all receiving permits to carry 
hazardous materials in this country.
    Now, those licenses are issued under the authority of the 
Department of Transportation. Can you assure the American 
public that changes are in place that can help the states do a 
better job in this particular area? I mean, obviously, if you 
had someone illegally selling licenses, and that is always a 
problem, however in this time of extra needed security, what 
actions can we at the Federal Government help states do to 
prevent this from ever happening again?
    Mr. Clapp. That is a good question, Senator. In fact, the 
agency has been quite active since fraud cases became known. 
For example, in Illinois and in Florida, FMCSA pulled together 
an expert panel that went through those cases. As a result, 
they have issued a series of recommendations to all the states 
for ways in which they can tighten up, and must tighten up, 
their CDL processes, including those for hazmat.
    The two most common issues that are found are the ones that 
apparently were involved here, wherein somebody was essentially 
selling licenses, that is to say, fraud, and the other is the 
utilization of interpreters for folks who cannot take the test 
in English. That is a vulnerability which has to be addressed. 
Both of those states have, in fact, taken action to address 
that. Many other states, as a matter of fact, have also 
prepared action plans for deficiencies found in their 
operations, and our agency follows up to see that those time 
lines are met.
    In addition, we audit the states at least once every 3 
years, or more often if a problem is found with respect to the 
compliance. Our own people have been sent back to school to 
learn more about the way those compliance reviews should be and 
must be conducted, and additionally have also contracted for 
systems help to deal with the systems sides of those reviews.
    Senator Breaux. Well, thank you, Mr. Clapp. You are brand 
new, and I want to repeat that. You have been here since 
Thursday.
    Mr. Clapp. I am getting old fast.
    [Laughter.]
    Senator Breaux. You have been here since Thursday, so 
obviously everything that has been done or not done properly is 
not your responsibility in the past, but we need strong 
leadership in this position. That is why Congress created the 
administration you are in charge of. We want to work with you 
to make sure that these things get done in a timely fashion.
    Our Ranking Member, Senator Smith.

                STATEMENT OF HON. GORDON SMITH, 
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Mr. Chairman, for holding this 
hearing. This is the second that we have held on surface 
transportation security. Last week we addressed maritime and 
rail security, and I appreciate your leadership on these 
important issues. I would ask that my opening statement be 
included in the record.
    Senator Breaux. Without objection.
    [The prepared statement of Senator Smith follows:]

   Prepared Statement of Hon. Gordon Smith, U.S. Senator from Oregon
    Last week, our Subcommittee held a hearing on Rail and Maritime 
security. Today, we will focus our attention on motor carrier security 
issues, including the driver's licensing process for transporting 
hazardous materials.
    Bus and truck transportation safety and security involve a wide 
range of complex issues and vulnerabilities. For example, we all were 
saddened to learn of the recent attack on a Greyhound bus driver that 
resulted in a fatal crash in Tennessee. The first reports had many of 
us wondering if the attack was linked to terrorist acts. The FBI 
quickly concluded that the act was criminal, but not an act of 
terrorism. But clearly, this incident has added to our already 
heightened sense of concern over transportation safety and security.
    As we discussed last week, 40 percent of terrorist attacks 
worldwide are targeted at transportation. It is the duty of all of us 
to ensure that every reasonable thing is being done to prevent further 
disruptions to the transportation of passengers and cargo.
    I want to welcome two new Department of Transportation (DOT) 
Administrators who will testify today. This marks Administrator Clapp's 
first appearance before our Committee. In fact, Administrator Clapp was 
officially sworn in just last Friday. He holds the distinction of 
serving as the first Administrator of the department's newest agency, 
the Federal Motor Carrier Safety Administration (FMCSA).
    Today is also Administrator Engleman's first appearance as the 
Research and Special Programs (RSPA) Administrator, although she has 
had the chance to appear before us once before during her confirmation 
hearing in June. Administrator Engleman was sworn in just two weeks 
ago.
    I am going to go out on a limb and forewarn the Administrators that 
they will likely face tough questioning today. Many of us have been 
very frustrated over the lack of timely rulemakings on the part of both 
of your agencies. This Committee will be very interested to hear how 
you plan to lead your agencies to help improve upon that less than 
stellar rulemaking performance.
    I look forward to hearing from our witnesses on what steps the bus 
and truck industries have taken, and what additional steps will be 
proposed, to ensure the safety and security of both cargo and 
passengers in our Nation's transportation system.

    Senator Smith. Mr. Clapp, in looking with the Chairman at a 
long list of people who have gotten fraudulent licenses to move 
this material, where did that occur? Was this one individual 
selling it to these people?
    Mr. Clapp. Good morning, Senator. Were you referring to the 
same case in Pennsylvania? From what I understand, my 
information has been more limited than I would like because of 
the fact that it is an ongoing grand jury investigation, but my 
impression of that is that it was one individual. I could be 
wrong.
    Senator Smith. And have the people who acquired these 
licenses been arrested?
    Mr. Clapp. They have been--again, I know what I know, which 
is that they have been indicted. I cannot vouch for whether 
they have all been arrested.
    Senator Smith. On the buses, are you contemplating a 
procedure to check baggage and screen passengers before people 
get on buses?
    Mr. Clapp. We are contemplating those procedures, along 
with many other things. That is part of it. We have had two 
meetings in the last 2 weeks with folks from the bus industry 
to review what can be done and what would be required to 
achieve various levels of security.
    We are all, of course, having to struggle with this new 
balance between economic development, personal and economic 
mobility, and security. In the case of the bus industry, as you 
can well imagine, those are the folks that serve the 
hinterland, and they do not all come through a large central 
terminal like Reagan National Airport, so the problems are 
similar, but in some ways they are much more daunting.
    We are continuing to ask those folks for additional 
specific recommendations, and of course, you will hear from 
them later this morning.
    Senator Smith. Mr. Clapp, I wonder if you have a mechanism 
to ensure that state procedures for hazardous material 
licensing or transportation of these, have you got a procedure 
to evaluate the states right now that you pursue?
    Mr. Clapp. The states' procedures for----
    Senator Smith. For verifying the standards they have to 
meet currently.
    Mr. Clapp. Yes. The states issuing commercial driver's 
licenses, including the various forms of endorsement, of which 
hazmat is one, have to meet standards that are put out by this 
agency, yes.
    Senator Smith. Are there any states that are not doing 
that?
    Mr. Clapp. Senator, not that I am aware of right now, but 
that, of course, is part of our ongoing oversight of the 
states.
    Senator Smith. Are you contemplating additional standards, 
or adding some things to this licensing procedure that you are 
going to require of the states?
    Mr. Clapp. In the light of September 11, and with regard to 
hazardous materials, that is certainly a possibility, one of 
many.
    Senator Smith. As far as you know, all of the people who 
obtained these fraudulent licenses from Iraq, are they all 
arrested and in custody, or moved out of this country?
    Mr. Clapp. I do not know that for certain, Senator.
    Senator Smith. Thank you, Mr. Chairman.
    Senator Breaux. I would suggest you follow that case very 
closely. Senator Cleland.
    Senator Cleland. Mr. Chairman, I would like to ask a few 
questions and then submit the rest of my questions for the 
record, please.
    Mr. Clapp, I know there has been some problems with issuing 
commercial driver's license regulations. When do you think we 
could expect these regulations to be issued?
    Mr. Clapp. Thank you, Senator. We have three rulemakings in 
progress with respect to implementing the additionally, 
frankly, assistance you provided for us in MCSIA, the 1999 Act. 
The first rulemaking having to do with being those violations 
which occur in, for example, a personal automobile, something 
other than a commercial vehicle, which in the past did not make 
it onto the driver's record, that rulemaking has gone out. The 
comment period has closed, and we expect to have the final rule 
by the end of the year.
    Another rulemaking combined some 14 other different items 
that were touched on in MCSIA, for example, the elimination of 
masking of certain types of violations from the record, or from 
a state being allowed to permit a hardship license for the 
operation of a commercial motor vehicle, and a number of other 
issues, including sanctions on the states for failure to live 
up to the standards they are supposed to.
    That notice of rulemaking has gone out. The comment period 
I think closes before the end of this month, and it is our plan 
to have that rule--and I hope I do not misspeak, but I think 
the final rule should be out early next year. That will be 
combined with the final piece, which is to combine the 
requirement for the medical certificate actually to be combined 
with the CDL.
    Senator Cleland. I understand that the USDOT has asked 
state and local agencies to increase their inspection of 
driver's documentation, including a review of all hazmat 
licenses issued within the past 2 years. I have been told by my 
state, the Georgia Department of Motor Vehicle Safety, that we 
are experiencing some problems in Georgia. I am sure similar 
agencies across the Nation are having difficulties complying 
with this request because of apparently incomplete databases 
for hazmat licensing that can be used nationwide.
    Do you have any idea what efforts you are undertaking in 
the DOT in general to ensure that state and local agencies have 
the information needed to check the validity of hazmat 
licenses?
    Mr. Clapp. Senator, our request to the states specifically 
post-September 11, was to have our motor carrier safety action 
program partners--which in most states are the law enforcement 
the highway patrol folks--that perform 2 million plus 
inspections each year, which include vehicles and drivers, to 
try to do absolutely as many vehicle and driver inspections of 
vehicles transporting hazardous materials at this time, as well 
as to do a great many driver--only checks.
    In addition, we shared with the FBI, at their request, the 
entire centralized data list of licenses that have hazardous 
materials endorsements. I am not, frankly, aware of the 
specific question that you just asked, and if you do not mind, 
I am going to ask that we get back to you on that.
    Senator Cleland. That will be fine.
    Ms. Engleman, the USDOT administers the emergency 
preparedness grants program which helps state and local 
governments train police and firefighters to respond to an 
emergency involving hazardous materials.
    Certainly, we have come over the last few weeks to a new 
appreciation of our police and firefighters as first 
responders. Currently, this emergency preparedness grants 
program is funded at $12 million, but that amount of money can 
train only about 123,000 emergency personnel a year. That is 
out of a pool of some 3 million, and so we are not making much 
of a dent there.
    I also understand that grants to local governments are 
small, ranging from about $100,000 to $300,000. In fact, I read 
in the Washington Post last week that Washington, D.C. is 
supposed to have a fire department team to respond to a 
chemical or biological attack, but its members rarely train, 
and are used instead for routine fire-fighting.
    I have learned that over the last 2 years there has been a 
surplus of funds for this program totalling about $15 million. 
Do you know whether or not the Department has asked for full 
access to the surplus in order to fund its fiscal year 2002 
budget request?
    Ms. Engleman. Thank you, Senator, for the question. In 
response, the grant program that you reference is part of the 
Office of Hazardous Material Safety, and is a key partnership 
role that we have with the states. The amount of money you 
reference is actually around $12 to $14 million is capped, if 
you will, by the authorization for the original grant program, 
which I believe dates back to 1991.
    The fees, in reference to the surplus that you identified, 
are the additional fees that have resulted from the collection 
from carrier fees that we charge. The carrier fees are based on 
carriers who transport poisonous materials, flammable 
materials, explosives and the like. The fees range from about 
$250 to $2,000, and that is what generates the income to 
provide for those grants.
    In reference to your question, as to the surplus itself, we 
do not have access to that surplus, if you will, because we are 
limited by the statutory authority for the grants. The grant 
program is a terrific program, because it leverages our 
resources, and while we may only directly work with 
approximately 120,000, that is actually a leverage, because 
many of the folks we work with are organizations that then 
continue to have the information flow, the education, the 
training, and the like, and that training is based on planning 
and emergency response training.
    Senator Cleland. I am informed by staff that the 
authorization for that program has expired, therefore the 
limitations do not apply any more, but we would like for you to 
submit for the record what you would need from the Congress in 
order to access the surplus funding for fiscal year 2002.
    Thank you very much, Mr. Chairman.
    Senator Breaux. Thank you, Senator.
    Senator Ensign.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman.
    Ms. Engleman, I have a few questions, and I know that the 
NRC is mainly responsible for setting the regulations with 
regard to the shipment of radioactive materials. However, after 
September 11, I think that all of us are taking a fresh look at 
the way that any type of hazardous, whether they are 
radioactive or other types of hazardous materials are shipped 
across our highways, our railways, in light of that, and I have 
a quote that was from a report back in the 1980's at the 
direction of the NRC.
    At the time, they had not recommended strengthening 
regulations because--I will read this quote. It says, ``it has 
not been a pattern of terrorist groups in the past to kill 
large numbers of people or cause large numbers of lingering 
death. Terrorist groups have typically used violent means to 
make a political statement. Terrorists want a lot of people 
watching, not a lot of people dead.''
    Obviously, things have changed, and in the past the actual 
shipment, because they were going through places and maybe the 
types of shipments, or where they would be, this threat was not 
taken as seriously as maybe it is taken today. In light of 
that, does your agency need more authority on regulating with 
the NRC the shipment of, let us say, especially radioactive 
waste, and also, should we put in that, because if one of these 
things is, some kind of an explosive device is put on any of 
these shipments that goes through a highly populated area, 
obviously it causes that much more damage.
    Terrorist activity does not have to necessarily kill. It 
could be very disruptive, let us say, in Chicago, going through 
some of the heavily traveled freeways. You shut those things 
down, and you would shut them down for a long time. What that 
would do just to the City of Chicago--I guess the question is, 
do we need armored, or do we need armed personnel traveling 
with some of these shipments? Do you need more regulation? I 
guess what are you doing overall to look at this situation?
    Ms. Engleman. Thank you, sir. The scenario you propose is, 
indeed, what I would call one of the scary ones.
    What we are working on is both intermodally within the 
Department of Transportation, as well as interagency, because 
many of our activities are in conjunction with, for instance, 
the Department of Energy and others. We immediately put 
together a task force which has been meeting daily, by the way, 
with daily reports on progress to determine where we were as 
far as administration and regulations, what we could do, and 
what we should be doing, in other words, to determine the 
strategic gaps we need to fill.
    Some of the items that you suggested are on the table, if 
you will, as part of the portfolio of possibilities. What we 
are trying to determine at this point is the best response, not 
the reactive or first response. I think it is critical that we 
continue to balance security and safety with mobility and 
economic vitality, and that critical balance is what we are 
focused on right now to ensure that we present a final 
recommendation that is not quick fix, but a long-term solution 
that can incorporate our needs of our daily lives.
    Senator Ensign. One of the reasons that I brought this up, 
and I would like you to consider when you are studying this, is 
that Senator Murkowski was reported in the press the other day 
about his feeling that something like Yucca Mountain is needed 
more now because of the nuclear waste being stored at 
facilities around the country.
    But if that nuclear waste is at various facilities around 
the country, that is not nearly as vulnerable to causing the 
kind of damage as if that nuclear waste is being shipped 
through large cities, and in your discussion with the other 
agencies, I would request that this be a topic of conversation, 
because what you were just talking about, balancing, I think 
that we do need to study the risks versus what the rewards 
would be for having it in one place, and is it in fact a 
greater risk to allow some of these shipments of some of these 
hazardous materials, more than keeping it on site and keeping 
it guarded where it is.
    Ms. Engleman. Yes, sir, and indeed that is the focus of the 
group that Secretary Mineta has formed, which we have called 
the National Infrastructure Security Committee, and this is, as 
I said, intermodal, and has outreach to the other agencies. I 
will certainly take those suggestions back to the Committee, 
and I actually believe we are working on several of those 
possibilities now.
    Senator Ensign. Mr. Chairman, I want to thank you, and I 
have some other questions I will submit in writing.
    Senator Breaux. Thank you very much, Senator.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    Mr. Clapp and Ms. Engleman, Mr. Clapp, your office issued 
some security talking points with respect to transporting 
hazardous materials, and also more than 400 field officials 
have been visiting various sites of motor carriers that are 
responsible for the delivery of hazardous waste.
    My question to you is this. Many of these recommendations 
and talking points are suggestions, or recommendations. I would 
like to have a clearer picture on exactly what has changed with 
respect to regulations that are being put in place that would 
be mandates, as opposed to suggestions, ones that you have 
identified that are so serious, so important in the aftermath 
of what occurred on September 11, there must be requirements.
    For example, on commercial driving licenses, why should 
there not be a mandate for requiring of motor carriers a 
criminal background check, rather than just being suggested? 
Obviously, not only what occurred in Pennsylvania, but also, a 
Boston taxicab driver also had a commercial driver's license 
for hazardous materials as well, and then they followed up with 
his roommates in Detroit, and they also had driver's licenses 
to transport such materials and to drive commercial trucks, so 
obviously the system needs to be rectified, and I am just 
wondering what issues you have determined are so critical that 
they should be mandates rather than suggestions?
    Mr. Clapp. Good morning, Senator. Good question. Prior to 
September 11, and in my case prior to last Thursday, the 
regulations on the Federal Motor Carrier Safety Administration 
and RSPA as well were primarily aimed at preventing accidents 
that could create the loss of life and injuries. Much less 
focus before September 11 had to do with things that are caused 
on purpose instead of accidents. It is a whole new ball game 
after September 11.
    It was our agency's view, and to the great credit of my 
predecessor, who is with me today and continues to be our 
Acting Deputy Administrator and Chief Safety Officer, to 
immediately put our field force to work going to the carriers 
face-to-face and reviewing what you have correctly identified 
as not only compliance with Federal regulations, but also 
rather specific recommendations.
    Now that the name of the game--that is bad terminology, but 
anyway, what we have to do is security as opposed to safety. In 
addition to that, we are working with the task force that my 
colleague had described with you today with regard to what has 
to be done for the future with respect to improved 
transportation security. In that regard, of course, we also 
expect to be involved with the Transportation Security Agency, 
which I understand the Senate is in the process of considering 
right now.
    All of those things are on the table, and additional 
recommendations for regulations and other actions on our part, 
will come out of that in the very near future.
    Some regulations already apply with respect to securing the 
vehicle, attending the vehicle, et cetera, depending on the 
degree of hazard. It is not as though there are no regulations 
in place now. There are regulations in place now, but in 
addition, we thought it was very advisable to get out in the 
field. Frankly, the report I am getting back is 100 percent 
cooperation on the part of not only the carriers that we have 
gone to see who are actually anxious for the information and 
the exchange, but also cooperation from our state law 
enforcement partners.
    Senator Snowe. But will you be making recommendations in 
the future about what should be mandates? How soon are we 
talking about here? Would not some of these issues be crystal 
clear? I mean, why not have expanded background checks, make 
that a requirement, criminal background checks, obviously 
identify the lapses in the system. I realize they were obtained 
fraudulently, but there obviously were not any checks and 
balances in the system.
    Some of those 20 people were from seven different states, 
so how were they able to obtain those licenses? Apparently, we 
do not have the checks and balances in our system to prevent 
that.
    I think there are some things that ought to be done 
immediately, especially when we are talking about transporting 
hazardous materials, and in terms of the training as well, and 
the security clearances should be much more stringent and rigid 
than they are currently, and I would hope that we could move to 
put those mandates in place immediately.
    Why is that not possible?
    Mr. Clapp. Thank you, Senator. Well, I suggest that is what 
we are doing, but just to address one example of that which 
seems clear, for example, is the expanded, perhaps criminal 
background checks for persons applying for hazmat endorsements.
    It may well be that it is a different type of background 
check than what we would normally think of as a criminal 
background check. For example, the persons, again, who, for 
want of a better term, appear to be of Middle Eastern origin 
who are involved, had no criminal records whatsoever. I am 
sorry, I am speaking of the hijackers at this point--had no 
criminal record, so it is probably going to wind up being a 
different type of background check than the one that first 
comes to mind, and we need to work those out.
    Senator Snowe. But many of them had expired visas.
    Mr. Clapp. Exactly.
    Senator Snowe. Again, so it gets back to another problem, 
another dimension to the problem, but if there had been some 
probing one would have discovered that, and that gets back to 
the sharing of information. Do you have a database for all of 
these individuals who have possessed these licenses, and 
driving hazardous materials?
    Mr. Clapp. The national commercial driver's license system 
is the national database for that, yes, and frankly, Senator, I 
appreciate your suggestions. This is a new time in the world 
for all of us, and frankly we would like to have them.
    Senator Snowe. Thank you.
    Senator Breaux. Thank you, Senator Snowe.
    While Senator Rockefeller is getting ready, let me ask a 
question or two to Ms. Engleman. Let us talk about the trans-
Alaska pipeline that somebody shot a hole in, either 
intentionally or accidently, but regardless we had a rupture, 
with an estimated 6,800 barrels, or 285,600 gallons of oil that 
were spilled. Are you familiar with that incident, I take it?
    Ms. Engleman. Yes, sir. I was on duty when the call came 
in.
    Senator Breaux. What I am interested in is not so much 
actually what happened, as why it took so long? What is your 
information? Number one, are we supposed to have monitoring 
systems on the trans-Alaska pipeline? We are supposed to have 
automatic shutoff valves and leak detection systems that are 
supposed to automatically give us information that something is 
wrong somewhere, and where it is wrong.
    This incident was discovered by a helicopter. It appears 
the system did not work.
    Ms. Engleman. No, sir, I do not believe the system did not 
work, per se. As you know, there are hundreds of miles of 
pipeline in the Alaska pipeline, and the leak was detected 
fairly quickly by the overflight of the helicopter. I do not 
have a working technical familiarity with all of the safety 
valves and procedures that are involved in the Alaska pipeline, 
but I will be more than happy to get back additional 
information to you on that.
    Senator Breaux. Is it not a fact that the leak continued 
for several days after detected? That seems to be engineeringly 
unacceptable.
    Ms. Engleman. Sir, if I may, as I said, interestingly 
enough I was working at the CMC, the Crisis Management Center 
when that call came through. The reason that the leak continued 
is that first of all the FBI was not able to immediately secure 
the area.
    The person in question was shooting. There were some issues 
as to whether there were other people involved in trying to 
secure the area to allow the TAPS personnel to have a safe 
environment to go in, so that was the initial issue of being 
able to secure the area to provide the repair. The repair 
equipment and supplies were on-site and immediately available.
    The pipeline, when the area was secure, was shut down. 
However, the continuation of the leak was based on the pressure 
within the pipeline. There was a small hole about, less than 1/
2 inch, and yet because of the pressure within the pipeline, it 
did spew out and cause the spillage as you indicated. 
Fortunately, the ground was frozen and it was in a dry creek 
area, and so the containment of the spill, we were actually 
able to recover a significant amount of it, and will continue 
on our cleanup activities.
    I am very proud of the pipeline staff that works for the 
Office of Pipeline Safety at RSPA, because of their capability 
and immediate communication with us at headquarters, and also 
through the regional offices were working with the Joint 
Pipeline Office in Alaska and working concurrently with their 
activities for it.
    I do believe the responsiveness to this incident was 
immediate and direct, and as quickly as the event would allow, 
given that there were additional security issues for the field 
personnel themselves. I am happy to say that as of 7 a.m. on 
Sunday morning the pipeline was permanently repaired, and that 
we are finishing up and continuing to work on cleanup 
activities.
    Senator Breaux. I appreciate the difficulties, because it 
was a criminal situation and they had to secure the area. The 
fact is after several days it continued to leak. Is there not, 
to your knowledge remote automatic shutoff valves to shut down 
the pipeline when it has been ruptured? Don't those things 
occur automatically, just as if a well blows out it is an 
automatic shut valve? What happened there?
    Ms. Engleman. Sir, it is my understanding that even with 
the shutoff of the pipeline something which is called residual 
flow occurred, which was the product within the pipeline itself 
will continue to flow, and that there is pressure within the 
pipeline that caused the product around the leak to continue to 
spill. This is part of my education in learning more about the 
technical aspects of it. However, from a security perspective, 
this is another part of the larger wakeup call we as a Nation 
have received as far as the security and safety implications.
    Senator Breaux. It is a serious concern. The possibility 
that if somebody could take a 30-06 rifle and shoot holes 
through the Alaska pipeline resulting in multiple oil leaks, 
will not only damaging the environment, but shutting off a 
critical supply of oil to the Lower 48.
    Ms. Engleman. Yes, sir, that is a vulnerability, and it is 
a significant vulnerability that we are addressing, and 
literally daily communication and planning procedures with 
TAPS, with the Alaska pipeline personnel, and our own office.
    Senator Breaux. I would like to get a report from your 
office as to exactly what happened, and particularly in the 
continuing oil flow for several days after it was discovered, 
and why the automatic system did not work better.
    Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I do not know to whom I address the 
question, so I will just ask it. In West Virginia, part along 
the Ohio River part along the Kanawah River, we have a lot of 
chemical plants, with an issue of security.
    West Virginia has a lot of security to worry about. The 
Coast Guard visited and I think the plants took that as doing 
something about security. The fact is that they are all 
incredibly vulnerable from the Ohio River, and probably are not 
doing very much about it. When I asked what they were doing 
about security, are people getting in and out of your gates, 
they said, generally speaking--not all of them are increasing 
their security by about one, from two to three.
    Now, I do not know whether that is two to three over 24 
hours, or two to three over 8 hours, or whatever, but my point 
is that you are dealing with plant managers who are engineers, 
they are trained as engineers. They report to people who are in 
distant places, because we do not have a lot of headquarters in 
West Virginia, and they have to get budgets for what they do.
    I asked them, can you take action before you get budget 
approval? They said yes, but then we have to justify it, and if 
you know sort of the mentality of a plant manager who is 
probably going to be around for 2 or 3 years and then move on, 
maybe even to some place like Louisiana--perish the thought.
    [Laughter.]
    Senator Rockefeller. My general impression, to be very 
honest, is that they were not really up on security, that they 
were not really focused on it, and that their capacity to deal 
with it in the future was not energized, so my question to you 
is not just about trucks, vehicles, rental, whatever, getting 
in and out, but what do you do--and here I think I also speak 
for John Breaux from Louisiana.
    What are you doing, if anything, with the chemical 
industry? They strike me as an industry very much subject to 
potential attack, and very much sort of structured, in terms of 
how their organizations are run, not to deal with effectively.
    Ms. Engleman. Sir, if I may respond on behalf of the hazmat 
office, we work very closely with the American Chemistry 
Council, for instance, which represents about 95 percent of the 
producers of hazardous material, which would include such 
manufacturers as you referenced, and working with them to work 
on security identification issues, especially since September 
11.
    I have also tasked the Transportation Safety Institute, 
which is based in Oklahoma City, which is in charge of----
    Senator Rockefeller. Let me just stop you there. You say 
you work very closely with the American Chemical Association. 
What does that mean? I know hundreds of American trade 
associations, and the relationship between what I or you might 
discuss with them and what happens along the Ohio River could 
be a decade. When you say you have done that, I check it off 
the list, but what do you talk to them about, and what do they 
say they would do? What is their state of awareness?
    Ms. Engleman. Thank you, sir. The relationships we have 
with the trade associations both, and the individual 
manufacturers, is a part of what we have, is a COHMED program, 
which is a cooperative hazardous material education program, 
and when we say we work with them closely, that means truly 
monthly, weekly, sometimes daily, direct communication with the 
personnel.
    Our staff has a high level of degree of personal 
relationships with the members. It is not just attending 
conferences or workshops and the like, but actually day to day 
direct activity many times, and one of the things we have done 
since September 11 is to be in personal communication with 
these organizations, and to help them to determine what their 
current security alert status is, what their strategic gaps 
are, and to support them as we identify our own.
    So we are looking to find a mutual response that will 
support the security goals, and yes, be balanced by the 
individual needs for economic vitality and the differences of 
cost versus the need, which is a part of any business decision 
from a private sector entity, of course, but we are working to 
deliberately and in a dedicated fashion to determine strategic 
gaps, and to help our partners in industry and local and state 
government to fill those gaps.
    Senator Rockefeller. Well, let me be more specific. I asked 
them if any of their security at the gates, which is your 
territory, for going in and coming out. I asked if any of them 
carry sidearms, and they said no, and I asked don't you think 
they should, and most of them said no, and that just struck me 
as interesting. It is sort of getting into the point of a 
generic interest in increasing security as opposed to the 
specific actions required to have it mean anything.
    If the National Guard and the airports now have something 
at their side or over their shoulder, that makes a difference, 
and so do you get into that level of specificity with them, or 
is it kind of a general sense of contact. Are CEO's and people 
in the upper levels that can make these decisions, or will make 
them, or will not make them.
    If they send their public relations people, the Government 
relations people, they are often more or less helpless in the 
entire process. They do not have much to say about what goes 
on, so who are you talking to?
    Ms. Engleman. Thank you, sir. Through our----
    Senator Rockefeller. I understand you have not been here a 
long time, and I am a nice person.
    [Laughter.]
    Ms. Engleman. I know you are, sir, and as a 2-week veteran 
I will do my best to respond to your question, if I may, in 
three parts.
    First of all, what you have identified truly is our new 
reality from post September 11 versus pre-September 11, when we 
again were based on the accidental release of hazardous 
material, rather than the deliberate release of hazardous 
materials, so all of our safety precautions prior to 9/11 were 
based on the safety/accident response, versus a deliberate act. 
Having our wakeup call, we are now looking at it in a totally 
new fashion for all of our activities.
    Second, when you asked them, who do we work with, the 
hazardous materials staff in our organization, the professional 
level of expertise is very significant as to their personal 
relationships, as well as former relationships. We are working 
with field personnel, we are working with the individual 
general managers, as you say, it is not just a formal-level 
meeting with the CEO's and the like. However, I do have great 
faith in the industry partners and their organizations to help 
get the message down all the way to the troops, if you will.
    And third, if I may respond, some of the suggestions you 
make are on the table, and when I say on the table, we are 
looking at the alpha on for what type of security arrangements 
need to be done, what is the real-life applications and 
implications of some of these suggestions.
    Again, we do not want to be first to market with these 
ideas, but best to market and determining long-term solutions 
that still meet the immediate needs.
    Senator Rockefeller. Thank you.
    Senator Breaux. Mr. Clapp, Ms. Engleman, thank you very 
much for being with us. Again, you both are brand new on the 
job, and so the things that we are pursuing are not things that 
you all have really dealt with, but there are some things that 
need to be done, and need to be done in a very urgent manner.
    The situation in Pennsylvania is too much to be a 
coincidence. Sixteen fraudulently listed commercial licenses 
enabled people to carry hazardous material in this country. On 
October 4 they were indicted, and I hate to think what would 
happen had we missed them. The people who worked to get them 
ought to be congratulated, however we should have a system that 
raises flags.
    Thank God they were caught, arrested and indicted, and off 
the highways of this country. That is an incredibly serious 
situation. I just think it is not a coincidence.
    So thank you all very much. We will now hear from industry, 
and invite up the first panel, Mr. Duane Acklie, Chairman of 
the Board of American Trucking Association, Mr. Peter Pantuso, 
President and CEO of American Bus Association, Mr. Keith 
Gleason, Director of the Tankhaul Division of the Teamsters, 
Lieutenant Paul Sullivan, Massachusetts State Police, Joan 
Claybrook, President of Public Citizen, and Program Co-chair 
for Advocates for Highway and Auto Safety, and Mr. Ralph 
Sheridan, President and CEO of the American Science and 
Engineering, Inc.
    Ladies and gentlemen, we thank you for coming, and if we 
can clear the room as quickly as possible so the next panel can 
take their seats, Mr. Acklie, on behalf of the truckers we have 
you first on the list. We would be glad to hear from you again.

 STATEMENT OF DUANE W. ACKLIE, CHAIRMAN OF THE BOARD, AMERICAN 
                      TRUCKING ASSOCIATION

    Mr. Acklie. Thank you, Mr. Chairman. I am Duane Acklie. I 
am Chairman of Crete Carrier Corporation in Lincoln, Nebraska, 
and also the Chairman of the American Trucking Association.
    Mr. Chairman and Members of the Committee, we thank you for 
your interest in this very important subject. There were 
certain statements made by the Chairman and Members of this 
Subcommittee, and we can only tell you that we agree with all 
of those statements, and we take this matter extremely 
seriously.
    I would also tell you, we were very proud of our industry 
after the cowardly terrorist attacks, when we saw our drivers 
there with the policemen and the firemen and the rescue 
efforts, and what our members did throughout the Nation in 
volunteering their services to transport medical supplies, food 
and so forth, for the rescue efforts.
    The day after the attack, I drove to Kansas City from 
Lincoln because there was no airline service, and I will tell 
you I saw flags on many of the trucks, and it only gave us a 
good indication that we really have a committed industry to 
this Nation.
    I have prepared testimony that has been passed out to all 
of you, and I will try to focus on what our industry has been 
doing, and what it will continue to do, three suggestions that 
we have to you, and will try to cover anything that might be 
helpful to you.
    I would first like to say, when this came up, that the 
American Trucking Association established a web site to be able 
to communicate to the members of our industry the importance of 
security, the importance of taking another look at security.
    In addition to that, for almost 20 years we have had a 
Safety and Security Council which has focused on many of the 
same things that we have talked about today, and it is 
something our industry has always taken very seriously. In 
large part we took it seriously because it affects our pocket 
books in cargo theft, and we took it seriously because of our 
commitment.
    Let me first tell you that the carriers that belong to the 
American Trucking Association have always and continue to do 
background checks, available through the systems that is 
available to them. We do not think it is always enough, and I 
will get into that with my three recommendations.
    We also design and designate specific drivers for specific 
types of loads. In other words, there is a high security if it 
is a hazmat load. We study these and route them. We also are 
instructing and continue to instruct our drivers not to stop at 
roadside to give assistance unless it is a case of clear 
emergency, because by stopping, they subject themselves to the 
hijack.
    We also emphasize to all trucking employees, not only 
drivers, that to stay alert and to remain aware of their 
surroundings at all times, especially when transporting hazmat. 
We have established at ATA the last couple of years, and work 
with the various states, a watch program. Most of our vehicles 
in all of our companies, 5,000 to 6,000 vehicles are equipped 
with Qualcomm, so we have satellite, and we can immediately, if 
we see a situation out there that is suspicious, we can 
immediately report that, and we do report it.
    We also advise drivers transporting hazmat to certainly 
avoid the highly populated, and I mentioned give them specific 
routing, verify seal integrity to make sure the cargo is 
intact, checking to make sure that the cargo has not been 
tampered with, or something additional put on the truck. In our 
own company, we use what we call an enforcer seal. It is one 
basically, unless you take a torch, you cannot cut off, and it 
has been used by a lot of the industry where it comes around 
the rods that open the door, and the two doors basically cannot 
be taken or opened without a torch.
    We also are advising our drivers, supervisors, and 
managers, and we have all done this, on any suspicious 
shipments, any suspicious contact that we have, and we are also 
asking them to report immediately any suspicious activity to 
local communities, and to the local law enforcement agencies.
    In regard to this, criminal background checks, particularly 
on those hauling hazmat, seems to us to be very important. One 
of our recommendations to you is on criminal background checks, 
we do the very best we can, we get a DAC report, those things, 
but the national crime database is not available to us. We 
believe--in our own family we are also in the banking business. 
We can get that information on our employees if they are 
employed by a bank, but we cannot get that information if they 
are employed by a truck line, and so we would like to see the 
access to the national crime information database.
    We would also like to say to you that we believe that we 
need increased criminal penalties and fines for cargo theft, a 
uniform statistical reporting on cargo theft, and also the 
funding to allow this to be done.
    Some 20-plus years ago I was asked to testify, or to visit 
with a group in regard to cargo theft, and I said to them at 
that time, if one of our bank drive-ins was robbed of $2,000 I 
would have--and I will ask just a few more minutes, if I may, 
to finish, please--I would have two to three FBI agents 
immediately. If we had a cargo theft amounting to hundreds of 
millions of dollars, it would take several days before we got 
any response from the FBI.
    The FBI does a wonderful job, but they certainly do not 
have the resources, and it has not been given any priority. I 
know today they have so many commitments, but I would have to 
tell you that as we get back to normal, it is one of those 
things that we need to do, and I suspect on security we will 
never get back to normal, but we must have the funding to allow 
the Bureau to take a look at the various things that are 
necessary to investigate that theft.
    In addition to that, I asked our own people in regard to 
the, before I came here, the trucks crossing the border, and 
also the stops that are being made by state agencies now to 
check them. They all agree that what is being done should be 
done. We are seeing particularly heavy emphasis on our trucks 
crossing from Mexico into the United States. We are also seeing 
many of our drivers who are stopped for no reason other than 
just to check. They all believe that this is proper, and they 
are doing the proper thing, but we believe that there is 
technologies under development that can help that, and I set 
that forth in my statement.
    In addition, of course, those are the three things we think 
need to be done to improve security. The databases, of course, 
for criminal checks, of potential drivers and drivers, 
something very important. Many years ago, before the Congress 
outlawed the polygraph, we used the polygraph to check every 
driver, and I will tell you that it was very effective.
    We had a driver who came to us that had a number of years 
driving for a very good trucking company, and it showed 
deception. The polygraph examiner went back later and did some 
checking on that, and found out that person was wanted for 
murder, but that device was taken away from us. We do not have 
a national database, and we would ask you to please do 
something about it.
    Senator Breaux. Please summarize, Mr. Acklie, if you can.
    Mr. Acklie. I am pleased with what this Subcommittee is 
doing. The American Trucking Association and the trucking 
industry stand ready to do anything they can to help.
    Thank you.
    [The prepared statement of Mr. Acklie follows:]

     Prepared Statement of Duane W. Acklie, Chairman of the Board, 
                     American Trucking Association
I. Introduction
    Good morning Mr. Chairman and Members of this Subcommittee. My name 
is Duane Acklie, and I am Chairman of Crete Carrier Corporation, a 
trucking company based in Lincoln, Nebraska. I am also Chairman of the 
American Trucking Associations, Inc. (ATA), with offices located at 
2200 Mill Road, Alexandria, Virginia 22314. ATA is the national trade 
association of the trucking industry. Through the affiliated state 
trucking associations, affiliated conferences and other organizations, 
ATA represents more than 30,000 trucking companies based throughout 
these United States. I sincerely appreciate the opportunity to speak to 
this Subcommittee today on behalf of ATA.
    Mr. Chairman, in the wake of the September 11 attacks, the U.S. 
trucking industry has continued to work hard to support America's goals 
of keeping our country and our economy moving forward. I am very proud 
of this industry's efforts to keep America moving. In fact, on the 
morning of September 11, while the members of ATA staff were able to 
view from the windows of the ATA building the smoke rising from the 
attack on the Pentagon, from the opposite side of the ATA building in 
Alexandria, Virginia, they were able to see trucks on the Capital 
beltway continuing to move America.
    As Members of this Subcommittee know, motor carriers are a critical 
component of the United States' economic strength, with 9 billion tons 
of freight transported by intercity and local trucks, representing 68 
percent of the total domestic tonnage shipped. The trucking industry 
generates revenues of $606 billion annually, equaling almost 5 percent 
of our GDP, and a figure that represents nearly 87 percent of all 
revenues generated by our Nation's freight transportation industry.
    As in all other sectors of our country's economy, the horrific 
attacks have heightened security concerns in the trucking industry, and 
even more so after it was recently reported by the FBI that some 
suspected terrorists had obtained commercial driver's licenses (CDLs) 
to operate large trucks. It appears that motor carriers involved in 
transporting hazardous materials (hazmats) may have been, or may be, 
targeted for hijackings or theft for use in potential acts of 
terrorism. Obviously, this is a major concern to our industry, and I 
commend you for holding this hearing today to identify ways to address 
these very real threats.
    In my testimony today, I will communicate ATA's longstanding 
involvement in trucking security issues, including issues associated 
with the transportation of hazmats and sensitive military freight. I 
will also recommend several potential legislative improvements to 
enhance security in the trucking industry.
II. ATA's Involvement in Transportation Security and Related Issues
Security
    ATA and its members have long been actively involved in providing 
safe and secure transportation of goods on behalf of customers and 
their consumers. Since 1982, ATA has maintained a Council of members 
dedicated to advancing security and loss prevention issues. The name of 
this organization has undergone numerous changes since its inception, 
and today is known as the Safety & Loss Prevention Management Council 
(Safety Council). The Safety Council has two committees, the Security 
Committee and the Claims and Loss Prevention Committee, that have 
addressed many trucking security issues, including driver and vehicle 
security, cargo security, and facility security. The committees consist 
of security directors, many of whom are former law enforcement 
personnel, from a broad array of America's leading motor carriers. The 
committees publish guidelines and educational materials to assist motor 
carriers enhance the security of their operations.
    In addition to the security issues, ATA has also been very active 
in ensuring the safe and secure transportation of hazmats and sensitive 
military freight.
Hazardous Materials and Military Freight
    As the Subcommittee is aware, in order for a truck driver to 
transport hazmats for a motor carrier, that driver must obtain a valid 
CDL and a hazmats endorsement. Both the CDL and the hazmats endorsement 
qualification are set forth in federal regulations. However, the 
respective licensing and testing is done by the individual state. Thus, 
the hazmats licensing for drivers is beyond the control of motor 
carriers. However, the transportation of hazmats must comply with the 
federal hazmats regulations, which are adopted and enforced by the 
states. Therefore, motor carriers involved with transportation of 
hazmats do work with the states, and their respective permit and 
registration programs if applicable, to increase transportation safety 
and prepare for incident emergency response.
    Certain classes of hazmats are more highly regulated than others. 
For instance, high-level nuclear wastes from power plants are closely 
monitored by several federal agencies, including the Department of 
Energy (DOE) and Department of Transportation (DOT). Transportation of 
this material is highly regulated, and motor carriers involved in its 
movement are pre-screened and approved by DOE. In fact, the trucking 
industry played an integral role in the development of the Commercial 
Vehicle Safety Alliance's (CVSA) Level VI enhanced radioactive 
transporter inspection criteria, which is specifically designed to 
afford a high level of driver, vehicle, and load scrutiny prior to the 
truck leaving the shipper's facility.
    Military shipments are another category of specific concern. 
Military shipments of Security Risk Category I and II, Arms, Ammunition 
and Explosives (SRC I & II, AAE), are highly regulated, as are lesser 
Class I explosive shipments of the Department of Defense (DOD). Prior 
to transporting these materials, motor carriers must be approved by the 
DOD, and after approval, they are closely monitored. Drivers are 
carefully selected and must successfully complete security background 
checks. Motor carrier terminals must meet certain levels of security as 
prescribed by the Military Traffic Management Command (MTMC). And, 
shipments of SRC I & II AAE must be transported directly from point of 
origin to destination with minimal delay.
    Since October 2000, ATA has worked closely with MTMC through ATA's 
Government Traffic Policy Committee (prior to October 2000, the now-
defunct Explosive Carriers Conference of the ATA performed that task) 
on a number of issues regarding safety and security of DOD shipments. 
Deliberations continue on MTMC's newest policies and procedures for 
transportation of SRC I & II AAE, including the recently proposed 
standards for motor carrier terminals. ATA has provided MTMC valuable 
information on possible security concerns and related solutions. The 
trucking industry views these measures as paramount to the safe and 
efficient transportation of these materials, and will continue to work 
with MTMC to see that AAE shipments securely arrive at their proper 
destination.
    ATA is also working with Sandia Laboratories in the gathering of 
information for its Department of Justice (DOJ) study entitled the 
``Chemical Plant Vulnerability Assessment Project.'' This study, which 
examined the vulnerability of chemical plants that produce chemicals of 
mass destruction to terrorist attack and included the transportation 
chain, was presented to the ATA Safety Council's Hazardous Materials 
Committee in September 2001. ATA's Committee Members provided 
information to Sandia Laboratories earlier in the year concerning 
transportation security issues of these types of hazmats.
    The safe, efficient and secure movement of hazmats is of great 
importance to the trucking industry. Through work with DOT, CVSA, MTMC, 
Sandia Labs, and a multitude of associations whose members are major 
producers of chemicals and hazmats, ATA and its members have 
demonstrated that secure transportation of hazmats is a primary 
concern. ATA will continue to work with interested parties to ensure 
transportation of hazmats remains one of the safest transportation 
activities in the world.
International Land Borders
    As the Members of this Subcommittee are probably aware, on 
September 11, ports of entry at our international land borders were put 
on Level 1 Alert, resulting in extreme crossing delays on, and severely 
hampering delivery of, parts and equipment for just-in-time deliveries 
at manufacturing operations.
    It is important to note that high-security environments are not new 
for motor carriers that participate in cross-border operations with 
Canada and/or Mexico. The trucking industry has established security 
controls in their operations in conjunction with manufacturers, brokers 
and with federal law enforcement agencies. For instance, the trucking 
industry, in a joint effort with U.S. Customs, developed in 1995 the 
Land Border Carrier Initiative Program (LBCIP). This program was 
designed to counter the smuggling of illegal drugs via commercial land 
carriers and land conveyances. The LBCIP provides background 
information on drivers and trucking companies moving cargo across the 
U.S. Southwest border. According to U.S. Customs, over 1,000 trucking 
companies are approved and participating in this program and over 6,000 
drivers have been certified by Customs (via background checks) to 
participate in the program. In return for participating in the LBCIP, 
motor carriers are able to expedite the movement and clearance of their 
goods through a program known as Line Release.
    Joint industry-government efforts, such as the LBCIP and others, 
like the Business Anti- Smuggling Coalition (BASC), have allowed the 
trade community and law enforcement agencies to share information and 
improve security for cross border trucking operations. Such joint 
efforts will continue to work well into the future to eradicate the 
flow of illegal cargo entering the United States.
III. The Trucking Industry's Support in the Aftermath of September 11th
Assistance in Relief Efforts
    In the immediate aftermath of September 11, the trucking industry 
worked around the clock in support of the relief efforts in New York 
and Washington by delivering critical cargo to the rescue workers and 
assisting in the coordination efforts. For example, the Federal 
Emergency Management Agency worked closely with the New Jersey Motor 
Transport Association to coordinate truck efforts in and around New 
York City. Emergency responders and trucking executives coordinating 
the recovery applauded trucking for its rapid response after the 
attacks.
    As part of their support efforts, trucking companies delivered all 
types of supplies and equipment to the attack sites including medical 
supplies, earth moving equipment, communications equipment, emergency 
generators, mobile lighting trucks for nighttime rescue work, 
respirators, coveralls, protective gloves, blankets, and thousands of 
pounds of food and drinks. In addition, many dump truck drivers showed 
up to volunteer their services working 12-hour shifts.
Additional Security Measures Taken by the Trucking Industry
    Motor carriers throughout the trucking industry took a number of 
measures to increase the security of their operations immediately 
following the attacks. Some motor carriers have re-evaluated their 
overall security procedures for pick-up and delivery, for their service 
locations, terminals and loading-dock facilities, for dispatch 
operations to vehicles in cities and on the road. In addition to 
requesting their personnel to be extremely alert and to report any 
suspicious activity to law enforcement personnel, other examples of 
actions taken include:

  <bullet> Initiating new background checks through systems available 
        to motor carriers;

  <bullet> Designating specific drivers for specific types of loads and 
        studying the specific routes to be used;

  <bullet> Instructing drivers not to stop or render assistance except 
        in the case of a clear emergency, and alerting drivers of 
        possible ploys to obtain vehicles for hijacking purposes;

  <bullet> Emphasizing to all trucking company employees, not only 
        drivers, to stay alert and remain aware of their surroundings 
        at all times, especially when transporting hazmats;

  <bullet> Advising drivers transporting hazmats to, whenever possible, 
        avoid highly populated areas, and use alternate routes if 
        feasible to avoid such areas.

  <bullet> Verifying seal integrity at each and every stop. Notifying 
        central dispatch immediately if the seal is compromised.

  <bullet> Advising drivers to notify supervisors/managers of any 
        suspicious shipments, and if deemed necessary, to contact local 
        police or law enforcement authorities to request inspection of 
        shipment under safe practices.

    These are just a few of the measures that trucking companies around 
the country took to enhance their operational security for not only on-
the-road operations, but also at terminals and other facilities.
ATA Work with DOT and Other Federal Agencies
    In addition to the emergency relief efforts that many ATA members 
have made, and the additional security measures that have been taken as 
mentioned above, ATA staff has also worked closely with federal 
officials to collect information requested by the federal government, 
and to disseminate critical security-related information to trucking 
companies throughout the country. For example, in the hours and days 
immediately following the attacks, DOT officials turned to ATA staff to 
provide information on trucking company security programs. ATA was more 
than happy to share the requested information with DOT officials. Bush 
Administration officials also requested that ATA provide information on 
diesel fuel supply and pricing throughout the country. Once again, ATA 
staff delivered the information. ATA also assisted the DOT in 
communicating information to hazmats transporters throughout the 
country on the agency's upcoming security sensitivity visits. In fact, 
ATA established an emergency information clearinghouse on its website, 
that it continues to update as additional information becomes 
available. ATA continues to stand ready to assist DOT, the FBI, and any 
other government agency that needs assistance in these unprecedented 
times.
IV. Legislative Remedies to Increase Security in Trucking
    Relying on the expertise of its members, ATA is recommending the 
following specific legislative proposals to enhance the security of 
goods being transported by motor carriers.
Criminal Background Checks
    While ATA and its members did not envision the evil wrought on 
September 11 when the ATA Board of Directors in 1999 directed the ATA 
staff to pursue cargo theft deterrence legislation that would enable 
motor carriers to obtain criminal background information on all current 
and prospective employees, such legislation would be an effective step 
in addressing the threats we now know await.
    The possibility of a truck being used as a weapon of mass 
destruction, while unthinkable before, is now a reality. In fact, as I 
mentioned earlier, the FBI's investigation has determined that several 
detainees suspected of involvement had fraudulently obtained CDLs. 
Numerous other industries with employees who have a demonstrated impact 
on public security or are in a position of public trust have been 
authorized by statute to access national crime information databases to 
search criminal history records corresponding to fingerprints or other 
identification information. The list includes federally chartered banks 
and credit unions through the American Bankers Association, child care 
providers, nuclear facility operators, nursing facilities, home health 
care agencies, and airports. Motor carriers are a glaring omission.
    A scenario in which a truck driver or motor carrier warehouseman 
could wreak the same level of destruction as the September 11 
perpetrators wrought through air transport means is no longer hard to 
imagine. Yet, although ATA has sought authorization from Congress to 
allow motor carriers to conduct criminal background checks of employees 
and potential employees, the trucking industry remains without this 
basic tool. Many of our responsible members use what services are 
currently available through outside vendors to conduct cumbersome 
county-by-county criminal background checks. However, all agree that it 
is simply not feasible to conduct a nationwide check under the present 
scheme. ATA stands willing to work with this Congress to enact 
legislation that would enable motor carriers to access national crime 
information databases to conduct nationwide criminal background checks. 
Moreover, ATA supports federal efforts to enhance interoperability and 
communications between various federal criminal history and immigration 
databases, which would assist in screening out potential threats.
Cargo Theft
    It is no secret that cargo theft losses in our country have a 
severe economic impact on the trucking industry, the shipping public, 
businesses of all sizes and on consumers. The losses being suffered by 
our industry from pilferage, theft and hijackings continue to be 
substantial, with figures ranging from $10 billion to $12 billion 
annually. Therefore, for a number of years the trucking industry has 
looked for various means to reduce and control the losses caused by 
such illegal acts.
    The lax penalties associated with, and insufficient resources 
devoted to, cargo theft have made it increasingly appealing to criminal 
elements as a source of funding. Further, some of the goods carried on 
behalf of America's producers and manufacturers may be diverted for 
sinister purposes. While, in ATA's view, the costs to the economy of 
cargo theft were significant enough to justify enactment of cargo theft 
legislation back in 1999, the security need, as highlighted by recent 
events, overshadows any monetary costs.
    In addition to allowing motor carriers to conduct criminal 
background checks, ATA stands ready to work with Congress on a 
legislative proposal that would: (1) increase the criminal penalties 
and fines for cargo theft; (2) require uniform statistical reporting on 
cargo theft; and (3) provide increased funding local, state, and 
federal multi-jurisdictional task forces that have proven effective in 
combating cargo theft. Further, in view of the possible threat posed to 
the public by stolen commercial motor vehicles, the legislation should 
establish a mechanism within DOT to allow for immediate, around-the-
clock reporting of the theft. DOT should establish a toll-free hotline 
to receive reports from motor carriers of commercial vehicle thefts and 
then disseminate that information to federal, state, and local law 
enforcement personnel nationwide on a timely basis. Today, no such 
mechanism exists.
    In other words Mr. Chairman, secure cargo means peace of mind. ATA 
looks forward to working with the Members of this Subcommittee to 
improve the ability of motor carriers to get the information they need 
about potential employees, and in arriving at a solution to help 
eliminate the high cost that cargo theft represents to our Nation's 
economic wellbeing.
    Now, I would like to turn your attention to two other specific 
areas in which the trucking industry plays crucial roles: international 
cargo movements, and commercial driver's licenses.
Border Infrastructure for International Cargo Movements
    We would also ask the Subcommittee to look at technologies under 
development that can facilitate enforcement efforts while at the same 
time expedite the movement of cargo across our borders. One such system 
being designed presently by U.S. Customs is the International Trade 
Data System (ITDS). The ITDS concept is simple: Traders and carriers 
submit commercially based, standard electronic data records through a 
single federal gateway for the import or export of goods. As a single 
information gateway, ITDS distributes these records to the affected 
federal trade agencies, such as U.S. Customs, INS, and the DOT, for 
their selectivity and risk assessment. In standardizing the process, 
ITDS reduces the confusion and complexity of international trade, and 
speeds the processing of goods, equipment and crews across our borders. 
ITDS also benefits the government by providing more current and 
accurate information for revenue, public health, safety and security 
activities, and statistical analyses, as well as significantly reducing 
data processing development and maintenance costs.
    We would urge the Subcommittee to look at infrastructure needs of 
our ports of entry, in conjunction with other Senate Committees and 
Subcommittees with oversight of border agencies, to establish 
appropriate levels of human resources in addition to investments in 
technology infrastructure, such as the ITDS. Both Canada and Mexico, 
our largest and second largest trading partners respectively, play a 
critical role in our economic wellbeing through our economic 
interdependence. We cannot overlook the critical link that motor 
carriers play in the success of our increasing trade flows within North 
America. Therefore, we must continue to find solutions that will 
continue to allow us to move the legal commodity flows among our three 
Nations, while at the same time improve our security relationships 
between the trade community and law enforcement agencies at our 
borders.
Commercial Driver's License Issues
    With the full support of the motor carrier industry, the U.S. 
Congress, DOT and the states have been instrumental in establishing a 
generally successful CDL program. However, the fact that suspected 
terrorists have illegally obtained CDLs with hazardous materials 
endorsements should be a wake up call for all of us.
    While the federal and state governments have done a good job 
putting the regulations, programs, and information systems in place to 
administer the program, the level of effort to actively monitor and 
oversee the personnel charged with administering the program has not 
been sufficient. The suspected terrorists illegally obtaining CDLs, and 
the number of recent CDL-related scandals in several states, is 
evidence that more oversight is needed, particularly as it relates to 
CDL testers and examiners. More federal personnel should be dedicated 
to program evaluation and oversight, possibly including dedicated 
federal CDL program personnel in each state. The states licensing 
agencies should also consider increasing their program oversight 
staffs, to work in greater cooperation with federal CDL oversight 
personnel. Congress should consider authorizing additional DOT 
positions for this function, and should also consider establishing a 
dedicated (and state matching) CDL grant program to provide additional 
financial assistance to states for greater program oversight.
    An additional and more specific security-related issue concerning 
the CDL program is the collection and use of a driver's Social Security 
Number (SSN) by state licensing agencies. As part of the federally-
required and state administered CDL program, state licensing agencies 
are required by DOT to collect SSNs on the CDL application. And, many 
states use the driver's SSN as the driver's state license number on the 
CDL document. The SSN is one of several ways that states uniquely 
identify truck drivers, which is an important aspect of the CDL 
program. With identity theft apparently playing a role in the recent 
attacks, ATA believes that the industry, the states and the federal 
government must consider ways to safeguard and even enhance personal 
identification methods. Clearly, however, we should not make it more 
difficult for the industry and the states to track the identities of 
truck drivers--which is what would occur if recently sponsored 
legislation on SSNs was passed by the Congress. ATA stands ready to 
work with DOT and the Congress to enhance truck driver identifiers, and 
calls upon Members of Congress to reject legislation that would do away 
with SSNs as personal identifiers on driver licenses.
V. Conclusion
    Mr. Chairman, ATA members understand they are entrusted with the 
secure transportation of goods that keep America moving forward. Law 
enforcement has frequently been a strong ally in ATA's longstanding 
efforts to ensure the security of cargo on America's highways and 
across our international borders. We look forward to continued 
cooperation with those authorities charged with securing our Nation 
against future terrorist threats. ATA understands the role trucking 
must play to ensure our national security in this newly changed 
landscape. The trucking industry asks that Congress consider its 
proposals which will allow the trucking industry to better fulfill its 
role to safely and securely transport our Nation's freight. I am 
pleased that this Subcommittee and the full Commerce Committee have 
expressed strong interest in advancing our industry's security 
proposals.

    Senator Breaux. Thank you very much. Mr. Pantuso.

        STATEMENT OF PETER PANTUSO, PRESIDENT AND CEO, 
                    AMERICAN BUS ASSOCIATION

    Mr. Pantuso. Thank you, Mr. Chairman, for your leadership 
in convening this meeting today. The American Bus Association 
is the national trade association for the private intercity 
motorcoach industry. Nearly all of our members provide charter 
services, tour services, sightseeing, commuter, and 
approximately 100 of our members provide intercity regular 
route scheduled service.
    Our operator members are large and small. Most of them 
operate fewer than five motorcoaches in the country. They 
provide local, regional, national services, and they are 
saddled with a variety of operational challenges. The 
motorcoach industry and the companies we represent provide 
services to 774 million passengers a year, and while compiling 
the best safety record of any mode of commercial 
transportation, and at the same time providing affordable 
transportation and public transportation to more than 4,000 
communities in the United States.
    Since the September 11 terrorist attack on the United 
States and a criminal assault on a Greyhound bus last week, 
members of the ABA have worked hard to instill a greater sense 
of security to our customers. ABA members have increased 
security in and around their bus facilities and terminals, they 
have used additional personnel, they are doing additional 
surveillance, adding cameras, looking at baggage coordination.
    The ABA staff and representatives from some of our bus 
companies have met with FMCSA officials. We met with 
Administrator Clapp, as he noted. We formed a security 
committee as part of our Bus Industry Safety Council, and while 
we do not know the full extent of the security needs of the 
motorcoach industry in the U.S., we know that the motorcoach 
industry is part of a ground transportation networking system, 
and we believe that a federally funded task force of the ground 
transportation providers, both public and private, should be 
formed to undertake research responsibilities and report those 
findings back to Congress and to the administration.
    The bus industry is a fluid system. It is very accessible 
from many, points. Bus companies provide services in and out of 
terminals, and they all have different security challenges than 
operators providing charter services, tour services, or 
sightseeing. It will be almost impossible to apply a one 
solution fits all to the industry, when it comes to security.
    It is readily apparent to me and to the industry that the 
bus transportation system will also require some federal 
financial support to ensure that the traveling public is 
protected from attacks of any type. The use of a bus as a 
weapon of mass destruction may not be likely. The larger threat 
is that a bus could serve as a target for terrorist activities.
    As I noted earlier, the industry is one of small 
businessmen and women. No bus operator has the wherewithal to 
fund a host of security upgrades, which will add financial 
pressure to an industry that is already reeling from the sharp 
declines in travel and in tourism. Since September 11, many 
charter and tour operators have reported business losses to the 
association and to other motorcoach associations of between 20 
and 80 percent. None of the security fixes that we have been 
able to identify in the very short term, and that we have 
studied, could be called easy, quick solutions, or inexpensive.
    The Federal Government should provide some financial aid to 
States to develop a competitive grant program that private, 
over-the-road bus companies could apply for, and to enhance 
security in their operations, there should be a nationwide bus 
transportation support program which would look at system-wide 
or industry-wide approaches.
    The security issue in our industry can easily be divided 
into three categories. There are bus operations, bus 
facilities, and buses themselves. Company employees and bus 
terminal vendors might be subject to background and criminal 
security checks. Commercial drivers' licenses serve in the role 
of security checks. Now it focuses only on safety.
    There is a need to do training to train bus drivers and to 
train other transportation personnel to recognize and respond 
to security threats. An industry task force could also compile 
best practices for countering terrorist threats to the 
industry, but again, the development of any best practices is 
further complicated by the fluid nature of bus operations and 
facilities.
    When we talk about facilities, or we talk about terminals 
in the motorcoach industry, especially in rural parts of the 
country,in many cases they are little more than stops, or gas 
stations, or drug stores, or storefronts. Most bus passengers 
on charters, tours, commuter shuttles, sight-seeing, make 
numerous stops on their journey, and any security practice will 
need to be flexible if we are to include as many types of bus 
operations as possible.
    Larger terminals may require secured waiting areas for 
ticketed passengers. There may be a national communication 
system from the bus to law enforcement officials, and besides 
these steps, the issue of use of equipment to screen passengers 
and to screen luggage placed on board coaches should be 
addressed and examined.
    Again, there are over 4,000 communities served by intercity 
buses, and as I said, many of the stops are storefronts, or 
stops along the side of the road. Many of the storefronts have 
immediate street access through multiple doors and gates. The 
cost, the dimension, the weight of a traditional terminal-style 
scanner may be inappropriate for most locations and for most 
customers.
    Another approach that could be implemented is an 
identification or a trip itinerary for all passengers. Most 
companies currently do not have such a system in place, and 
this would be a prime area for immediate federal assistance and 
investment. Other possibilities could be protecting the driver 
area, or installing engine kill switches on buses to immobilize 
them when the switch is activated.
    In light of the threats that have taken place on the United 
States just a month ago, it seems almost trite to say that 
these and other issues should be decided quickly. The intercity 
bus industry will do everything it can to assist during this 
time of crisis. We look forward to working with the 
administration, and we certainly look forward to working with 
this Committee.
    Thank you very much.
    [The prepared statement of Mr. Pantuso follows:]

        Prepared Statement of Peter Pantuso, President and CEO, 
                        American Bus Association
    Mr. Chairman and Members of the Subcommittee, my name is Peter J. 
Pantuso and I am the President and CEO of the American Bus Association. 
The ABA would like to thank you Mr. Chairman for your leadership in 
convening this hearing and we appreciate the opportunity to testify on 
this urgent matter. The ABA is the national trade association for the 
intercity motorcoach industry. It is comprised of approximately 3400 
member companies that operate buses and provide related services to the 
motorcoach industry. Our members operate 40-45 foot touring style 
coaches with baggage bays under a passenger compartment. Nearly all of 
the operator members provide charter, tour or commuter service and some 
100 of ABA member companies provide regular route scheduled service. 
The American motorcoach industry is large, diverse and ever changing. 
Our operator members are large and small; provide local, regional and 
national services; and are saddled with a variety of operational 
challenges. Greyhound, the largest scheduled service member provides 
service to 2,500 destinations and 25 million passengers a year. Coach 
USA, the Nation's largest motorcoach company operates over 4,000 
coaches, while most of the industry operates fewer than 10 
motorcoaches. DOTS Motorcoaches, one of our smaller members provides 
service to and from Daytona Airport. Still other members provide 
service to communities with no other form of intercity transportation. 
Another 2,500 ABA members include representatives of the travel and 
tourism industries, and the manufacturers and suppliers of products and 
services for the motorcoach industry.
    All together, ABA members provide all manner of bus service to 774 
million U.S. passengers annually. A number that is more than double the 
number of passengers carried by all the U.S. airlines and Amtrak 
combined. In fact, we move more people in two weeks than Amtrak moves 
in a year. We move this many passengers while compiling the best safety 
record of any mode of commercial transportation. Last year there were 
three fatalities on intercity buses. The country's intercity bus 
industry provides affordable public transportation to over 4,000 
communities nationwide. The bus industry is a critical link in the 
Nation's transportation chain. Since the September 11th attack on New 
York City and Washington, D.C. our members have provided service from 
airports to other destinations including service to Amtrak and commuter 
rail stations as well as to other bus terminals; aiding military 
mobilization by providing transportation to military personnel under 
contract with United States armed forces; emergency transportation 
service for police and fire rescue efforts in New York City and free 
motorcoach service to those who wished to attend the memorial services 
for the fallen New York City police and fire fighters. These services 
are provided primarily by an industry of small businessmen and women.
    Since the September 11th terrorist attack on the United States and 
the criminal assault on a Greyhound bus in Tennessee on October 3rd, 
members of the ABA have worked hard to enhance the safety of the 
traveling public and instill a greater sense of security in our 
customers. ABA members have increased security both in and around bus 
terminals though the use of additional personnel, greater use of 
surveillance cameras, baggage coordination programs to match passengers 
with baggage, providing buses with the ability to communicate threats 
to terminals or offices and, in Greyhound's operations, the use of hand 
held sensing devices three of its larger terminals. In addition, the 
industry is taking steps to evaluate the need and desirability of 
further security measures.
    The week after September 11th saw the ABA staff begin an intensive 
series of discussions to review bus operations from a security 
standpoint. These discussions led to meetings including representatives 
from bus operators and Federal Motor Carrier Safety Administration 
(FMCSA) officials. In the 4 weeks since the attack ABA has formed a 
security committee within the Bus Industry Safety Council (BISC) to 
evaluate security measures now in use by one or more carriers for their 
fitness for any segment of the industry. I would like to focus my 
testimony on ABA's preliminary assessment on the state of the 
industry's security and how it may be improved in the shortest possible 
time.
    Let me begin with one inescapable fact. We don't know the full 
extent of the vulnerability of the bus transportation system or fully 
understand what it would take to close the gaps in the security net. 
While criminal activity such as that on the Greyhound bus on October 
3rd is troublesome but fortunately rare, I am aware of no incident in 
which a bus in the United States has been used for terrorist activity. 
Nor has any law enforcement official ever informed ABA of such a 
threat. However, the bus industry's sterling safety record does not 
justify complaisance.
    While we do not know the extent of the security needs of the United 
States motorcoach industry; we do know that the motorcoach industry is 
part of the ground transportation network and in the case of the 
scheduled service fixed route operations, the industry generally 
provides operator access to facilities and terminals. For that reason, 
I believe that a federally funded task force of the ground 
transportation industry--intercity and metro transit, charter and tour 
operators, manufacturers, labor, federal transportation and security 
officials and law enforcement personnel--should be formed to undertake 
this responsibility. The task force should have a mandate to report to 
the Congress and the Administration on the state of the service 
transportation system and should identify areas where security can be 
improved throughout the ground transportation system.
    Assessing the threat will not be easy. The bus industry is a fluid 
system accessible from many points. Bus companies providing scheduled 
service out of terminals will have different security challenges than 
operators that provide charter and tour service that take pre-formed 
groups sightseeing, boarding passengers at schools or clubs, and both 
types of operators will have different problems from those operators 
who pick up passengers on street corners or hotel lobbies providing 
commuter service or airport shuttles. It goes without saying that it 
will be impossible to apply one security solution to the entire 
industry.
    It is readily apparent to me that the bus transportation system 
will require federal financial support to ensure that the traveling 
public is protected from attacks of any type. This is so for at least 
three reasons. First, as I stated earlier, the industry is one of small 
businessmen and women. In some years, the profit for the entire 
industry does not reach $40 million dollars. No bus operator has the 
wherewithal to fund a host of security upgrades. Second, heightened 
security concerns will add financial pressure to an industry already 
reeling from the sharp downturn in travel and tourism brought on by the 
events of September 11th. Since the attacks, in the sightseeing, 
charter and tour portion of the industry, it is estimated that 
customers may have cancelled about 500,000 trips a day and 
approximately 20,000 jobs in that segment of the industry have been 
lost or idled. Most charter and tour operators report losses of between 
20 and 80 percent of their pre-September 11th revenue. Moreover, the 
fall season is ``peak'' season for most of our members that operate 
charter and tour service. It is a time when seniors frequently travel. 
Without the cushion the autumn brings, many companies will be out of 
business in January and February when there are no tours and there is 
no money in the bank and cash flow is non-existent. (By contrast 
however, the scheduled service business seems fairly level as compared 
to pre-September 11th levels). While the regular route segment was not 
hurt as badly by the September 11th attacks and the October 3rd event, 
these actions may cause decreases in that segment as well. Third, none 
of the security ``fixes'' that we at ABA have studied can be called 
easy, cheap or quick.
    With these facts in mind we have some preliminary recommendations 
for the Committee. To begin, the federal government should provide some 
financial aid. I see the need for two types of support. First, I 
recommend the establishment of a security program similar to the 
federal Motor Carrier Safety Assistance Program (MCSAP). This program 
would provide money to the states for a competitive grant program that 
private, over-the-road bus companies could apply for to enhance 
security in their operations. Second, I recommend that there be a 
nationwide bus transportation support program, which would focus on 
funding the system wide approaches, like those I will suggest for the 
bus industry.
    In speaking for and of the bus industry, I believe the security 
issue can be usefully divided into three categories: bus operations, 
bus terminals and the buses themselves, with my initial focus on fixed 
route scheduled service. I begin with bus operations because this is 
the largest category of issues and it also encompasses parts of the 
other categories. An issue that should be studied is whether there is a 
need to strengthen security practices relating to bus and 
transportation facility employee recruitment. Company employees and bus 
terminal vendors might be subject to criminal background and security 
checks. Related to this is the issue of whether identification cards 
should be required of employees and inspected by security personnel. 
Many companies have indicated that they are beginning this process, in 
part to provide added comfort to their customers. A third issue is 
whether the process of obtaining a Commercial Drivers' License (CDL) 
should also include security checks and the information shared with 
state and federal law enforcement officials.
    The need for training of bus and other transportation personnel to 
recognize and respond to security threats is another matter that should 
be considered in the security review we propose. There has been no 
formal or industry-wide training in the area of threat recognition, 
particularly vulnerable areas or evacuation procedures. Such training 
could be available to everyone in the industry including owners, safety 
directors, drivers, mechanics, transportation police officials, as well 
as reservation clerks, and baggage handlers.
    The industry task force also needs to address the compilation of 
the best practices for countering terrorist threats. We must know what 
practices have worked for those Nations and transportation facilities 
that have dealt with such problems. Best practices would give us some 
idea of how security could be enhanced in what circumstance; namely, 
whether security would be enhanced by uniform policies concerning 
weapons on buses; controls on package express service; rules for access 
to airports by motorcoach shuttle operators or the use of passenger 
manifest lists to identify passengers (e.g., Greyhound's TRIPS program) 
utilizing intercity regular route service.
    The development of best practices is further complicated by the 
fluid nature of bus operations and facilities. Some terminals are 
little more than stops at gas stations, drug stores, etc. Most bus 
passengers are on charters, tours, shuttles or commuter trips. Any 
security practices will have to be flexible to include as many types of 
operations as possible. We need to work cooperatively with all 
transportation modes to determine these practices and give their use 
the widest possible distribution. The federal government must play a 
critical role here by not only creating the task force we are 
proposing, but also funding efforts at which there can be exchanges of 
ideas on these matters.
    One area that warrants particular concern is the vulnerability of 
transportation terminals. In addition to training terminal personnel, 
thought should be given to providing terminals with emergency 
communications capabilities tied to law enforcement agencies. Larger 
terminals may require secured waiting areas for ticketed passengers. 
One approach may be to have a system of ``wanding'' the passengers and 
their carry-on baggage in these areas. These areas would also be off-
limits to those without tickets. The development of best practices 
guidelines for terminals and for handling baggage and package express 
would be of some help.
    Besides these steps in terminal security, the question of the use 
of equipment both to screen passengers and to screen baggage placed on 
board motorcoaches should be addressed. Although it is an issue that 
should be examined, there are reasons why metal detectors may have 
limited usefulness in the bus industry. First, there are over 4,000 
communities served by intercity buses, many of which have gas stations, 
drug stores, or hotel lobbies that also serve as bus terminals. Second, 
most terminals have immediate street access through multiple doors and 
gates. Third, the cost, dimensions and weight of such scanners make 
them inappropriate in most terminals. It may be that alternative 
security measures, along the lines of those described above, will be 
more effective in bus terminals. Another issue for consideration is the 
use of bomb sniffing dogs in and around the largest terminals.
    The use of the bus as a weapon of mass destruction (WMD) may not be 
likely. Larger commercial vehicles with larger compartments for storage 
are more likely to be used as WMDs. The larger threat is that the bus 
could serve as a target for terrorist activities. Besides the issues of 
driver documentation and baggage handling, another issue is whether the 
bus itself needs to be made safer. One strong possibility is a 
communications system in each bus that would allow the driver to tie 
into police, emergency or mobilization efforts with a communication 
that provides automatically the location of the bus. The ABA agrees 
with the Commercial Vehicle Safety Alliance (CVSA) that such 
communications systems would be effective in preventing or limiting bus 
hijackings and other incidents. The technology for such a system 
exists, but vendors have not found it cost-effective to develop the 
system itself. Another technological issue that may yield some benefit 
is the use of cameras on buses, perhaps with remote monitoring. federal 
leadership in developing this system is needed.
    Another approach that could be implemented is a wider installation 
of a system like the Greyhound TRIPS system, which provides name 
identification and trip itinerary for all passengers. Currently, 
Greyhound has a system in place to collect passenger names in locations 
that account for 85 percent of its passenger traffic, but few, if any, 
of the carriers that interline with Greyhound have such a system 
because the infrastructure costs are too high. This would be a prime 
area for an immediate federal investment.
    Two other possibilities that appear to require some research are 
efforts to enhance motorcoach safety. This may be possible by 
protecting the driver by compartmentalizing the driver area. Research 
into the possibility of the installation of an engine ``kill'' switch 
on buses to immobilize them when the switch is activated should also be 
undertaken. The feasibility and use of such technology and the possible 
re-engineering of buses are expensive and longer-term ideas. Again, 
federal cooperation will be required for our industry if any of these 
ideas prove worthy.
    The issue of research is one that crosses all lines in our quest to 
make travelers' safer. There are advantages to the federal government 
funding research into or facilitating the dissemination of promising 
security applications to the transportation modes. New applications 
such as detectors that are effective against non-metal weapons and 
plastic explosives and the use of biometric identification systems are 
now available. Whether such devices are appropriate or necessary is an 
issue for resolution, as well as the issue of whether off-the-shelf 
baggage scanners and metal detectors would be effective. In addition, 
the quest for security should be ongoing. The bus industry taskforce I 
mentioned earlier or an office within FMCSA could be required to 
coordinate and facilitate the dissemination of the research to the 
terminal operators, bus operators and law enforcement agencies who will 
need it.
    The federal government should also begin to look at ways in which 
bus transportation can supplement air transportation, particularly 
given the delays now inevitable in air travel. Some ideas from the 
perspective of the bus industry are: essential bus service, similar to 
essential air service, to rural communities; and expansion of existing 
federal preemption of state controls over bus operations to reach the 
operation of regular route services within a state; MCSAP or FTA 
security grants or small business administration loans to operators to 
make security upgrades; or the federal government underwriting the 
``war risk'' clause in bus operators' insurance policies, which is 
being used to cancel bus operators' insurance and ending service. 
Another way to allow buses to supplement existing service is the 
establishment of a communications link between localities needing 
service. Regulatory barriers should not now stand in the way of 
expeditiously offering new motorcoach services that the public may 
demand.
    In light of the terrorists' attacks on the United States just a 
month ago, it seems almost trite to say that these, and other issues, 
must be decided quickly. There is nothing more important to the 
national interest today. The intercity bus industry will do everything 
that it can to help the country through this crisis. Working together 
with the federal government and the other modes of transportation, I 
have every confidence that we will provide security for the American 
traveling public. Again, Mr. Chairman, thank you for the opportunity to 
be here. I will answer any question the Members of the Committee have 
for me.

    Senator Breaux. Thank you, Mr. Pantuso.
    Mr. Gleason.

   STATEMENT OF KEITH GLEASON, DIRECTOR, TANKHAUL DIVISION, 
             INTERNATIONAL BROTHERHOOD OF TEAMSTERS

    Mr. Gleason. Good morning, Mr. Chairman, Members of the 
Subcommittee. My name is Keith Gleason. I am Director of the 
Tankhaul Division for the International Brotherhood of 
Teamsters. On behalf of our president, James Hoffa, I want to 
thank you for the opportunity to be here today to discuss the 
important topic of safety and security in the trucking 
industry.
    While hazardous cargo is prevalent in all sectors of the 
trucking industry, with more than 800,000 shipments each day, 
my testimony will focus on the tankhaul sector. It accounts for 
only 5 percent of cargo transport in the United States, but its 
loads of chemicals, explosives, petroleum products, liquified 
gases, and poisons are some of the most dangerous and volatile 
on our Nation's highways. Even the media has picked upon that--
recent news accounts of detailed attempts by purported 
terrorists attempting to obtain hazardous material transport 
permits.
    While that may be true, there is much potential for 
somebody to merely steal a truck, than to go through the 
process of obtaining the proper commercial driver's license and 
hazardous material endorsements, although that route itself is 
fairly easy to follow. Example: the Teamsters Union conducts a 
4-hour course for a commercial driver's license for drivers in 
hazard awareness training in preparation for a driver to take a 
written test to obtain a hazardous endorsement. Most companies 
merely put their drivers in a room and show them a 1-hour 
video, which does not even address security issues.
    It is clear from the events of last month that training for 
the hazmat endorsement should be more rigorous and contain a 
segment outlining security procedures, where the driver ought 
to be aware of his surroundings to secure his truck and to 
adequately park and take other special precautions to keep his 
load from becoming a weapon for a terrorist. That might also 
require a review of the route taken by tankhaul trucks.
    A recent trip to Houston reminded me of another serious 
problem in our industry. A good percentage of our chemical 
loads are preloaded. That is, they are loaded at a plant, then 
transported some 5 to 10 miles away by city drivers to a 
holding lot or staging area, where they sit, 50 to 100 tanks, 
not secured, sitting in an unattended, unfenced lot, waiting 
for long haul drivers to pick up their loads.
    Carriers need to implement better security at their 
terminals and holding lots. In fact, on that trip I talked to 
the drivers--it was just a week ago--and I asked them if there 
in fact were loaded chemical trailers sitting in the lot. They 
told me that they were. I asked them if they were attended. 
They said they were not. I asked if they had fifth-wheel locks, 
or fifth-wheel pinlocks on the trailers, and they looked at me 
like, we never do that, so it is something that really needs to 
be addressed.
    Drivers must also be alert. Some trucks are electric start, 
where a key is needed, where other trucks are air-start. You do 
not need a key. You just push a button. Of course, many drivers 
do not lock their cabs.
    How many of you have seen a truck dispensing its 10,000 
gallons of gas at a service station, the driver is at the back 
of the truck, opening the fill cap to a lid on a 30,000 gallon 
underground tank, which, by the way, is not secure either, and 
the cab door is wide open. All someone would have to do is take 
off with the truck, or worse yet, light a flare and toss it at 
the opening of the underground tank. The tank truck holds as 
much gasoline as a commercial airliner, and the potential for 
destruction is great.
    Last week, the Federal Motor Carrier Safety Administration 
issued an alert to hazmat haulers, calling on them to develop a 
transportation security plan. It recognized that the employee 
is the first line of defense in security, but can also be a 
security risk. That is true.
    The tankhaul industry has undergone dramatic changes in the 
last 5 years. Unprecedented mergers and acquisitions by the 
major carriers have caused the industry to become dominated by 
a few large tank carriers. The driving population for the most 
part is not characterized by owner operators. That means that 
many companies are relying on drivers that they do not know.
    Unionized companies are good at screening people to make 
sure they have the proper license and endorsement. In most 
cases there is a probationary period, and with high wages and 
good benefits there is experience that comes with longevity, 
because that person is working toward a 25 or 30-year pension, 
but it is more difficult to capture and screen the universe of 
owner-drivers who are, more often than not an employee of the 
tank carrier.
    Another area of concern is port truck drivers. The 
Teamsters Union is trying to organize them. They are some of 
the lowest paid drivers in the country. Many of them are recent 
immigrants who can barely scratch out a living hauling the 
containers from our Nation's ports. The turnover rate is 
extremely high, and right now they are all owner-operators. 
They have no employer, per se, to check their driving record, 
to question their employment history and experience, or to 
confirm that they have valid licenses, permits, or other 
documentation. They drive into the ports, pick up a container, 
perhaps one loaded with hazardous materials, and then proceed 
on to their destination, we hope. That situation is ripe for 
compromise.
    Another segment I mentioned earlier is the less-than-
truckload carriers. These carriers consolidate smaller 
shipments into one trailer. While they may be only carrying a 
few drums of hazmat, it does not take much to cause a serious 
with the accident. The Teamsters is therefore working with the 
Motor Freight Carriers Association, which represents union 
trucking companies, to form a labor-management task force to 
examine safety and security issues in that segment of the 
industry.
    Finally, we cannot afford to neglect our borders, 
particularly given the administration's push to allow Mexican 
trucks to travel beyond commercial zones into the interior of 
the United States. Of the 4 million trucks that crossed the 
U.S.-Mexican border in 2000, less than 1 percent were 
inspected. Twenty-five percent of those Mexican trucks are 
carrying hazardous material. A small number of inspectors and 
lack of permanent inspection facilities is even more cause for 
concern since the events of September 11.
    The DOT's Inspector General has repeatedly recommended a 
minimum of 140 inspectors at the border crossings. We sit here 
without a transportation appropriations bill passed that would 
provide a source of funding for additional inspectors and 
facilities, when in 2\1/2\ months a Mexican truck carrying 
toxic chemicals or explosives could be traveling anywhere in 
the United States. That makes no sense at all.
    It would be wrong to allow thousands of untrained, 
unregulated, uninspected, inexperienced drivers to travel the 
highways of our country when we are just beginning to figure 
out how to improve the safety and security of our own industry. 
In fact, with the concern raised recently regarding the minimum 
wages the baggage inspectors are paid, how is it that Mexican 
drivers who make an average of $1 to $2 an hour would be safe 
to enter our borders and travel our highways?
    In summary, Mr. Chairman, the trucking industry was 
deregulated in the early 1980's. As a result, the tank truck 
industry was impacted the hardest. Today, in a nonregulated 
industry, shippers set the rates they pay for the shipment of 
their loads, leaving carries to compete for the business on an 
uneven playing field. Consequently, this results in carriers 
competing on the backs of the employees. Of the approximately 
100,000 tank truck operators driving on our Nation's highways, 
the vast majority are underpaid and overworked. As a result, 
these drivers do not have the time nor the proper rest, let 
alone the time that is necessary for safety precautions that 
must be taken in the transportation and delivery of the 
products they haul.
    I urge this Committee, Mr. Chairman, to not only 
investigate the safety measures that must be implemented in the 
industry, but also the regulatory measures that need to be 
implemented that would assure that our Nation's drivers are 
more highly compensated, experienced, and trained in all 
aspects, including safety and security, while performing their 
very dangerous jobs.
    Thank you very much for having the opportunity to testify.
    [The prepared statement of Mr. Gleason follows:]

   Prepared Statement of Keith Gleason, Director, Tankhaul Division, 
                 International Brotherhood of Teamsters
    Mr. Chairman and Members of the Subcommittee:
    My name is Keith Gleason and I am Director of the Tank Haul 
Division of the International Brotherhood of Teamsters. On behalf of 
our General President, Jim Hoffa, I want to thank you for the 
opportunity to appear here today to discuss the important topic of 
safety and security in the trucking industry. The events of September 
11th should cause all of us to take a different look at the everyday 
procedures that we use to transport cargo, especially hazardous 
materials, and to make sure that dangerous loads do not fall into the 
hands of those that can do harm to the people of the United States.
    While hazardous cargo is prevalent in all sectors of the trucking 
industry, with more than 800,000 shipments each day, today I would like 
to concentrate on the tank haul sector. While it accounts for only 
about 5 percent of truck cargo transport in the U.S., its loads of 
chemicals, explosives, petroleum products, liquefied gases and poisons 
are some of the most dangerous and volatile on our highways. That's not 
to say that we should not be concerned about the few drums of hazmat 
that may be contained in a less-than truckload trailer. The Teamsters 
Union, however, believes that many of the same safety and security 
procedures should be adopted industry-wide, and I will attempt to give 
you some suggestions from a truck driver's viewpoint.
    Currently, there are about 10,000 Teamster members in the Tank Haul 
Division, employed at 159 different companies. The liquid, gas and dry 
bulk transport industry has undergone dramatic changes in the last 5 
years. Unprecedented merger and acquisition activity by the major 
companies has caused the industry to become dominated by a few large 
tank carriers. Its driving population has become one characterized by 
owner-operators as carriers attempt to build in flexibility and de-
unionize the workforce. That means that many companies are relying on 
drivers that they don't know, instead of employee drivers who often 
times are a more stable workforce with higher pay and less turnover.
    Recent news accounts have detailed attempts by purported terrorists 
to obtain hazardous materials transport permits. We believe that there 
is as much potential for someone to merely steal a truck than to go 
through the process of obtaining the proper commercial drivers license 
(CDL) and hazardous materials endorsement--although that route itself 
is fairly easy to follow. The Teamsters Union conducts a 4-hour course 
for drivers in hazard awareness training in preparation for a driver to 
take a written test to obtain his hazmat endorsement. Some companies 
merely put their drivers in a room and show them a 1-hour video. That 
video does not even address security issues. But it is clear from the 
events of last month that training for the hazmat endorsement should be 
more rigorous and contain a segment outlining security, where the 
driver is taught to be aware of his surroundings, to secure his truck 
and load adequately when parked, and to take other special precautions 
to keep his load from becoming a weapon for a terrorist. That might 
also require a review of routes taken by tank haul trucks and other 
carriers hauling hazardous materials that takes them away from 
population centers, for example.
    A trip to Houston last week reminded me of another problem in the 
industry. A good percentage of chemical loads are pre-loaded. That is, 
they are loaded at a plant and transported, sometimes 5 to 10 miles 
away by city drivers, to a holding lot or staging area, where they sit, 
50 to 100 tanks, often in an unattended, unfenced lot, waiting for 
long-haul drivers pick up the loads. That particular practice should be 
reviewed and carriers should implement better security at their 
terminals and holding lots.
    Some trucks are electric start, where a key is needed, while other 
are air start. You don't need a key. You just push a button. Of course, 
many drivers don't lock their cabs, especially when they are preparing 
to unload or running into a bathroom at the local service station. How 
many of you have seen the tank truck dispensing its 10,000 gallons of 
gas at the service station? The driver is at the back of the truck 
opening the fill cap lid to a 30,000 gallon underground tank, which by 
the way isn't secure either, and the cab door is flung open. All 
someone has to do is take off with the truck or worse yet, light a 
flare and toss it. That tank haul truck holds as much gasoline as a 
commercial airliner and in some cases even transports jet fuel to 
airports. It's easy to figure out what the results could be.
    Many other hazardous material classifications, including chemicals 
such as chlorine, pose a potential threat as well. Chlorine is a common 
chemical transported by truck that is both an irritant and an 
asphyxiant. If a load of chlorine were ignited, it would pose a 
significant health threat to the nearby population as well as 
presenting a gas hazard for emergency responders. Other chemical loads 
could be dumped into a reservoir or other water supply, and liquid gas 
loads like oxygen and hydrogen could be ignited near population 
centers.
    The potential for destruction is great. But how do we combat this 
possibility? Let's start with the driver. The Federal Motor Carrier 
Safety Administration (FMCSA) last week issued an alert to trucking 
companies carrying hazardous materials, calling on them to develop a 
transportation security plan. It recognized that the employee is the 
first line of defense in security, but can also be a security risk. 
Unfortunately, owner-operators dominate the tank haul industry. 
Unionized companies are good at screening people to make sure they have 
the proper license and endorsement. In most cases there is a 
probationary period. And, with high wages and good benefits, there is 
experience that comes with longevity, because that person is working 
toward a 25 or 30-year pension. The same cannot be said for owner-
operators, who can hire their brother-in-law, cousin or a friend to 
drive their truck one day. Let me make it clear that I am not 
suggesting that owner-operators necessarily pose a greater security 
risk. What I am saying is there is less control, less frequent contact 
with the carrier, and greater turnover. It would be difficult to 
capture and screen that universe of drivers.
    Most trucking companies require drivers to disclose their criminal 
records on employment applications. Therefore, those with serious 
convictions cannot get jobs driving even if they have a CDL and 
hazardous materials endorsement. Of course, anyone that is likely to 
commit a terrorist act isn't going to volunteer that information 
readily. Even with criminal background checks, it is difficult, if not 
impossible, to check the record of a recent immigrant who hasn't been 
in the country very long. Certainly, any suspicious applicants should 
be carefully scrutinized, but to subject a 10 or 20-year driver with a 
spotless employment record to a criminal background check is not only a 
waste of time, but also a waste of precious law enforcement resources. 
Quite frankly, it would be almost impossible to perform thorough 
criminal background checks on the universe of drivers that carry 
hazmat.
    Let me mention a couple other areas of concern. One is where the 
Teamsters Union is actually trying to organize drivers--in the ports. I 
know that the Subcommittee heard testimony last week on port security, 
but one security issue that was not addressed was that pertaining to 
the movement of containers out of the port terminals. Port truck 
drivers are some of the lowest paid truck drivers in the country. Many 
of them are recent immigrants who can barely scratch out a living 
hauling the containers from our Nation's ports. The turnover and 
bankruptcy rates are extremely high, and right now they are all owner-
operators. They have no employer, per se, to check their driving 
record, to question their employment history and experience, or to 
confirm that they have valid licenses, permits or other documentation. 
They drive into the ports, pick up a container, perhaps one loaded with 
hazardous materials, and then proceed onto their destination, we hope! 
Similar to low paid airline security screeners, the situation in the 
ports is ripe for compromise and, in fact, is putting the public at 
risk. During March 2001, the FMSCA placed additional emphasis on the 
safety of shippers of hazardous materials. The FMSCA conducted 4,822 
inspections at among other locations, dockside, intermodal facilities 
and roadsides and found 1,112 violations (a 23 percent violation rate) 
of federal hazmat regulations. In addition, during 2000 in the Oakland-
San Francisco area, the Coast Guard working with the Federal Railroad 
Administration inspected 39 intermodal containers and found 15 
violations. The situation there is ripe for compromise. We're trying to 
bring some stabilization to this segment of the industry, but it hasn't 
been easy.
    Another segment that I mentioned earlier is the less-than-truckload 
carriers. These are carriers that consolidate many smaller shipments 
into one trailer load. While they may only be carrying a few drums of 
hazmat as a portion of their entire manifest, it doesn't take much to 
poison a water supply or cause a spill that requires large areas to be 
evacuated. The Teamsters Union is working with the Motor Freight 
Carriers Association, which represents our six biggest union trucking 
employers, to form a Labor-Management Security Task Force to examine 
safety and security issues in that segment of the industry. It's a 
bigger job in some ways, because these smaller amounts may not get the 
attention they deserve. They do, however, add up to almost half a 
million shipments a year for the MFCA companies.
    Finally, we cannot neglect our borders. Terrorists have already 
been caught trying to smuggle explosives into the United States from 
Canada in a plot to bomb a major U.S. target during the Millenium 
celebration. While I am unfamiliar with the amount of hazardous 
materials that move between the U.S. and Canada, I am certain that a 
fair amount does. This poses an additional threat to the United States. 
Now, greater scrutiny of cargo coming from both Mexico and Canada has 
caused even longer lines of trucks waiting at the borders. While this 
may be an inconvenience to those manufacturers waiting for ``just-in-
time'' deliveries, we cannot and should not relinquish our sovereign 
right to protect our borders from dangerous cargo.
    Better border security calls for a greater inspection presence at 
both borders, particularly at the U.S.-Mexico border where 25 percent 
of the trucks crossing into the United States from Mexico carry 
hazardous materials. The emergence of chemical plants in the 
Maquiladora region has increased hazmat traffic from Mexico to the U.S. 
significantly. While the focus on Capitol Hill recently has been on the 
safety of Mexican trucks, it is clear that the attention must now be on 
what they carry and who is driving them. The current restriction on 
Mexican trucks to travel only into the U.S. commercial zones is in 
danger of being lifted by this Administration, despite overwhelming 
opposition to that action by both Houses of Congress.
    The U.S. only inspects 1 percent of the Mexican trucks crossing 
into the United States. The small number of inspectors and the lack of 
permanent inspection facilities is even more cause for concern since 
the events of September 11. The Department of Transportation's 
Inspector General has repeatedly recommended a minimum of 140 
inspectors at the border crossings. We sit here now without a 
Transportation Appropriations bill passed that would provide a source 
of funding for additional inspectors and facilities, and we're 
potentially two and one-half months away from a Mexican truck carrying 
toxic chemicals, explosives or other volatile hazardous materials being 
able to travel anywhere in the United States. That makes absolutely no 
sense at all.
    Even more frightening is the fact that the database to identify 
Mexican drivers is severely underpopulated. There is no way to verify 
the driving record of most Mexican drivers. Add to that the fact that 
CDLs can be purchased or fraudulently obtained fairly easily in Mexico. 
I would also suggest that hazardous materials endorsement requirements 
are severely lacking in that country as well.
    The Teamsters Union does not believe that it would be prudent to 
allow thousands of additional hazmat carrying trucks to roam the 
country while we wrestle to get a handle on how to improve the safety 
and security of our own trucking industry. The Administration is dead 
wrong to continue to push to lift the current moratorium on Mexican 
trucks. I would further maintain that if Mexico's President, Vicente 
Fox, is such a good friend of our President, then he should respect the 
security issues that the U.S. government is dealing with today and will 
not continue to push this issue at this time.
    Mr. Chairman, the FMCSA has made several good recommendations for 
improving security in the trucking industry. The Teamsters Union and 
its member drivers stand ready to assist in this effort. I would 
encourage all employers in the transportation industry to involve your 
employees in formulating your new safety and security plans. Make your 
employees feel a part of what you are trying to accomplish. They are 
the first line of defense and are the eyes and ears of your security 
network. They can be valuable allies in this fight to avert further 
terrorist activities in the United States.
    Thank you for the opportunity to testify here today, and I will 
answer any questions the Subcommittee may have.

    Senator Breaux. Thank you very much.
    Lieutenant Paul Sullivan is next.

            STATEMENT OF PAUL SULLIVAN, LIEUTENANT, 
  MASSACHUSETTS STATE POLICE, COMMERCIAL VEHICLE ENFORCEMENT 
                            DIVISION

    Lieutenant Sullivan. Mr. Chairman, thank you for holding 
this hearing on the important issue of bus and truck security 
and hazmat licensing. I will confine my remarks to the problems 
that we are experiencing in the enforcement field with the 
licensing problems as they relate to hazardous materials 
vehicles.
    Now, as a representative of the 10,000 certified inspectors 
that Mr. Clapp referred to as assisting his 400 agents in the 
field, let me say that we do not hold ourselves out as 
intelligence experts, but we do have concerns about the CDL 
program in this country, how the driver first acquires his 
license, and what information is available about him when he is 
operating on the highway is critical to those in law 
enforcement. While there is much we can learn from face-to-face 
interaction with the drivers, we also need as much information 
about his driving history to make an appropriate decision for 
either safety or security reasons.
    Let me also interject here what we advocate today on behalf 
of law enforcement is equally important to the bus and truck 
industry as well. In a very real sense, motor carriers and bus 
companies are the first line of defense, and can only make 
judgments about hiring a particular driver based on timely and 
accurate information.
    In my written statement, I have commented at length about 
the weaknesses of the CDL program that unfortunately extend 
across the board. This, of course, includes the hazardous 
materials and passenger endorsements. The reason for the 
weakness is structural. Although there are minimal national 
standards, there is still too much flexibility among the states 
in terms of how they administer the program.
    We at this time need more than recommendations. Key 
components of the CDL programs are the testing and examination 
procedures which in some states are administered by a third 
party examiner without strictly uniform procedures covering the 
qualifications and activities of these examiners. It is not too 
difficult to imagine what problems might result, such as the 
recent case where drivers obtained hazardous materials licenses 
when they should not have been able to do so.
    Another key component of the CDL program is how the data on 
the driver, once he has entered the system, is shared among the 
state licensing and law enforcement agencies. A recent pilot 
program in my own State of Massachusetts pointed out these 
weaknesses only too clearly. As is often the case today, the 
technology is there to address the problems. The question is 
how to apply it or make it apply so law enforcement can make 
sure that an unsafe or undocumented driver is not operating on 
our highways.
    I think we need to look at the solutions to these problems 
in the short and the long term. In the short term, it should be 
mandatory that the state licensing examiners perform a criminal 
background check on anyone applying for a CDL to haul hazardous 
materials and/or passengers. CVSA, the organization that I am 
currently president of, manages a special program with the 
Department of Energy for the safe transportation of radioactive 
shipments, and in the contract as mandated by the Secretary of 
Energy a criminal background check is performed on all drivers 
of these shipments.
    We also need to consolidate our databases to either 
supplant or augment the commercial driver's license system. As 
part of the new effort, a new watch list for CDL drivers with 
hazardous materials and passenger endorsements will be created. 
It would track persons on national, state, and FBI wanted 
lists, and send a red flag to commercial vehicle enforcement 
personnel when such drivers are encountered at the roadside.
    In the long term, the CDL program needs to be restructured. 
There is a need to institute more rigorous and uniform federal 
standards for testing, examination, administration, and data 
collection and dissemination. The pilot CDL self-assessment 
program in Massachusetts has given us some very specific 
examples of where the data collection and dissemination 
programs need to be reformed, and we also call for the 
implementation of the commercial driver's license provisions of 
the Motor Carrier Safety Improvement Act of 1999. They must be 
accelerated.
    Also, commercial vehicle enforcement activities need to be 
on par with the motor vehicle administration policies in each 
state. Safety and security must outweigh customer convenience. 
These two functions need to be balanced and integrated as much 
as possible to ensure seamless program administration and 
implementation.
    In my written statement, I comment at length about the use 
of technology to enhance security and safety with respect to 
the CDL program. I believe this technology can be implemented 
now, and can be the driving force behind needed institutional 
reforms and border safety strategies.
    In conclusion, Mr. Chairman, I want to stress that the very 
nature, structure, and mission of the Commercial Vehicle Safety 
Alliance, which is uniformity, reciprocity, safety, 
compatibility, allows us to take collective action to train for 
and implement whatever new procedures are necessary to deal 
with the current national emergency and protect our highways 
and the traveling public.
    Thank you.
    [The prepared statement of Lieutenant Sullivan follows:]

 Prepared Statement of Paul Sullivan, Lieutenant, Massachusetts State 
            Police, Commercial Vehicle Enforcement Division
I. Introduction
    Mr. Chairman and Members of the Committee, my name is Paul Sullivan 
and I am a Lieutenant with the Massachusetts State Police, Commercial 
Vehicle Enforcement Section. Recently, I was elected as President of 
the Commercial Vehicle Safety Alliance, an organization of commercial 
vehicle enforcement agencies and industry representatives in the U.S., 
Canada, and Mexico.
    We thank you for holding this hearing on bus and truck security and 
haz-mat licensing issues. I will confine my oral statement to the 
primary issue you have asked me to address--the licensing issue and 
problems as they relate to hazardous materials transporters. In the 
statement submitted for the record, I also have touched on other issues 
affecting the changing role of truck and bus safety and security 
enforcement in light of the tragic events of September 11. And I have 
commented on possible steps to make our borders and the country more 
secure through a better use of technology.
    The roles of motor carrier safety enforcement agencies have changed 
in the last several weeks, primarily due to the assignment of officers 
to various security details and toward efforts to identify and protect 
potential terrorist targets.
    I also preface my remarks this morning by saying that the other 
members of the enforcement agencies that belong to CVSA and I, do not 
hold ourselves out as intelligence experts. But, the very nature, 
structure and mission of the Alliance, which includes industry 
representation, allows us to take collective action to learn, train 
for, and implement whatever new procedures are necessary to deal with 
the national emergency and protect our highways and the traveling 
public. With approximately 10,000 CVSA Certified Inspectors all over 
North America, we can mobilize a large community on short notice and 
stand ready to work with the Congress and the Administration to 
implement any measures deemed appropriate to enhance the security of 
our transportation network and those who drive on it.
    Before discussing the specifics on the licensing issues, I want to 
point out that since the FBI notification of the potential hazardous 
materials transportation threat, my state and all U.S. enforcement 
jurisdictions have been conducting an increasing number of Level III 
inspections (driver-only) of hazardous materials haulers, especially 
those near fuel farms and in densely populated locations. In addition 
to a CDL check, these inspections include a more than usual interview 
of the driver. If, based on these actions, we feel it is warranted we 
do a crosscheck of the FBI's NCIC database. We also are providing what 
assistance we can to help the Federal Motor Carrier Safety 
Administration's Security Sensitivity Visits with respect to certain 
hazardous materials transporters.
II. Licensing Issues
    We don't know all of the specific details regarding those 
individuals who fraudulently obtained CDLs in Pennsylvania to haul 
hazardous materials. We understand that the FBI investigation is still 
taking place. But, no matter what kind of a program is in place, 
dishonesty and fraud on the part of administrative personnel are always 
possible. The only thing any of us can do at this point is to examine 
the entire CDL structure and address those weaknesses that result in 
someone obtaining a CDL who should not be driving a commercial vehicle 
on our highways whether for highway safety or national security 
reasons.
    The primary tenet of the Commercial Drivers License program, which 
was fully implemented in 1992, is that each commercial driver--
nationwide--have only one license and one driving record. In large 
part, this goal has been achieved. But as we now know, this goal is 
much too limited and does not meet current needs, especially in terms 
of what we must now do to address national security needs.
A. Examination And Testing Weaknesses--Discussion
    The CDL Program is a national program and, as such, needs 
leadership and direction at the federal level. The CDL Program's 
primary focus to date has been on the administrative side, making sure 
customer lines are short and people are able to receive licenses with 
limited effort and intrusion. With few exceptions, in most states, the 
agencies administering commercial vehicle licensing are not the 
enforcement agencies (the lead MCSAP agencies). Since the enactment of 
the CDL law, the states, despite some federal requirements, have 
largely been able to execute their own approaches to implementing the 
various components of the CDL Program. The result has been 
inconsistencies in testing, examination, administration and 
ultimately--data.
    The current requirements for federal endorsements to the CDL: 
double/triple trailers, passenger, tank vehicle, and hazardous 
materials provide only basic guidelines on knowledge areas and 
suggestions for additions to the knowledge and skills tests. There are 
requirements for the knowledge and skills tests, but, once again, they 
are guidelines and address the minimums. For testing procedures, 
methods and examiner qualifications, they are even less prescriptive. 
Although there is much commonality in content, CDL licenses vary from 
state to state, especially in format and layout and how they meet the 
tamperproof requirement. To add to the confusion, states are allowed to 
implement their own endorsements and restrictions to the CDL if they so 
choose.
    The CDL knowledge and skills test requirements provide a 
performance benchmark for what is to be expected of a new commercial 
driver and there are efforts to tighten this up. On this point, 
however, there is a disconnect between the knowledge and skills tests 
and the training and instruction being delivered at the driver training 
schools. Because the tests don't necessarily reflect the real world, 
training schools often have difficulty in structuring their curricula--
do we teach to pass the test or teach to operate the vehicle? 
Additionally, there are some variances around the country for 
delivering the skills and road tests because of physical facility 
limitations. And, in many cases there are valid reasons for this. 
However, the location of facilities sometimes seems to be determined by 
economics more than safety. We also feel that the federal guidelines on 
the various endorsements do not go far enough to properly gauge whether 
a driver can, or should be, driving these types of vehicles, especially 
a newly licensed CDL driver.
    Thus, the CDL problems primarily exist: (1) in the ways the tests 
are administered, (2) the examiners, and (3) the aftermath of the 
license issuance as it relates to data collection, judicial actions and 
information sharing among jurisdictions, which will be discussed in 
more detail in the post-testing section of this statement.
    The states, federal government, industry, and the Congress have had 
a heightened awareness of some inadequacies in the system, most of 
which are known quantities and led to many of the CDL-related 
provisions in the Motor Carrier Safety Improvement Act of 1999. More 
resources have been allocated to deal with these issues at both the 
state and federal levels and the federal government has begun to take a 
more visible role. Unfortunately, many of the MCSIA provisions have not 
yet been implemented and most of the deficiencies remain.
    For specific recommendations addressing the above licensing 
weakness in the CDL program, especially with respect to hazardous 
materials endorsements, see Section IV.
B. Post-testing program weaknesses lead to safety and security 
        weaknesses--Discussion
    The process and administrative inconsistencies do not ensure the 
safety and security we need, particularly in light of the September 11 
events and in the days since. These inconsistencies manifest themselves 
in ways that degrade safety and security. Evidence of this fact is 
found in a pilot project the Commonwealth of Massachusetts just 
completed with CVSA with funding support provided by FMCSA. This 
project, the CDL State Self Assessment, evaluated compliance with laws 
and regulations governing the issuance and management of commercial 
driver licenses through analysis of data in our information systems. It 
also measured the linkage between the records of licensing and 
enforcement actions to records of commercial drivers' crashes. The 
following are a few examples of results from the Massachusetts pilot:

  <bullet> Some states are posting fewer than 50 percent of the serious 
        and disqualifying convictions sent to them by Massachusetts via 
        CDLIS.

  <bullet> License numbers are improperly transcribed more than 10 
        percent of the time on inspections and citations.

  <bullet> There were uneven responses from driver history queries 
        requested from other states (ranged from 53 to 95 percent in 
        the states checked).

  <bullet> The Commonwealth achieved much lower conviction rates for 
        the most serious (and most dangerous) violations than for less 
        serious violations.

  <bullet> The 1 percent of drivers who were driving while suspended 
        accounted for 5 percent of at-fault crashes.

  <bullet> Drivers who were convicted of serious offenses were involved 
        in at-fault crashes almost 40 percent more often than the 
        baseline drivers were.

    These results indicate: (1) problem drivers are getting involved in 
more crashes than the average driver, and (2) much of the data 
necessary to identify these drivers is not making its way through the 
system. CVSA hopes for continued support from FMCSA to conduct more 
Self-Assessments with the states in order to gather more data and to 
help our members identify areas that focus their resources more 
effectively.
    The world has become more reliant on technology. As a result of 
compartmentalized and non-uniform approaches in CDL processes, 
administration, and technology application, effective data collection, 
exchange and utilization have become problematic. The information 
systems and linkages that have been set up to gather and distribute 
this data (and at a minimum level) are patched together and not as 
robust as they need to be for several reasons:
Information technology is not what it should be.
        1. LThere is not a single source that is able to consolidate 
        and distribute all information on commercial drivers. The 
        information resides in multiple systems, and a human does the 
        only actual integration of sources. This could be a police 
        officer by the side of the road or in an inspection station, or 
        a judge making a sentencing decision, or by a company making an 
        employment decision.
        2. LThe number of information systems and linkages, as well as 
        the multiple data entry and format approaches, results in

      <bullet> less reliability and accuracy of the data;

      <bullet> opportunity for errors and for intrusion; and

      <bullet> more costs for maintenance and upkeep.

        3. LThe ability of accurate and timely data to be transmitted 
        over such systems is not acceptable, both from a systems and 
        communications perspective
Administrative weaknesses abound.
        4. LThe CDL administrative processes and requirements are not 
        uniform across the states, thereby leaving open too many 
        opportunities for error and unwanted penetration, as well as 
        oversight difficulties (especially for Third Party Testing and 
        Examination)
        5. LLegal obstacles exist to accessing certain pieces of 
        information on individuals, most notably for privacy protection 
        purposes. This limits the ability of people who could use the 
        information for important security uses, such as potential 
        employers, from having access to critical safety and security 
        information.
        6. LThe number of institutions involved is staggering and is 
        not being coordinated in a manner that puts proper emphasis on 
        safeguards for safety and security

    We believe the American Association of Motor Vehicle Administrators 
has done the best it could in developing recommended standards, 
procedures, and guidelines for use by licensing organizations in their 
member jurisdictions, given the fact that these procedures and 
standards are not promulgated by law or regulation. In fact, except for 
making sure that state information systems perform core data processing 
functions, there is no program to either enforce or verify compliance 
with these AAMVA standards, procedures, and guidelines. The approach to 
date has not been able to properly service the community's needs for 
safety and security.
    For specific recommendations addressing the above post-testing and 
information sharing weakness of the CDL program, see Section IV.
III. Other Safety and Security Considerations
A. Increased Role of Motor Carrier Safety Enforcement
    As I mentioned earlier, most CVSA enforcement member jurisdictions 
have undertaken additional responsibilities since September 11 that are 
over and above the usual motor carrier safety activities. Many are 
using their personnel to guard airports, water supplies and other 
federal and state government facilities, not to mention increasing 
their basic motor carrier safety activities with respect to hazardous 
materials haulers. As an example of some of the additional initiatives 
being implemented, many of our members are conducting Level III 
inspections (driver-only), and, upon enhanced interrogation if it is 
warranted, cross checking the CDL with the FBI's NCIC database.
B. Better Use of Technology and Federal Agency Information Coordination
    In addition to tightening up requirements within the CDL Program, a 
major tool to ensure greater safety and security of truck and bus 
transportation will be the use of information technology with respect 
to the driver, the vehicle, the carrier and its ownership, and the 
cargo including information on the shipper. Only with technology can we 
achieve these goals and yet maintain the efficiency of our commercial 
transportation system.
    For the driver, this could mean more consideration for the use of a 
``smart'' CDL to store more than the just the basic information it has 
to date. A ``smart'' CDL could include more detailed information on the 
driver as well as information on the cargo. We also need to make 
greater use of the biometric identifiers (retina scan, thumbprint, 
digital photographs, and signature/voice recognition). The costs and, 
in some cases, reliability of such technologies has thus far been a 
deterrent to adoption.
    Further, consideration should be given to better use of the 
existing safety and security data, including;

  <bullet> A method to rapidly deliver easy-to-use, more complete 
        information about the driver to the police officer on the road;

  <bullet> A method to more easily deliver a complete view of the 
        appropriate safety and security information to a potential 
        employer; and

  <bullet> It also would be appropriate to deliver more timely, 
        complete, and readable information about a driver's record to 
        judges and prosecutors.
    For better information on the shipper, the motor carrier and the 
cargo itself, the use of an electronic freight bill can be used along 
with a unique numbering and verification system (such as bar coding) 
for tracking/tracing capabilities.

    For the vehicle, there could be devices installed that would 
facilitate vehicle identification, tracking and communication. Sensors 
can be integrated to identify potential security and/or integrity 
breaches, and communicate in real-time with the driver, carrier and 
shipper. However, we do need to be sensitive to the fact that 
information about cargo, origins, destinations, and location of 
vehicles is considered sensitive business information and needs to be 
treated with appropriate respect.
    To act on security breaches and/or mitigate hazardous materials and 
other incidents, emergency responders, medical and law enforcement 
personnel can be connected to this network and be notified in real time 
of problems and of the necessary equipment and personnel to deploy
    All of these technologies, to one degree or another, are being used 
or have been tested by either the DOD, INS, CUSTOMS, or DOT (FMCSA, 
FRA, FTA, FAA, RSPA, and FHWA) as well as some motor carriers and 
shippers who now use electronic freight bills, GPS systems, 
transponders and other related technologies. It is now important to 
link these technologies and share the relevant information among 
appropriate federal and state enforcement agencies for safety and 
security purposes. The side benefit of such a technology approach would 
be to facilitate border operations at land and sea crossings to address 
the safety and security transportation and immigration concerns 
revolving around NAFTA.
    The issue then arises as to who will have the authority to mandate, 
or implement, the use of the above technologies, not to mention the 
coordination and sharing of the information. Perhaps this will be the 
role of the new Office of Homeland Security? Without a regulatory body 
such as the ICC, it would appear that FMCSA and the state motor carrier 
safety enforcement agency personnel as represented in CVSA are the only 
groups available to reach truck and bus companies as well as the driver 
for both safety and security purposes.
IV. Recommendations
    Based on the above and the collective wisdom of the Alliance 
members, we offer the following recommendations to the Congress and the 
Administration

          1. LStreamline the CDL Program and institute more rigorous 
        and uniform federal standards for testing, examination, 
        administration, data definitions, collection and archival.
          2. LCommercial vehicle enforcement (the lead MCSAP agency in 
        each state) needs to be at least on an even keel with the Motor 
        Vehicle Administration in the state. Customer convenience is 
        important. And so is safety and security. These two functions 
        need to be balanced and integrated as much as possible to 
        ensure for seamless program administration and implementation.
          3. LAccelerate implementation of MCSIA commercial driver 
        provisions, but make sure adequate resources are provided to 
        the states and federal government for implementation.
          4. LHave state licensing personnel perform criminal 
        background checks on the spot on drivers attempting to acquire 
        CDLs with hazardous materials or passenger endorsements. Couple 
        this with a photo ID requirement as well.
          5. LCreate an authoritative information consolidated database 
        (a new national central database to supplant or augment CDLIS) 
        for commercial driver information and provide the means to 
        deliver this information to the appropriate users, enforcement 
        and employers alike.
          6. LProvide a means for the industry to help police itself by 
        making certain information available to motor carrier employees 
        responsible for making personnel decisions. Encourage motor 
        carriers to investigate new customers, work with and monitor 
        their shipper's practices for ensuring safety and security.
          7. LDevelop a strategy for addressing the security concerns 
        in the rental and leasing business. Anyone can buy materials 
        from a local hardware store and rent a truck at the local gas 
        station to create a situation on the highway that is similar to 
        September 11.
          8. LCreate a ``watch list'' for CDL drivers with hazardous 
        materials and passenger endorsements. This list would track 
        wanted criminals and others on national, state, and local FBI 
        wanted lists and send a red flag to commercial vehicle 
        enforcement personnel when such drivers are encountered at the 
        roadside. Ideally, it would integrate NCIC data and other FBI 
        and intelligence information relevant to terrorist activities.
          9. LProvide commercial vehicle law enforcement personnel with 
        the appropriate resources for the technology, training, and 
        personnel to do their job effectively. We are not intelligence 
        experts, but we need to be equipped with the proper knowledge 
        and tools to assist those who are.
        10.   LImplement appropriate measures and provide persons 
        coming in contact with drivers the appropriate training to look 
        for and identify identity and document fraud.
        11.   LMake sure the Homeland Security Office has strong 
        representation from the transportation sector and is afforded 
        the proper authority, in consultation with state and local 
        authorities, to implement appropriate measures to protect our 
        transportation network against future terrorist acts.
        12.   LImplement a surface transportation technology safety and 
        security strategy for entry into the country through seaports 
        and land crossings that address both prevention and response 
        and include the monitoring of hazardous materials and passenger 
        movements and mitigating problems in the event of an incident 
        or attack. Such a strategy would include:

        <bullet> LVerification/certification of load and driver at the 
        time of departure and throughout the shipment lifecycle;

        <bullet> LIntegrate biometric identifiers with the CDL and 
        provide technologies with reading capability to enforcement. 
        Work with industry to develop a strategy for providing this 
        capability to consignees--to verify load and driver at the time 
        of arrival

        <bullet> LMonitoring and tracking capability of vehicles and 
        drivers enroute to the fleets and shippers;

        <bullet> LException-based reports to law enforcement in the 
        event of a security breach, package integrity problem (i.e. 
        hazardous materials release), and if a driver strays from the 
        intended route of travel;

        <bullet> LIntegrate emergency response and automated collision 
        notification information (E-911) in the event of an incident or 
        accident; and

        <bullet> LWireless network and centralized data center for 
        real-time data capture and communications capability--access 
        made available on a need to know basis to both industry and 
        enforcement

        13.   LDevelop and implement a nationwide public education and 
        outreach campaign to make people more aware of these issues and 
        how best to deal with any problems they may encounter. The same 
        should be done for those involved in the transportation 
        industry.

    We understand that there are clear economic ramifications to what 
we are suggesting and that many competing ideas are on the table. We 
also understand that as a Nation we have to be measured in our 
responses. Along with the airline industry, the truck and bus 
industries are the lifeblood of our economy. Most drivers who hold a 
commercial driver's license truly are professionals and as such, should 
be treated with the respect and dignity they deserve. As a Nation we 
need to do more to protect and promote this professionalism. Tightening 
up the CDL Program is a very big and important first step.
    Thank you Mr. Chairman and Members of the Committee. CVSA 
appreciates the opportunity to be invited to present our views and 
suggestions. It is our strong belief that the most effective way to 
increase both transportation safety and security on our Nation's 
highways is to focus on those who are most able to effect change--the 
drivers and law enforcement personnel on the ground in cooperation with 
motor carrier management and, hopefully, shippers.

    Senator Breaux. Thank you. We will take Mr. Sheridan next.

      STATEMENT OF RALPH F. SHERIDAN, PRESIDENT AND CEO, 
             AMERICAN SCIENCE AND ENGINEERING, INC.

    Mr. Sheridan. Thank you. Since the cold war, we functioned 
as the world's policeman with relative impunity from homeland 
attack. We have not protected the police station, however, and 
today we are just beginning to understand the consequences of 
our vulnerability in terms of economics, and in particular to 
the transportation sector.
    A formerly discounted theory of well-financed, well-trained 
terrorists committing their lives en mass to accomplish their 
mission is today's horrific reality. Aviation was simply the 
vector of choice for that event. It could have easily have been 
an attack on a military base here or overseas. It could have 
been an attack on another federal building. It could have been 
a breach at a port, or a border, or an attack on a highly 
visible corporate facility such as in the entertainment 
industry.
    Regular highway cargo and air freight could also have been 
involved. The delivery mechanism for achieving mass destruction 
could have been a sea container going in transit and intermodal 
by rail or highway with a global positioning device activated 
on it that could be activated by a cell phone and detonated at 
will by a terrorist. This is one horrific nightmare for which 
we are woefully unprepared.
    We all recognize that the transportation sector is a crime-
ridden environment, which makes it more vulnerable to a 
terrorist breach. The latest facts from the National Cargo 
Security Council indicate that we lose some $12 to $15 billion 
a year in cargo theft. We believe, however, that there are 
important advances in technology that can be applied to this 
national security challenge, and help restore trust in the flow 
of commerce in the transportation sector.
    Today, X-ray scanning technology exists to inspect quickly 
and nonintrusively trucks and sea containers, to examine the 
contents for explosives or weapons of mass destruction based on 
radioactive materials. American science and engineering is 
delivering this technology to ports and borders around the 
world. Other companies also have an array of technologies that 
may have application for port and border protection, and for 
truck security.
    AS&E technology was developed during the cold war to scan a 
Russian missile in a railroad car leaving a Russian missile 
factory, to count the warheads and the size of the rocket 
motor, to determine whether it complied with the terms of the 
INF treaty. This technology was further enhanced and developed 
for Lockheed for scanning Trident missiles for the Navy for 
quality control.
    In the mid-1990's, this technology was funded by the 
Department of Defense for the counterdrug technology program, 
initially for deployment on the Southwest border for scanning 
trucks.
    Today, we have nine fixed-site systems on the border 
between California and Texas, and 16 mobile truck x-ray 
systems. Another six mobile truck x-ray systems will be 
delivered between now and the end of March to U.S. Customs, 
again for scanning trucks.
    In addition, here in Washington the Federal Protective 
Service has a mobile x-ray system that scans all of the trucks 
entering into the Ronald Reagan Building to protect against a 
1993 type World Trade Center bombing. We have deployed for the 
U.S. Navy a mobile x-ray system in Bahrain at the U.S. Naval 
Base that scans all the trucks coming on that base to protect 
against an El Qabar type truck bombing.
    AS&E uses two types of x-ray technology simultaneously, 
transmission x-rays, which are traditional. They penetrate the 
cargo and they show density. The second, Z Backsatter, which is 
our proprietary patented technology, has two functions. One is 
the identification of organic materials, specifically drugs and 
explosives, and second the photographic quality of sharp and 
form for ease in object identification of contraband, weapons, 
or trade fraud, which is very important in identifying weapons.
    This technology is now being deployed extensively in the 
Middle East by our allies to detect weapons and explosives, to 
protect against an attack by extremists Islamic elements. It is 
used in South Africa, the United Kingdom, and Hong Kong to 
protect against cigarette and alcohol smuggling, illegal alien 
smuggling, and other forms of trade fraud, and in Mexico the 
Attorney General's Office has 10 mobile search x-ray systems 
stopping trucks at highway checkpoints looking for drugs, 
weapons, and stowaways, so this technology is deployed today, 
and is very possible to use.
    Why is this of value? The events 4 weeks ago prove that we 
are woefully unprotected from sophisticated terrorist 
programmed attacks. The public and business, their confidence 
has reached a new low point. Insurance companies are suggesting 
that they will not cover the transportation sector for acts of 
terrorism. A great opportunity exists for a Government-industry 
partnership to diminish the vulnerability of transportation 
infrastructure to terrorist crimes.
    There is a collateral benefit from improved transportation 
security. Seaports and land borders are havens for criminal 
activity and smuggling and cargo theft. By tightening the 
portals of our country, we will also address associated 
transportation crime, drug-smuggling, and trade fraud, which 
costs this country tens of billions of dollars each year.
    I have three recommendations. First is to commit bold 
funding for the deployment of nonintrusive inspection 
technologies at ports, borders, and truck weigh stations, with 
a long-term goal of 100 percent confirmation of the contents of 
trucks and containers. Inspection technologies could be 
integrated with information technology with video surveillance 
of container loading, and industry shipper participation in 
verification so we know what is in those containers.
    We would also fund additional R&D to enhance the 
effectiveness and speed of these technologies, with the goal of 
reducing the hassle factor to the transportation sector.
    Finally, sanitize ports and borders by instituting 
background checks on all personnel having routine access, with 
the intent of weeding out criminal elements. Coast Guard 
Commander Steven Flynn, who is an expert on homeland defense 
and cargo transportation, stated that we can have no 
integrity--let me restate this. He stated that if there is no 
integrity in the transportation infrastructure, security, there 
will be no flow of commerce.
    There are already suggestions this week by Attorney General 
John Ashcroft that we are vulnerable to additional attacks. No 
one knows what is actually in sea containers arriving in our 
country. We are clueless as to the threats breaching the 
Canadian border. It is time to make strong and fundamental 
changes that will protect the integrity of our borders against 
committed terrorists and restore the flow of commerce.
    Thank you.
    [The prepared statement of Mr. Sheridan follows:]

      Prepared Statement of Ralph F. Sheridan, President and CEO, 
                 American Science and Engineering, Inc.
    Mr. Chairman and distinguished Members of the Subcommittee:
    On September 11, 2001, a new form of global terrorism evaded the 
existing aviation security regimen in three airports, rendering 
obsolete previously held strategies for counter terrorism protection. 
The formerly discounted theory of well-financed, well-trained 
terrorists committing their lives en masse to accomplish their mission 
is today's horrific reality. Aviation was simply the vector of choice 
for that event. The delivery mechanism for achieving mass destruction 
could have been a sea container going intermodal by rail or highway. 
Regular highway cargo and airfreight could also have been involved. 
While the transportation infrastructure is enormous, we also know that 
it is a crime-ridden environment, which makes it more vulnerable to a 
terrorist breach. There are, however, important new advances in 
technology that can be applied to this national security challenge.
    Today, X-ray scanning technology exists to inspect, quickly and 
non-intrusively, trucks and sea containers to examine the contents for 
explosives or weapons of mass destruction based on radioactive 
materials. American Science and Engineering is delivering this 
technology to ports and borders around the world. Other companies also 
have technologies that may have application for port and border 
protection. AS&E's technology was developed originally for Cold War 
application to scan missiles through railcars to confirm compliance 
with the INF treaty process. Later, it was applied to the scanning of 
Trident missiles to assure quality compliance. In the 1990's, this 
technology was funded for the specific application of truck examination 
to detect drugs crossing the southwest border. Today, there are 9 AS&E 
fixed site inspection systems along the Mexican Border and 16 
MobileSearch <SUP>TM</SUP>, truck mounted systems, deployed by U.S. 
Customs to scan for drugs. In addition, here in Washington a 
MobileSearch system scans all trucks entering the Ronald Reagan Federal 
Office Building to protect against a 1993 type World Trade Center 
bombing. This technology is also stationed at the U.S. Naval Base in 
Bahrain scanning all trucks entering the base in search of explosives.
    AS&E uses two technologies simultaneously to inspect cargo--
traditional transmission X-rays that penetrate the cargo and show 
density. The second, Z <SUP>'</SUP> Backscatter, has two functions: (1) 
the identification of organic materials, specifically drugs and 
explosives, and (2) the photographic quality of shape and form for ease 
in object identification of contraband, weapons or trade fraud.
    This technology is now being deployed extensively in the Middle 
East by our Allies to detect weapons and explosives that could be used 
by extremist Islamic elements to attack governments. It is also used 
for detection of trade fraud, cigarette and alcohol smuggling, and 
illegal stowaways in South Africa, the United Kingdom and Hong Kong. In 
Mexico, the Attorney General's Office has invested in 10 MobileSearch 
systems to stop trucks at highway intersections looking for drugs, 
weapons and stowaways.
    Why is this of value? The events of 3 weeks ago prove that we are 
woefully unprotected from sophisticated terrorists' programmed attacks. 
The public is demanding that we protect them. Insurance companies are 
suggesting they will not cover transportation sectors for acts of 
terrorism. A great opportunity exists for a government/industry 
partnership to diminish the vulnerability of the transportation 
infrastructure to terrorist crimes.
    Recently, U.S. Coast Guard Commander Stephen Flynn wrote in the New 
York Times that ``We must find a way to reduce the potential of our 
global transport lifelines to be conduits for terrorism. There needs to 
be a far greater international cooperation in policing transnational 
flows of people and goods.''
    There is a collateral benefit. Seaports and land borders are havens 
for criminal activity in smuggling and cargo theft. By tightening the 
portals to our country, we will also address associated transportation 
crime, drug smuggling and trade fraud, which costs this country 
billions of dollars each year. Clearly, implementation of mass 
screening programs for cargo will be expensive. There is, however, a 
clear benefit--the reduction of smuggling and cargo theft that plagues 
this industry.
    The technology is available and demonstrated. The benefit is not 
only in restoring public trust, but also in hardening our borders and 
ports against terrorist acts. The shipping and cargo industry also 
stands to benefit greatly by the reduction in cargo crime, which is a 
huge drain on our economy and directly affects the pocketbooks of all 
Americans. I ask this Committee to consider three recommendations:

        1. LCommit bold funding for the deployment of non-intrusive 
        inspection technologies at ports, borders, and truck way 
        stations with a long-term goal of 100 percent confirmation of 
        the contents of trucks and containers. Inspection technologies 
        should be integrated with information technology systems, video 
        surveillance of container loading, and industry shipper 
        participation in verification.
        2. LFund additional R&D efforts to enhance the effectiveness 
        and speed of these and new technologies to reduce the hassle 
        factor on the transportation sector.
        3. LSanitize ports and borders by instituting background checks 
        on all personnel having routine access with the intent of 
        weeding out criminal elements.

    Recently, Attorney General John Ashcroft warned of potential 
additional attacks. No one knows what is actually in sea containers 
arriving in our country. We are clueless as to the threats breaching 
the Canadian border. It is time to make strong and fundamental changes 
that will protect the integrity of our borders against committed 
terrorists.
    Thank you.

    Senator Breaux. Thank you, Mr. Sheridan.
    Ms. Claybrook.

            STATEMENT OF JOAN CLAYBROOK, PRESIDENT, 
PUBLIC CITIZEN, AND PROGRAM CO-CHAIR, ADVOCATES FOR HIGHWAY AND 
                          AUTO SAFETY

    Ms. Claybrook. Thank you, Mr. Chairman, for the opportunity 
to testify. I am testifying on behalf of Advocates for Highway 
and Auto Safety, a coalition of consumer health, safety and law 
enforcement organizations and insurance companies and Public 
Citizen, and I will submit some items for the record to shorten 
my statement.
    Recent events have tragically brought to light the terrible 
cost of lax oversight, uneven or weak enforcement, and gaps in 
the protective regulations that we need. We have learned again 
that the Nation's safety interests and our security interests 
are inextricably intertwined.
    With all due respect to Mr. Clapp, I must say that this is 
not something new. We have 5,000 people a year killed on the 
highway in large truck crashes. Two years ago, this Committee 
created the agency he now heads. It was the wakeup call, it 
seems to me, to the Federal Government that this should be a 
priority, and using a manual as their major effort it seems to 
me is useless unless it has one entry which says, action now.
    We put at risk our firefighters, our police, our health 
care assistants when we do not take account of the safety and 
security needs of this Nation, and creating an advisory 
committee is also to me a big waste of time. There used to be a 
Federal Truck Safety Advisory Committee that had mostly 
truckers on it, and it resisted all the regulations, many of 
which we have detailed in our written testimony, that are so 
desperately needed.
    According to a report on chemical terrorism by the Agency 
for Toxic Substances and Disease Registry of the CDC, rather 
than creating and transporting weapons, terrorists are very 
likely to exploit regulatory vulnerabilities in commercial and 
private transport of hazardous chemicals, which provide ready-
made weapons, including explosives, poisons, and nuclear 
materials.
    Potentially harmful industrial chemicals such as chlorine 
and ammonia are widely available for use in farming, 
manufacturing, water processing, and other purposes, and can be 
purchased through the Internet anonymously, on the web from 
sites like chemdeals.com by commercial carriers. Certain 
chemicals are exempt from federal requirements concerning 
placarding, shipping papers, and emergency telephone numbers, 
when they are delivered within 150 miles of a farm, or, for 
certain chemicals that are transported in amounts below certain 
thresholds.
    For example, the 4,000 pounds of ammonium nitrate 
fertilizer that was used to destroy the Federal Building in 
Oklahoma City was only one-quarter the amount that is exempted 
in our current rules, a whopping 16,090 pounds, and that is 
when it is used for intrastate travel. Shippers of agricultural 
chemicals have lobbied the Congress before for additional 
exemptions, and we appreciate the support of this Committee in 
opposing that.
    It turns out that in addition to lax oversight concerning 
the purchase of chemicals, there are very few checks on who may 
open shop as a commercial carrier for hazardous materials, or 
who may obtain a license to become a commercial driver, 
including for the transport of hazardous materials.
    In general, our current safety policies make it too easy to 
gain motor carrier operating authority, too easy to obtain and 
keep a commercial driver's license, too easy to qualify for 
driving or transporting hazardous materials which can be used 
for terrorist actions, and too easy to mask violations 
contained in past driving records and motor company carrier 
operations.
    Monitoring of activities is also very difficult, because 
data acquisition and retrieval at both the federal and state 
levels about past motor carrier operations and the commercial 
driving records of operators of large trucks and buses is poor, 
unreliable, or nonexistent, despite repeated direction by the 
Congress to the Department of Transportation and to the states 
to quickly build sound databases on company and driver 
performance.
    In fact, news reports have disclosed that some members and 
associates of the terrorist network responsible for the events 
of September 11 obtained commercial driver's licenses, 
including hazardous material endorsements, by both legal and 
illegal means.
    There are also shockingly few checks upon where trucks 
carrying hazardous materials may drive, including driving 
routes that are close to population centers, and there is 
little data and oversight by the Federal Government and the 
States about the amounts and location of hazardous materials 
that are in circulation each day. Despite growing concern and 
repeated congressional mandates to fill major gaps in the 
regulations applicable to commercial carriers, the Federal 
Motor Carrier Safety Administration and its predecessor in the 
Federal Highway Administration sat on their hands for a decade.
    The following partial list of safety regulations with 
security implications were directed by Congress to be 
accomplished but DOT is long past the statutory deadlines, some 
as long ago as 1991, but rather than protect the public it 
accommodated the trucking industry and other transportation 
interests.
    The agency has failed to complete key rulemakings mandated 
by Congress. In 1988, the agency was first given a mandate to 
issue a rule regarding a unique identifier, for example, a 
fingerprint, to assure the identity of commercial motor vehicle 
operators. Congress reiterated this goal in 1998, in TEA-21, 
and directed the Secretary to complete the rulemaking by 
December 1998, but there has been no action on this issue since 
1991.
    In fact, we looked through the agency's semiannual 
regulatory agenda, and for most of these items it says, under 
consideration.
    The Hazardous Materials Transportation Uniform Safety Act 
of 1990 directs the DOT to adopt safety permit regulations for 
motor carriers transporting class A or B explosives, liquified 
natural gases, hazardous materials that are extremely toxic 
upon inhalation, or highway route-controlled radioactive 
materials. The deadline for action was November 1991. The 
agency issued a notice of proposed rulemaking in June 1993, and 
since has done nothing.
    In 1990, the DOT was also directed to institute a 
nationally uniform system of permits for hazardous materials 
transportation within 3 years of the conclusion of a study by a 
working group. The working group issued its report 3 years 
late, in 1996, documenting widespread defects in state 
permitting practices which negatively impact safety. The agency 
published two notices reviewing the report. It has done nothing 
else since.
    In 1994, the DOT was charged with specifying, by January 
1999, the minimum safety information that new or prospective 
employers must seek from former employers during the 
investigation of a new hire driver's employment record. In 
1998, TEA-21 modified the direction to provide protections for 
commercial driver privacy. Since the agency's NPRM--that is the 
notice of proposed rulemaking--in 1996, there has been no 
further rulemaking to date.
    TEA-21 in 1998 allowed DOT 1 year to review procedures by 
the states to determine whether the current system of new 
driver training and licensing, which provides very minimal 
guidelines for the states, accurately measures an applicant's 
knowledge and skills, and to investigate the benefits of a 
graduated licensing system which requires on-road experience 
before a driver is allowed to earn extra endorsements, such as 
the one for hazardous materials.
    An information collection notice was published by the 
agency in July 1999, but the review required by Congress has 
not been completed, and therefore has been no further action by 
DOT.
    Other rules that are more recently overdue include a rule 
disqualifying a driver's CDL if the driver is convicted of a 
serious offense in a noncommercial motor vehicle. The final 
mandate for this rule is now over a year late. DOT is also 
tardy on a rule for new motor carrier entrants, a crucial area 
here, particularly if you are a terrorist forming a new 
company, including consideration of a safety proficiency exam 
to establish minimum requirements for the applicant motor 
carriers, including foreign carriers, to ensure their knowledge 
and ability to comply with federal safety standards and require 
a safety review of their operations.
    Under the current system, new motor carriers are able to 
set up operations by completing a paper application and paying 
$300, and can remain in operation as long as 18 months before 
any federal safety review, and often these are done late. We 
believe that this is an outrageous oversight, and that an on-
site safety review should be conducted prior to any grant of 
operating authority in order to ascertain whether a carrier is 
able to comply with U.S. safety standards.
    In addition, the proposed rules put forward by the 
administration concerning inspections and tracking data for 
cross-border trucking with Mexico-domiciled carriers has been 
widely viewed as wholly inadequate to protect the public from 
both safety and security risks. Congress has therefore 
thankfully stepped up and passed the Murray-Shelby amendments, 
which fill many of the oversight gaps in the DOT rulemaking 
proposals, and we appreciate the support for that.
    As discussed more fully in my testimony, however, some of 
these measures still do not go far enough, and others should be 
considered for application by our domestic safety regulatory 
program, such as the requirement for an initial onsite review 
by DOT before any operating authority is granted to any new 
carrier, foreign or domestic.
    Other good ideas, such as equipping hazardous materials 
carriers--with the GPS review technology are also basic 
improvements which need to be made a part of in the federal 
regulatory structure.
    These are just a few examples of the agency's systematic 
failures, and there are many more. In short, the agency charged 
with assuring the Nation's motor carrier safety time and time 
again has flouted its mandates and ignored crucial deadlines 
for key safety and security initiatives. Congress must 
aggressively oversee the agency's near-term rulemaking by 
reiterating deadlines, ordering Inspector General or General 
Accounting Office investigative reports, conducting oversight 
hearings on particular rules, and building the record on the 
agency's inability to honor the will of the Congress and 
protect the American public.
    If the agency continues to be moribund, Congress should 
even consider the step of taking this power away from the 
Department of Transportation. Vital public safety and security 
interests are at stake, and action on these crucial items I 
have mentioned today is imperative for both the public, the 
Congress, and the DOT.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Claybrook follows:]

 Prepared Statement of Joan Claybrook, President, Public Citizen, and 
        Program Co-chair, Advocates for Highway and Auto Safety
    Thank you, Mr. Chairman and Members of the Subcommittee on Surface 
Transportation and Merchant Marine, for the opportunity to testify 
before you today on the urgent topic of improved transportation safety 
and security for the people of the United States. My name is Joan 
Claybrook, President of Public Citizen. Today, I am testifying on 
behalf of Public Citizen and Advocates for Highway and Auto Safety 
(Advocates). Advocates is a coalition of consumer, health, safety, law 
enforcement, insurance companies and organizations working together to 
reduce motor vehicle deaths and injuries on our highways. Both Public 
Citizen and Advocates have a long history of working with this 
Committee on improving motor carrier safety.
    The tragic events of September 11th have placed needed attention on 
the fact that a carefully forged intersection of security and safety 
needs in all modes of transportation is long overdue. This is 
particularly true in the arena of commercial transportation of freight 
and passengers by motor carriers. As a Nation, we have been lax in 
adopting the kinds of stringent policies for safety oversight and 
approval of domestic motor carrier operations that would provide a 
ready basis for ensuring both the safety and security of people, cargo 
and institutions in the U.S. In large measure, many of these 
shortcomings in safety and security are the direct result of the 
chronic failures of the Federal Motor Carrier Safety Administration 
(FMCSA) to fulfill explicit Congressional mandates to conduct 
rulemaking and issue regulations in a timely manner that would improve 
federal and state safety oversight and provide important data on motor 
carrier operations.
    In general, our current safety policies also make it too easy to 
gain motor carrier operating authority, too easy to obtain and keep a 
commercial driver's license (CDL), too easy to qualify for driving or 
transporting hazardous materials which can be used for terrorist 
actions against the U.S. Also, it is too easy to maintain anonymity 
about past driving records and motor carrier company operations. Data 
acquisition and retrieval at both the federal and state levels about 
past motor carrier operations and commercial driving records of the 
operators of trucks and buses is poor unreliable, or nonexistent 
despite the repeated direction by Congress to the U.S. Department of 
Transportation (DOT) and the states to quickly build sound data banks 
on company and driver safety performance, especially the records on 
safety oversight reviews, individual vehicle inspections, and traffic 
and criminal conviction records of drivers holding intrastate or 
interstate licenses for the operation of commercial motor vehicles. In 
fact, the FMCSA has failed to issue dozens of safety standards mandated 
by Congress in seven different statutes since 1988 and is delinquent on 
almost another dozen. Clearly, Congress must demand immediate action by 
this agency and its new director, Mr. Cleggs.
    These deficiencies in safety regulation can be readily exploited to 
pose security threats. Under existing regulations, a terrorist 
organization could set up a new trucking company in the U.S. or Mexico, 
and obtain operating authority in the U.S. for an 18 month period 
without any federal or state safety review or security check simply by 
paying a fee. Drivers for such a company could obtain CDLs and 
authority to transport hazardous materials essentially by taking 
written exams with only a minimal on-the-road test for safety 
proficiency, with no criminal background check or review for security 
purposes, and with only the most rudimentary check of the driver's 
prior three-year state driving record. After obtaining a hazardous 
materials endorsement in addition to their CDL, these drivers can 
legally drive semi-trailers carrying up to 80,000 pounds of placarded 
hazardous materials on nearly all roads and through all cities in the 
U.S. These materials include common, deadly gases like ammonia, 
chlorine, arsine, and phosphine, which if released would form a cloud 
that would cling close to the ground and cover as many as 40 square 
miles.
    The potential danger from hazardous materials is enormous because 
of the huge amounts transported on a daily basis. According to the most 
recent figures published by DOT, in 1998 there were an estimated 
800,000 daily hazardous materials shipments in the U.S., constituting 
over 3 billion tons of hazardous materials shipped annually. The 
Changing Face of Transportation, U.S. DOT (2000). Since there is no 
adequate state or national reporting hazardous materials system, these 
figures are derived from indirect sources and most likely represent a 
gross under reporting of total hazardous materials shipments and 
tonnage. DOT also reported that in 1997 over one-quarter (28.4 percent) 
of all hazardous materials was transported by truck. Id. Likewise, the 
vast majority (86 percent) of the more than 14,000 annual hazardous 
materials incidents reported each year between 1993 and 1997 involved 
highway vehicles, i.e., trucks. Transportation Statistics Annual Report 
1999, U.S. DOT (1999). Again, due to the inadequacies of the hazardous 
materials incident reporting system, these figures significantly 
underreport actual incidents. Thus, shortcomings in motor carrier 
safety regulations have particular importance with respect to the 
transportation of hazardous materials.
    These serious shortcomings are magnified by even more severe 
deficiencies at our shared foreign borders with Canada and Mexico. The 
pending FY 2002 DOT Appropriations bill (H.R. 2299), as passed by the 
Senate, goes a long way towards imposing more stringent safety controls 
at our southern border which will naturally assist and improve security 
procedures. Nevertheless, Congress should consider strengthening 
several provisions of the legislation which may still allow for abuse 
and exploitation by Mexico-domiciled motor carriers. In addition, some 
of the provisions authored by Senator Murray (D-WA) and Senator Shelby 
(R-AL) directed at improving the southern border, with appropriate 
strengthening, may also be necessary to consider for application to our 
northern border with Canada.
Domestic Motor Carrier Safety and Security Deficiencies
    Chronic deficiencies in motor carrier law, regulation, and safety 
oversight practices simultaneously erode both highway safety and 
domestic security needs in the U.S. In most cases, these shortcomings 
are the result of a persistent failure to act on the part of the 
Federal Motor Carrier Safety Administration (FMCSA) in response to 
Congressional directives which, in some instances, stretch back to the 
late 1980s. Many important safety regulations have not been adopted 
despite Congressional timetables. These rules, if issued, would provide 
a solid trunk on which to graft the branches of U.S. security policies 
in critical areas of need. The following is a brief review of some of 
the major issues which affect both motor carrier safety and security in 
the U.S.
Defects In the Current Commercial Driver License (CDL) Program Permit 
        Abuses
    It is far too easy to obtain a CDL in the U.S. No training or prior 
certification of any kind is needed to apply for and obtain a license 
to operate a truck or bus in interstate commerce. It is even easier in 
most states to obtain a license to operate a truck or bus solely 
intrastate. In fact, in some states a chauffeur's license or, in some 
instances, even an ordinary passenger vehicle operator's license, is 
sufficient to operate a smaller commercial motor vehicle for hire. 
Moreover, a not-for-hire rental even of a tractor-trailer is possible 
in a number of states without having any kind of CDL.
    Testing for a CDL requires no instruction and many applicants are 
self-taught, have prepped with the aid of mail-order courses, or have 
been given a few lessons by a truck or bus driver they know. No 
certification of any kind, such as the demonstration of having passed a 
federally-approved training course, has to be presented to take a 
multiple choice paper examination for the basic interstate CDL. The 
driving part of the test is often brief and perfunctory. Many drivers 
admit that they learn how to operate a truck only through their 
employment experience. This results in inexperienced drivers when they 
first take to the road carrying freight throughout the U.S.
    Special endorsements, such as the additional authorization to haul 
placardable quantities of hazardous materials, are, again, simply 
``knowledge'' tests. The applicant does not need to demonstrate any 
driving skills, but only answer a set of written questions about 
hazardous materials transport.
    Another key shortcoming of the federal CDL rules is the lack of a 
requirement for a commercial license for drivers operating trucks less 
than 26,001 pounds gross vehicle weight. There are millions of single-
unit trucks weighing between 10,001 and 26,000 pounds operating in 
interstate commerce with drivers who have no CDLs, are not subject to 
mandatory drug and alcohol testing, and for whom the states often have 
patchy, unreliable driver records of traffic and other violations and 
convictions.
    The time has come for the U.S. DOT to place more rigorous 
requirements on the ability to obtain and renew a CDL. Specifically, 
Advocates and Public Citizen support extending the CDL requirement to 
vehicles weighing between 10,001 and 26,000 pounds. This action would 
trigger the application of the same data collection requirements for 
larger truck commercial license holders which are currently in 
development pursuant to Congressional direction in both the 
Transportation Equity Act for the 21st Century of 1998 (TEA-21) and the 
Motor Carrier Safety Improvement Act of 1999 (MCSIA).
    Let me turn now to other areas of safety oversight which directly 
affect the kind of information and approval procedures that are needed 
to increase the safety and security of the American people.
Both Safety and Security Needs Require the Use of a Commercial Driver 
        Unique Identifier
    Advocates and Public Citizen believe that there is a crucial, unmet 
need for absolutely secure, reliable, continuing identification of 
drivers to prevent unauthorized, illegal uses of the interstate CDL. A 
question lurking in the background is whether such a unique identifier 
ought also to be required even for licenses allowing intrastate-only 
commercial motor vehicle transportation. The Truck and Bus Safety and 
Regulatory Reform Act of 1988 directed the Secretary to issue 
regulations not later than December 31, 1990, establishing minimum 
uniform standards for a biometric identification system to ensure the 
identity of commercial drivers operating vehicles weighing more than 
26,000 pounds. In 1998, Congress subsequently amended the requirement 
in TEA-21 to remove the mandate that commercial drivers specifically 
shall have biometric identifiers and substituted the requirement that 
CDLs contain some form of unique identifier after January 1, 2001, to 
minimize fraud and illegal duplication. The Secretary was directed to 
complete regulations on this new legislative mandate by December 9, 
1998 (180 days after enactment). However, there has been no action on 
this issue and the agency lists it as ``Next Action Undetermined'' in 
its latest semi-annual regulatory agenda.
The Previous Employment Records and Safety Performance History of New 
        Commercial Drivers Are Still Not Being Provided to Employers
    The Hazardous Materials Transportation Authorization Act of 1994, 
directed the DOT Secretary to specify the minimum safety information 
that new or prospective employers must seek from former employers 
during the investigation of a driver's employment record. However, the 
FMCSA has issued only a notice of proposed rulemaking in 1996 and 
Congress, in the 1998 TEA-21, gave the provision a new statutory 
deadline of January 1999. Congress also modified the rulemaking charge 
to the Secretary to include protection for commercial driver privacy 
and to establish procedures for the review, correction, and rebuttal of 
inaccurate records on any commercial driver. The new TEA-21 provision 
went so far as to also protect previous employers against liability for 
revealing safety performance records in accordance with the regulations 
issued by the Secretary.
    Unfortunately, this crucial regulation which has both major safety 
and security applications has received no further rulemaking action 
since 1996, and the FMCSA has missed the deadline for completing 
rulemaking by almost 2 years. In addition, many trucking companies have 
demonstrated an unwillingness to supply such information even under a 
``hold harmless'' provision in federal law. The FMCSA should 
immediately issue a final rule to require that prospective employers 
request such information and that previous employers transmit that 
information under penalties for refusal. A collateral issue is whether 
revelation of any services problem posing a threat to others should be 
shared with all enforcement and security oversight authorities after 
the individual has the opportunity to rebut any accusations. In light 
of recent events, and the published reports that alleged terrorists 
sought to obtain CDLs and hazardous materials endorsements, criminal 
background checks for CDL applicants, and additional, appropriate 
security investigation of CDL holders who seek hazardous materials 
endorsement, should be required as part of the FMCSA final rule.
Performance-Based Commercial Driver License Testing and Training Would 
        Provide Important Data on Operator History, Qualifications, and 
        Competence
    TEA-21 required the Secretary to complete not later than one year 
following enactment of the bill, that is, by June 9, 2000, a review of 
the procedures established and implemented by the states pursuant to 
federal law governing the CDL to determine if the current system for 
testing is an accurate measure of an applicant's knowledge and skills. 
The review also required the FMCSA to identify methods of improving 
testing and licensing standards, including the benefits of a graduated 
licensing system (allowing for expanded driving privileges over time). 
A notice proposing an information survey was published in the Federal 
Register on July 19, 1999. However, the review mandated by Congress to 
be completed more than a year ago remains undone and there has been no 
further published action on the graduated licensing survey.
    Advocates and Public Citizen believe that this issue has important 
security implications for the safety of the American people. As 
indicated earlier in this testimony, applicants can easily take a CDL 
test in many states with no required instruction and little actual 
driving experience, pass the test, and be awarded a CDL for 
unrestricted truck operation in interstate commerce. We are strong 
supporters of mandatory driver entry-level and special endorsement 
training to secure a CDL, to transport of hazardous materials, and to 
operate Longer Combination Vehicles and school buses. We believe that 
drivers should not only receive federally-required training, but also 
undergo lengthy periods of restricted driving privileges to determine 
their safety and competence. A graduated licensing program with 
mandatory training certification from recognized, federally-approved 
driver training institutions as a prerequisite for gaining a CDL not 
only would provide for better, safer drivers, but it also would provide 
sustained information on every CDL candidate at each stage of training, 
certification, and graduated licensing.
Serious Offenses by Commercial Drivers in Non-Commercial Motor Vehicles 
        Need To Be Recorded and Accessed By Enforcement Authorities
    The Motor Carrier Safety Improvement Act of 1999 (MCSIA) directs 
the Secretary to issue regulations by December 9, 2000, providing for 
the disqualification of an applicant for a CDL if the driver has been 
convicted of a serious offense in a non-commercial motor vehicle 
resulting in license revocation, cancellation, or suspension, and of a 
drug or alcohol offense involving a non-commercial motor vehicle. The 
FAA was long chastised for not enacting similar rules for pilots as 
well. The final regulation must specify the minimum disqualification 
period.
    A notice of proposed rulemaking was issued on May 4, 2001. A final 
rule on this mandate is now more than nine months overdue. In 
combination with current state practices that mask or expunge driver 
violations after only a few years which under this statutory 
requirement would disqualify a commercial driver, driver conviction 
records for CDL holders are patchy and incomplete. Most states maintain 
official driving records for only three years and many states regularly 
mask or expunge a commercial driver's record for convictions which 
otherwise would have triggered CDL suspension or disqualification. 
Having complete, long-term records of commercial driver violations in 
both commercial and non-commercial vehicles would provide necessary 
information about serious offenses, including criminal offenses, 
committed by current or potential CDL holders or about applicants who 
previously had CDLs that they allowed to expire for a time without 
immediate renewal.
There Currently are No New Motor Carrier Entrant Requirements that Test 
        a Company's Safety Proficiency and Fitness to Carry Freight or 
        Passengers
    As was pointed out in the beginning of this testimony, it is far 
too easy for carriers to apply for and be granted interstate operating 
authority to haul freight and passengers in the U.S. The Secretary is 
directed in the MCSIA of December 1999 to require through regulation 
that each owner and each operator granted new operating authority shall 
undergo a safety review within the first 18 months after the owner or 
operator begins motor carrier operations. This timeframe for evaluating 
the safety of all new motor carriers is triggered by a requirement for 
the Secretary to initiate rulemaking to establish minimum requirements 
for applicant motor carriers, including foreign motor carriers, to 
ensure their knowledge of federal safety standards. The Secretary is 
also directed to consider requiring a safety proficiency examination 
for motor carriers applying for interstate operating authority.
    The FMCSA has continued since enactment of the MCSIA in December 
1999 to award new operating authority to applicant motor carriers 
without any safety fitness evaluations. Also, there has been no 
rulemaking to establish minimum requirements for new entrants to 
demonstrate their safety knowledge and no public consideration of the 
need for a safety proficiency test. The FMCSA, however, has proposed 
the 18-month safety review for Mexico-domiciled motor carriers in its 
proposed rulemaking of May 3, 2001, to implement the North American 
Free Trade Agreement. The requirements for domestic new carriers should 
be no less than for Mexican new entrants.
    Essentially, motor carriers can presently gain domestic operating 
authority without any evaluation of the operating history of the 
company, of the drivers in the company's employ, or the quality of its 
safety management and equipment. Only the payment of federal fees is 
necessary. The key question here is whether evaluation of the company 
and its safety practices should occur after it already has operated for 
up to a year and a half, or whether a safety fitness evaluation and 
other information which also could have security value should be a 
threshold requirement before any award of operating authority is 
granted.
    The Murray-Shelby provisions included in H.R. 2299, now in 
conference, would require both initial and subsequent safety evaluation 
of foreign carriers to ensure that they have adopted adequate safety 
practices before they are even allowed to operate on U.S. roads. 
Advocates and Public Citizen believe that Congress should consider 
requiring an initial safety evaluation of domestic carriers as well, 
including successful performance on a safety proficiency examination, 
as a basis for considering awards of conditional operating authority. 
Permanent operating authority should be made contingent upon a 
subsequent acceptable onsite safety review after a year-and-a-half of 
operating under an award of temporary operating authority.
    In this regard, we believe that, at a minimum, the prior history of 
a company which may have been previously incorporated but went out of 
business should be investigated at the time that an application for 
operating authority is submitted. Moreover, a preliminary safety 
evaluation of the company and its drivers should be accomplished before 
temporary operating authority is granted for a maximum of a year and a 
half. Following that period, a second, complete safety fitness review 
should be performed to determine if the company should be awarded 
permanent operating authority. Also, a safety proficiency test should 
be mandatory at the time of initial operating authority application. 
All of these prudent and reasonable actions were directed by Congress 
but continue to languish at FMCSA. If the agency would implement these 
rules, both the safety and the security of motor carrier operators 
would be significantly improved.
Exempted Quantities of Highway Transported Hazardous Materials are Too 
        Generous and Could be Used to Harm the United States
    The Research and Special Programs Administration (RSPA), a modal 
administration within U.S. DOT, issued a final rule in January 1997 
conforming most intrastate shipper and carrier hazardous materials 
transportation to the federal Hazardous Materials Regulations. This 
action was directed by Congress in the Hazardous Materials Uniform 
Transportation Safety Act of 1990. However, RSPA adopted broad 
exemptions in its final regulation to respond to concerns about the 
burdens of hazardous materials transportation compliance for intrastate 
agricultural interests, especially for farmers. We believe that these 
exemptions, whatever their merit when first adopted, need Congressional 
review to determine if they require modification. Let me cite some of 
the reasons.
    In its final rule, RSPA provided extensive exemptions for 
agricultural motor carrier hazardous materials transport, including 
waivers of requirements for shipping papers, placarding, emergency 
telephone numbers, and hazardous materials training for motor vehicle 
transport of hazardous materials within 150 miles of a farm. Moreover, 
specific exemptions were also granted in the rule for intrastate-only 
transportation by farmers of maximum quantities of certain hazardous 
materials, including 16,094 pounds of ammonium nitrate fertilizer in 
bulk packaging, 502 gallons of certain liquids or gases, and 5,070 
pounds of other kinds of agricultural products. Other exemptions were 
permitted for small quantities of what are often flammable fuels and 
gases, or toxic chemicals, as incidental ``materials of trade'' used in 
the course of daily business. RSPA also allowed non-specification cargo 
tanks and bulk packaging of certain weights to be exempted from federal 
requirements governing hazardous materials transport in order to reduce 
economic burdens. In order to further reduce such burdens, RSPA 
permitted, without restrictions, additional packaging exemptions to be 
enacted at the discretion of the states and issued a further notice 
delaying the effective date of compliance from July to October 1998 to 
facilitate state legislative action to enact such exemptions.
    It is necessary to re-examine these exemptions from hazardous 
materials transportation requirements, including the maximum permitted 
amounts of hazardous materials and ``materials of trade'' which both 
directly and indirectly can be used to inflict damage at specific 
targets in the U.S. If you recall, about 4,000 pounds of ammonium 
nitrate fertilizer was used to destroy the federal building in Oklahoma 
City. This is only one-quarter the maximum amount currently exempted 
under RSPA regulation. Not only are these items susceptible to being 
used as weapons against people and institutions, but the data system at 
the state levels for documenting the purchase and movement of these 
hazardous materials by highway is exceedingly poor and unreliable.
The FMCSA has Failed to Implement a Congressionally Mandated Safety 
        Fitness Permit for the Transportation of Certain Hazardous 
        Materials
    In this connection, I would also like to point out that the same 
1990 federal hazardous materials legislation directs the Secretary to 
adopt stronger federal motor carrier safety permit regulations for 
motor carriers transporting Class A or B explosives, liquefied natural 
gases, hazardous materials that are extremely toxic upon inhalation, or 
highway route-controlled radioactive materials in both intrastate and 
interstate commerce. Most importantly, the law allowed permits to be 
granted only on the basis of a carrier successfully completing a safety 
fitness finding for carrying these hazardous materials. A less than 
``Satisfactory'' rating on the safety test would automatically result 
in the denial of the permit application. Implementation of the permit 
program would also produce a reliable data bank of information on the 
operations of motor carriers transporting these specific hazardous 
materials.
    The deadline for final regulations was November 16, 1991. A notice 
of proposed rulemaking was issued on June 17, 1993, but the FMCSA has 
since taken no further action. The topic is listed in the agency's most 
recent semi-annual regulatory agenda (May 14, 2001) as ``Next Action 
Undetermined.'' This long overdue rulemaking needs to be completed 
expeditiously to ensure that a hazardous materials safety fitness 
requirement weeds out motor carriers that are unable to comply with the 
important federal requirements for safely transporting the specific 
hazardous materials specified in the 1990 legislation. Congress should 
re-examine whether the list of what are considered ``high-risk'' 
hazardous materials should be expanded to include other hazardous 
materials, especially those which might be used to threaten or harm 
Americans.
    Furthermore, Advocates is convinced that appropriate regulation of 
hazardous materials transportation should include a requirement that 
hazardous materials carriage must be limited to trucks equipped with 
Global Positioning System (GPS) technology that permits real-time 
location tracking of hazardous materials loads. Moreover, holders of 
CDLs with a hazardous materials endorsement should have biometric 
identifiers and be required to use computerized smart cards in order to 
access and operate vehicles carrying hazardous materials.
    In addition, current routing regulations for non-radioactive 
hazardous materials highway transportation are too sketchy and 
inadequate. The federal requirements do not require states even to have 
highway routing criteria for non-radioactive hazardous materials and 
they continue to allow loads of hazardous materials to be transported 
on most roads and through major metropolitan areas across the Nation 
regardless of population or traffic density. In fact, the burdens 
imposed on the states by the Federal Highway Administration to justify 
alternative, diversionary routes for public and environmental 
protection have a chilling effect on the willingness of state and local 
public authorities to tell trucking concerns hauling hazardous 
materials to use longer, safer routes. Congress should place much 
tighter restrictions on the routing of hazardous materials transported 
by trucks and direct the states, pursuant to Congressionally directed 
federal regulations, to ensure uniform action throughout the Nation, to 
adopt safer alternate routings for certain kinds of hazardous materials 
which will lower the risks of spills or of terrorist actions which can 
adversely affect sensitive environmental areas and dense population 
centers.
A National Uniform System of Permits for Hazardous materials Carriers 
        is Urgently Needed to Enhance Safety and to Improve Reporting 
        and Data Collection
    The Hazardous Materials Transportation Uniform Safety Act of 1990 
directed the Secretary to institute a nationally uniform system of 
permits necessary for motor carrier transport of hazardous materials. 
The date of the final regulation was linked by Congress to a report of 
a working group on what actions were needed to accomplish this. The 
group, however, issued its recommendations 2\1/2\ years late on March 
15, 1996, which was more than 5 years ago.
    Despite the fact that the report documents widespread defects in 
state permitting practices that directly affect the safety of and data 
on hazardous materials movements by motor vehicle, two notices 
reviewing the report have been issued to date, in 1996 and in 1998, 
without any indication of agency willingness to institute the uniform 
permitting system directed by law 11 years ago. No further action has 
been taken by the FMCSA to date. It is clear from an examination of the 
report that there is no reliable national database of information about 
the number of hazardous materials shipments, the quantity of what is 
transported, its nature, or its exact origins and destinations. State 
permitting practices do not currently keep complete, long-term records 
accurately indicating these and other facets of hazardous materials 
transportation. The national uniform permitting system is long overdue 
for implementation by DOT. Congress should consider the need to place 
more stringent data collection and retrieval requirements on 
intrastate-only highway transport of hazardous materials, especially 
any continuing exemptions for certain quantities of specific materials.
Data Systems Identifying Motor Carriers and Drivers at Both the State 
        and Federal Levels are Unreliable and Incomplete
    Congress has recognized in both TEA-21 and in the Motor Carrier 
Management Information System (MCMIS) that motor carrier data systems 
are incomplete and inadequately linked among states, and between the 
states and the federal government. Timely, accurate information on 
motor carriers, including inspection results, Out of Service Orders, 
carrier and driver violations either do not exist in many cases or 
cannot be retrieved quickly by one state from another state.
    Congress may want to consider accelerating the program of data 
collection and analysis improvements that it called for in Section 225 
of the MCMIS. The advent of a central data repository with rapid access 
by both safety oversight and security authorities is crucial to 
protecting the welfare of the American people. Currently, the 
legislation calls for primary responsibility in setting up the state 
system of data collection and reporting, and communication of those 
data to the federal government, to be vested in the National Highway 
Traffic Safety Administration (NHTSA). Although NHTSA is very 
knowledgeable about the creation and operations of data systems, 
current resources at the agency and the amount of funding originally 
authorized in Section 225 may not enable rapid development and 
implementation of the data system. The provision presently has no 
timeline for putting the data system in place. Advocates believes that 
a deadline is necessary for getting the system up and running, and that 
$5 million each year is not sufficient for ensuring rapid acceleration 
and implementation.
Border Commercial Transportation Safety and Security
    Advocates and Public Citizen believe that U.S. cross-border motor 
carrier freight and passenger transportation must be subjected to a far 
higher level of intense, detailed security oversight to ensure U.S. 
domestic safety against potential terrorist threats. Implementing 
enhanced border security oversight simultaneously involves onsite motor 
carrier fitness evaluation. There is no bright line separating motor 
carrier security concerns from safety issues.
Motor Carrier Safety Fitness and Driver Checks Proposed in H.R. 2299 
        Should Apply to Mexico-Domiciled Carriers Only Operating Within 
        the Border Zone
    It is crucially important that the pending Murray-Shelby provisions 
in H.R. 2299, requiring more rigorous motor carrier safety evaluations, 
be enacted into law as soon as possible. The Murray-Shelby provisions 
provide for full safety reviews performed on-site for all Mexican 
carriers applying to operate beyond the border commercial zones, with a 
required finding of ``Satisfactory'' before conditional authority is 
granted and again before granting permanent authority. This avoids the 
pitfalls of the current FMCSA proposed rules which require only paper 
applications to determine whether a Mexico-domiciled motor carrier is 
granted operating authority without any actual on-site safety 
evaluation.
    However, this section as well as others in the bill apply a number 
of important safety requirements with security implications only to 
Mexican carriers operating beyond the current commercial zones. Without 
on-site safety reviews for all Mexico-domiciled carriers, it is 
impossible for safety and security authorities to determine the 
legitimacy of the companies applying for commercial zone-only operating 
authority.
    For example, another section of the Murray-Shelby provisions 
requires electronic verification of every Mexico-domiciled motor 
carrier driver's license status and validity at border crossing points, 
but only for carriers operating beyond the border zone. Congress should 
extend this policy and practice to cover all foreign drivers of all 
Mexico-domiciled carriers crossing into the U.S. Additionally, much 
more careful coordination and verification of licensure is needed with 
the government of Mexico to validate a driver's Licencia Federal de 
Conductor before a driver attempts to cross into the U.S. Advocates and 
Public Citizen are concerned with drivers presenting at border 
checkpoints fraudulent Mexican licenses that have been forged or 
exchanged. The U.S. should also work with the Mexican government to 
adopt for Mexican licenses an unambiguous driver identifier, such as a 
biometric identifier, to ensure license validity and non-
exchangeability. In addition, insurance coverage should be verified at 
the border.
    There are other examples of requirements in the Senate-passed DOT 
Appropriations bill dealing with motor carrier inspection and driver 
checks that Congress may want to consider extending to Mexico-domiciled 
carriers operating only within the border zone. These include the 
Commercial Vehicle Safety Alliance (CVSA) decal, the requirement for a 
distinctive registration number of Mexican motor carriers, and the U.S. 
insurance requirement. Right now, these provisions apply only to those 
Mexico-domiciled carriers that will operate outside the border zone.
Congress Should Consider Directing the FMCSA to Rescind Operating 
        Authority of Foreign Motor Carriers that Have Serious Safety 
        Violations
    Congress should also strengthen the Murray-Shelby provisions to 
require that certain specified, serious violations involving dangerous 
or illegal operations by a foreign motor carrier will result in a 
lifetime exclusion from grants of U.S. operating authority. For 
example, transporting undeclared, highly toxic, radioactive, or 
explosive hazardous materials, using drivers with no valid Mexican 
driver licenses, or transporting hazardous materials or passengers 
without insurance could be regarded as violations so serious as to bar 
a company for life from operating in the U.S. A difficulty with 
enforcing such a prohibition, of course, is that a company may dissolve 
but re-incorporate with essentially the same managers, practices, and 
drivers as before and begin to engage in the same abuses that triggered 
the original ban on its operating authority.
    These recommendations are the minimum steps necessary to gain 
uniformity in coverage of Mexico-domiciled motor carriers. They will 
ensure improved data gathering and verification procedures for both 
enhanced safety and security of Mexico-domiciled motor carriers. 
Furthermore, measures such as those addressing driver license 
validation and unique driver identifiers, may also be necessary to 
implement at our northern border with Canada.
Foreign Motor Carrier Transportation of Hazardous Materials is Poorly 
        Enforced and Oversight By Federal Authorities Must Be 
        Strengthened
    Let me know turn to a pressing issue of public safety and security 
that Congress may need to evaluate in depth. Strengthened safety and 
security measures are especially imperative in the area of hazardous 
materials transportation across both our northern and southern borders. 
Unfortunately, we have systemic weaknesses in our oversight and control 
of hazardous materials movements across our borders.
    It has been well-documented for many years that Mexico-domiciled 
motor carriers chronically fail to adhere to U.S. hazardous materials 
transportation regulations with regard to proper containerization, 
shipping papers accurately portraying the materials being hauled, and 
correct display of required placards. Also, Mexico-domiciled carriers 
repeatedly attempt to transport hazardous materials that cannot be 
brought into the U.S. by truck or cannot be legally disposed of here. 
According to information from the Commercial Vehicle Safety Alliance, 
the FMCSA, and the U.S. General Accounting Office, past inspections at 
the U.S. southern border have shown that the overwhelming majority of 
Mexico-domiciled carriers are not complying with Environmental 
Protection Agency, RSPA, and FMCSA requirements for transportation of 
approved hazardous materials in the border zone. Also, any hazardous 
materials carriers which appear to have proper shipping papers and 
placards are often waved through border check points without inspectors 
actually verifying that the materials on board match shipping papers or 
external placards, or that there is not other, illegal hazardous 
materials or contraband being transported.
    This is especially worrisome because the proposed FMCSA paper 
certifications do not require Mexico-domiciled motor carriers to 
demonstrate that they are knowledgeable about, and actually able to 
comply with, U.S. hazardous materials regulations. At no point in the 
proposed application process does a Mexico-domiciled carrier have to 
attest that it intends to carry hazardous materials. If, subsequent to 
a grant of temporary operating authority, a carrier decides to 
transport hazardous materials, nothing compels the carrier to reveal 
that fact right away.
    Moreover, the application process has no requirement that the 
carrier, if subsequent to a grant of operating authority begins to 
carry hazardous materials, immediately notify the FMCSA to demonstrate 
its knowledge of the considerably more demanding requirements for doing 
so. This is a major safety and security shortcoming in the application 
process. Advocates and Public Citizen also point out that if a foreign 
motor carrier registers with the RSPA to carry hazardous materials, as 
is currently required, the form is used only for the purpose of 
collecting federal hazardous materials transportation fees - it does 
not ask for any demonstration by a carrier that it is knowledgeable 
about the requirements for, or is proficient in, the safe transport by 
highway of hazardous materials. In addition, this registration with the 
RSPA is not sent to the FMCSA.
    This means that the FMCSA can become aware of a carrier's decision 
to carry hazardous materials only when: (1) the foreign carrier has one 
or more of its trucks undergo inspections; (2) the carrier undergoes a 
later safety compliance review which, for new entrants, can be up to 18 
months following an initial award of operating authority; or, (3) the 
foreign carrier files an updated MCS-150 carrier census form every two 
years, a requirement only recently adopted by the FMCSA.
    As for the last mentioned action, acknowledging hazardous materials 
transportation on a census form only flags the agency of the bare-bones 
fact that the carrier now transports hazardous materials. The 
acknowledgement does nothing more than simply note a change in 
services. Even then, there is no requirement directing the foreign 
carrier separately to demonstrate its proficiency in and knowledge of 
the safety requirements for transporting hazardous materials. It is 
therefore crucial that at the initial point of contact with a Mexico-
domiciled motor carrier applying for U.S. operating authority (i.e., 
the preliminary on-site safety evaluation called for in the Murray-
Shelby provisions in H.R. 2299), each applicant carrier attest to its 
intention to carry hazardous materials and demonstrate its proficiency 
in understanding and applying U.S. laws and regulations packaging and 
transporting hazardous materials. In addition, any motor carrier 
deciding to transport hazardous materials after an initial award of 
temporary operating authority or a final award after the 18-month 
probationary period, must be required to re-apply immediately for a new 
award of operating authority.
    If such a carrier fails to make such an application and is found to 
be transporting hazardous materials without specific operating 
authority to do so, its rights to operate in the U.S. should be 
immediately terminated and it should be penalized. A renewed award of 
operating authority should be contingent upon satisfactory testing of a 
carrier's proficiency in safely transporting hazardous materials and a 
full inspection of its facilities, equipment, drivers, and management 
practices for transporting legal hazardous materials in the U.S. These 
requirements should be made part of the completed rulemaking by the 
Federal Highway Administration to implement the hazardous materials 
federal safety permit system originally directed by Congress in the 
Hazardous Materials Transportation Uniform Safety Act of 1990.
    I would like to emphasize again that many of these considerations 
for improved safety and security should be scrutinized for application 
to Canadian motor carriers as well.
Mexico and Canada Must Share Inspection and Security Oversight 
        Responsibilities
    It is clear that most of the security oversight apparatus that 
needs to be implemented at our borders, including personnel, 
procedures, and facilities, naturally interface with motor carrier 
safety oversight actions. Both facilities and personnel can share 
certain surveillance and safety oversight responsibilities that often 
will simultaneously provide both security risk appraisal and safety 
evaluation of motor carrier cross-border traffic. This points up the 
unarguable need for the rapid construction and operation of fixed 
inspection stations at every U.S. border crossing point both in Mexico 
and in Canada as well in order to conduct full (Level 1) inspections 
and detailed security checks. Also, it is obvious that the criticisms 
of both the U.S. Department of Transportation Office of the Inspector 
General and the U.S. General Accounting Office about the lack of motor 
carrier inspectors being on-duty at most border crossing points during 
all hours of open border point operation have to be met with quick 
action to ensure that no truck or bus comes across our border without 
being inspected both by Customs officials and motor carrier safety 
inspectors.
    I also would like to emphasize here in closing that the task of 
simultaneously improving both safety and security at our borders and 
inside the U.S. cannot be a unilateral task undertaken only by the U.S. 
Foreign governments sharing borders with the U.S. need to dramatically 
strengthen their systems of validating the motor carriers and 
commercial drivers incorporated and licensed in Canada and Mexico both 
to guarantee their safety fitness and to ensure that freight and 
drivers that are found to be security risks are not granted permission 
to conduct motor carrier operations. To date, the government of Mexico, 
in particular, has chronically failed to hold up its end of the bargain 
in establishing its own demanding safety approval regime to ensure that 
only safe commercial vehicles and drivers reach our southern border 
asking for entry into the U.S.
The Dangers of Nuclear Waste Transportation Must be Addressed
    On September 12, Energy Secretary Abraham suspended Department of 
Energy nuclear shipments, acknowledging that radiological shipments are 
potential terrorist targets.
    If the proposal for a geologic repository at Yucca Mountain, Nevada 
moves forward, a large number of commercial nuclear waste shipments 
will take place over a period of approximately 30 years, constituting 
the largest nuclear waste transportation project in history. The 
shipments would number between 30,000 and 100,000, depending on if the 
mode of transportation is road or rail.\1\ Because a rail line to the 
site does not exist and the cost of building it would be approximately 
1 billion dollars, it is likely that the casks will travel by highway, 
necessitating the larger number of shipments. Although the Department 
of Energy (DOE) has not released the exact transportation routes, 
studies by the State of Nevada and the DOE disclose that 43 states 
would be directly impacted.
---------------------------------------------------------------------------
    \1\ ``Risky Transit--The Federal Government's Risky and Unnecessary 
Plan to Ship Spent Nuclear Fuel and Highly Radioactive Waste on the 
Nation's Highways and Railroads,'' A report by the Nevada Agency for 
Nuclear Projects found at http://www.state.nv.us/nucwaste/news2001/
nn11313.pdf (10-05-01).
---------------------------------------------------------------------------
    A report by DOE showed that 109 communities with populations over 
100,000 would be affected by shipments, increasing the threat of a 
terrorist attack in an urban setting.\2\ Also, as part of the 1986 
Environmental Assessment for the Yucca Mountain repository site, the 
DOE conducted a study that found that a severe accident in a rural area 
involving a high-speed impact would be devastating. They calculate that 
it would be difficult to fight fire involving fuel oxidation that would 
contaminate a 42-square-mile area, require 462 days to clean up and 
cost $620 million
---------------------------------------------------------------------------
    \2\ ``Nevada Potential Repository Preliminary Transportation 
Strategy Study 2,'' TRW Environmental Safety Systems, Inc (DOE's 
management and operations contractor for Yucca Mountain project), 
February 1996.
---------------------------------------------------------------------------
    In reality, because the transportation casks have never had full-
scale testing, no one knows the true consequences of an accident or 
attack. The Nuclear Regulatory Commission (NRC) sponsored a study in 
1987 by the Lawrence Livermore National Laboratories. This study, 
commonly referred to as the ``Modal Study,'' used computer modeling to 
predict cask responses to accident conditions. The study was inadequate 
and the conditions that were used in the computer analysis did not 
represent real-life scenarios.\3\
---------------------------------------------------------------------------
    \3\ ``Shipping Container Response to Severe Highway and Railway 
Accident Conditions,'' prepared by Lawrence Livermore Laboratory in 
1987.
---------------------------------------------------------------------------
    The NRC is planning to update the 1987 spent fuel transportation 
study. This study should fully explore the risk associated with 
different types of potential attacks, including high-impact accidents 
involving various types of fuel. As the state of Nevada told the NRC in 
1998, ``It is imperative that the Commission factor into its 
regulations the changing nature of threats posed by domestic 
terrorists, the increased availability of advanced weaponry and the 
greater vulnerability of larger shipping casks traveling across the 
country.''
    In March 2000, the NRC released a study prepared by Sandia National 
Laboratory, ``Reexamination of Spent Fuel Shipment Risk Estimates,'' 
that updates the baseline 1977 study on radioactive material 
transports. The report is very optimistic about the risk for nuclear 
accidents and says that the older study overstates the potential risk. 
However, the new report does not even discuss risks associated with 
some type of terrorist attack on a nuclear shipment and it 
underestimates accident probability and consequences. Sandia also 
prepared this report without permitting stakeholder comments on the 
draft.
    In short, to assure the safety and security of the public, Congress 
should instruct the DOE and the NRC to take account of all potential 
risks and their full consequences in evaluating and regulating the 
transport of nuclear waste.
The Impact on Firefighters and Police of Motor Carrier Safety and 
        Security Deficiencies
    Finally, Mr. Chairman, we want to say a word about the firefighters 
and police who must deal with safety and security problems. The world 
now knows the enormous sacrifice these brave individuals make when 
disasters occur because of their incredibly brave response in New York 
and the terrible deaths and injuries they suffered. What the public may 
not know is that this kind of personal sacrifice occurs every day all 
over the United States in large communities and small. But the cost and 
burden on our state and local officials to respond to emergencies 
involving individuals intent on causing harm or with access to 
hazardous materials must be considered as the Congress and the 
Department of Transportation makes decisions about what precautions to 
require in granting operating authority in the United States and at the 
border, in driver licensing, in hazardous materials permitting, and in 
the imposition of penalties to deter future misbehavior. Often times 
these individuals, many of whom are volunteers, do not receive adequate 
training to cope with these sorts of emergencies. Moreover, many of the 
departments are understaffed and lack adequate equipment for coping 
with an accident involving hazardous materials. Finally, they are put 
at greater peril when the vehicles they are dealing with have not been 
properly placarded. If we take precautions to prevent the problems we 
are discussing today, our fire fighters and police will be exposed to 
far less personal and unnecessary risk, as of course will the public. 
Often when these risks occur one by one across the country and not in 
one massive tragedy, they escape public and press attention and, 
unfortunately, government willingness to be the federal cop on the 
regulatory beat, fully enforcing the law. As you consider your 
responsibilities in preventing future tragedies, be they large 
disasters or affecting a small number of people each day, we urge you 
to remember that 5,300 Americans are killed each year by large trucks 
on our highways, and that without strong safety and security measures 
that we know should be adopted, we are inviting terrorists and short-
sighted individuals to wreck harm on innocent people.
    That completes my testimony. I am prepared to respond to any 
questions that you or other Members of the Subcommittee may have.

    Senator Breaux. Thank you, Ms. Claybrook, and thank all 
members of the panel for being with the Committee this morning, 
and your testimony. I think, Ms. Claybrook, in following up on 
your concerns about the Department of Transportation and the 
Motor Carrier Safety Administration, I also hope they got the 
message that this Committee was telling them that their actions 
are totally unacceptable.
    Administrator Clapp has just been there since Thursday, but 
he has a terrific job on his hands to get these things moving. 
What we have now is totally unacceptable. In fact, I think with 
regard to the patch quilt type of operation we have among the 
States, that there ought to be some federal standards in 
issuance of these commercial driver's licenses. Apparently, 
from Mr. Sullivan's testimony and others, there is a huge 
amount of flexibility among the various states as to how they 
set their requirements for the right to have a commercial 
driver's license in the state.
    Can I have your thoughts, and I almost hate to say we ought 
to have another federal requirement, because we have yet to 
implement the ones we passed 2 years ago so adding more, if 
they do not implement them, I do not know what the heck we are 
going to do. Perhaps we ought to consider the requirement that 
there be background checks, criminal background checks on 
people who drive on the interstate highways, particularly when 
you are driving a hazmat truck loaded with something that is 
potentially very dangerous.
    We could have all the safety requirements we want, but 
behind all safety is a driver. A truck can be as safe as we can 
possibly make it, and Mr. Sheridan can provide all the 
scientific information about what is in the cargo, but 
ultimately it goes back to the driver, his qualifications, his 
ability, his training or her training in all of these instances 
to determine whether that is a safe means of transportation. He 
or she is the captain of the truck, the captain of the ship, 
just like the captain of a plane or the captain of a ship 
transporting passengers.
    So the question is, and I did not realize this, but 
apparently there is not a federal requirement for a criminal 
background check. Is there a federal requirement on drug-
testing, could I have some comments on this, Mr. Pantuso?
    That classic case in New Orleans--and I keep going back to 
it. I do not want to, but it is the obvious--this person should 
not have been driving a bus. If they had had a criminal 
background check, a medical check, a drug check, he would not 
have been there, and maybe 22 people would not have lost their 
lives. What is wrong with having a federal requirement that 
these things be done before someone gets a commercial driver's 
license?
    Mr. Pantuso. Absolutely nothing, Mr. Chairman. It is 
something we would support. We supported it in our testimony, 
and you heard others here support it, especially in view of the 
New Orleans accident. There is also an issue of collecting data 
and collecting information on the driver. There may not be a 
criminal problem. It may be something that has blemished the 
driving record, and that blemish should follow the driver and 
follow his CDL wherever he or she goes.
    Senator Breaux. Staff is telling me there is, in fact, a 
regulation in place, in effect for drug-testing for drivers 
now. Mr. Acklie.
    Mr. Acklie. Yes, Mr. Chairman, there is.
    Senator Breaux. Does everyone have to follow it regardless 
of what state they are in?
    Mr. Acklie. At the time they get the CDL, of course, they 
have to have, and at the time of employment they have to have, 
and there is random tests also that are administered, so they 
try to catch it.
    Apparently what happened in the case that you referred to 
is that person probably had the check and did not get caught on 
a random check, so it probably goes to retesting.
    Mr. Pantuso. Again, Mr. Chairman, it goes to the issue 
sharing information among juridictions and agencies. It goes to 
the liability concerns the carriers have in sharing with one 
another. In the situation of the driver in New Orleans, he did 
fail a drug test with another company that he was not working 
for but applied to work for, and that information was never 
passed on to Custom Coach, the company that ultimately had the 
accident, so there is a gap in the information-sharing that 
needs to be plugged.
    Ms. Claybrook. One of the things the Congress gave this 
agency was the responsibility of doing this, but also gave the 
employers liability protection so that they could communicate 
information about past records. Without liability protection, 
employers do not do this. I think it is a two-sided issue here. 
In addition to the drivers, of course, it is the companies. The 
companies have an enormous responsibility here to make sure 
that they keep track of the drivers, and that the drivers are 
safe, and the records of the drivers.
    Senator Breaux. Mr. Acklie, on that point Ms. Claybrook is 
making, suppose someone comes to your company and applies for 
employment. You ask him if he is a terrorist and he checks the 
box that says no, you than ask him if he is a criminal and he 
checks the box that says no. Is there any way, or requirement, 
that your company can get information that he has a previous 
history of perhaps being fired from other trucking companies, 
or has been in trouble? How do you check?
    I mean, it is easy to check the box no, I am not a bad guy, 
but then again no one is going to admit that he is any of these 
things. How would an employer looking at an individual to be 
hired know that this individual does not have a history, in 
fact, of drug abuse and/or criminal record, or had been fired 
three or four times from a previous employer?
    Mr. Acklie. Mr. Chairman, that is really a good question. 
It really comes to the crux of a lot of what needs to be done. 
First of all, there really is a very difficult time to do that, 
because we can do the local checks and so forth, but as I said, 
we cannot access the federal database, even though if we ran a 
home for children, and so forth like that, you can check the 
database of employees, and the bank employees and so forth. We 
cannot access.
    What we do is, we check DAC, which is a commercial service 
that tries to check for us, and you also have the employers, 
sir, who, basically the information we can get from another 
employer is eligible for rehire or not eligible for rehire. 
Basically, everybody is scared to give somebody else--because 
they are afraid to be sued, and so basically if you come to our 
company, what you are going to get is, you are going to get if 
we have discharged somebody for--let us say, if they were on 
the random violation, and we found they were using drugs, we 
will say not eligible for rehire, but it is such a thing that 
we are all scared. We do need that legislation. We do need to 
be able to access that criminal database, and what you said is 
exactly right.
    Senator Breaux. Mr. Gleason, give me some thoughts from the 
Teamsters. The driver is a real key in all of this, knowing he 
is a good, competent, trained driver that has not had a history 
of criminal record, and of course obviously, in trying to find 
all of this information, you also have individual rights that 
need to be protected, but also the public has a right to be 
protected and a right to expect that people who are handling 
hazardous cargo or large trucks, buses, or airplanes, or ships 
or anything else, are people that are qualified, trustworthy to 
do so. What are the Teamsters thoughts on this?
    Mr. Gleason. For initial background checks we find most of 
our carriers do perform background checks. They are pretty 
extensive. I think they continue to perform those background 
checks.
    Senator Breaux. Pull that mike just a little bit closer.
    Mr. Gleason. They continue to perform those background 
checks once an employee is hired and serve a probationary 
period.
    What we do find that is a problem is a lot of the carries 
that they hire owner-drivers that are not their employees, and 
are not insured through the carrier, which there are not 
necessarily any background checks performed.
    Senator Breaux. I saw that point in your testimony, and 
observed what you were saying about the owner-operator 
situation. Would the Teamsters support or not support, or do 
you know right now, what Mr. Acklie is suggesting? When a bank 
hires individuals, or a children's home hires individuals, that 
they are able to get information from all of their previous 
employers about their history to help them in determining 
whether they are a suitable employee for them. Is your 
inclination to support that type of ability to get that 
information or not?
    Mr. Gleason. I think there needs to be serious discussion 
with respect to how the background checks would be performed, 
what criteria would be used. There is concern with respect to 
what kind of criminal information would this qualified driver, 
who would have access to the information, how the employer or 
potential employer could use that information.
    For example, if you have got a driver, let us say you are 
talking about doing background checks and a driver has been 
employed for 10 or 15 years with a carrier, that carrier goes 
out of business, he is reemployed some place else, the guy has 
an impeccable driving record, and somebody looks at a criminal 
background check, maybe 20, 25 years previously he had had a 
conviction for shoplifting, how is that type of background 
information going to be used against this employee, so we would 
have a concern with what criteria we would use in developing a 
background check.
    Senator Breaux. It seems to me there is a potential for 
people who are getting commercial driver's licenses, it would 
seem that employers of individuals in the transportation 
industry that have had to dismiss an employee, for instance, 
for a violation of a DWI or something associated directly with 
the job, that the capacity to put that information into a 
national system should exist. So when someone else looks to 
hire that person, they can type in John Breaux's name, and a 
history of his previous employment. If I were to be fired 
because of one of these things, at least it would come up on 
the Internet, and I would say, look, that is a red flag. I am 
going to find out about this person a little bit further.
    If he was a truck driver and was fired because of a DWI, is 
this the type of person I want to hire? I mean, I am not sure 
that is possible, to get that kind of information, but it seems 
that today, in the day of computers, that it would be helpful.
    Mr. Gleason. With respect to drivers that are discharged 
because of positive test results for either drug or alcohol use 
on the job, or off the job, if they are convicted and 
ultimately lose their job, when the CDL licensing requirements 
were adopted several years ago they were supposed to, and in 
fact they do, once you have tested positive, your CDL 
privileges are supposed to be suspended, and prior to being 
reemployed, somewhere else, the federal agency is supposed to 
be in control of when you get your driving privileges back.
    Quite frankly, that enforcement portion of the law has not 
been effective. They just have not policed it the way they need 
to police it.
    Senator Breaux. Ms. Claybrook, you had a comment.
    Ms. Claybrook. I was just going to say that you have 
directed the Motor Carrier Safety Administration and its 
predecessor agency, to develop a unique identifier for drivers, 
like a fingerprint, so that there could not be confusion over 
finding the records of drivers. The data systems that you have 
directed be improved have not been improved.
    There is another directive that has not been carried out; 
to check the noncommercial driving records. That is, if you are 
caught for DWI in your car and you have a commercial driver's 
license, that you can check against that, so there are a number 
of directives you have already given the agency to undertake 
this.
    I would also like to say that there needs to be better 
coordination between the Motor Carrier Safety Administration 
and RSPA, because the only way that the Motor Carrier Safety 
Administration can become aware of a carrier's decision to 
carry hazardous materials is if they undergo an inspection, or 
the carrier has a later compliance review, but in fact, if a 
carrier never says they are going to carry hazardous materials 
and then changes its mind, it then notifies RSPA, who never 
notifies the Federal Motor Carrier Safety Administration, so 
there are lots of communications and data issues and record 
issues that have been inadequately carried out by this agency 
that I think would solve a lot of the problems that you have.
    There is another requirement in TEA-21 of 1998 to create a 
motor carrier safety information system, which they have done, 
but it is totally inadequate at this time.
    Senator Breaux. Well, you heard the first panel. I was 
asking Mr. Clapp, I have got 2\1/2\ pages of things that 
Congress required that have not been done. Some of these things 
we required them to do the last time I think address some of 
the concerns we have today.
    Ms. Claybrook. Exactly right, and even though they were not 
designed purely for security, when you improve safety, you 
improve security. They are totally intermixed, so these 
requirements, if they were carried out, we would have a far 
safer transportation system.
    Senator Breaux. Mr. Acklie, Ms. Claybrook in her testimony 
says that under existing regulations a terrorist organization 
could set up a new trucking company in the U.S., or in Mexico, 
and obtain operating authority in the United States for a year 
and a half period, without any federal or state safety review 
or security check, simply by paying a fee. Is that possible?
    Mr. Acklie. What I think she was referring to is, before 
they are analyzed for the safety of that organization, but keep 
in mind you do not even have to apply. In the Oklahoma 
situation, if you remember, the people just went and rented a 
truck and they drove it, and that is all there was to it, so we 
not only have, Mr. Chairman, the situation where there is some 
time lapse now--it can be as long as 18 months.
    I think the Federal Highway Administration--excuse me, the 
Federal Motor Carrier Safety Administration attempts to do is 
to get somebody out there immediately, but the statute I think 
gives them, or the regulations give them 18 months to do it, 
but they attempt to get on a new carrier. They get out there 
almost immediately, sir.
    Senator Breaux. What were you referring to, Ms. Claybrook?
    Ms. Claybrook. I was referring to the fact that you could, 
before there is any safety evaluation of a company, an on-site 
inspection or anything else, a company could apply for and get 
the authority to enter in the trucking business, up to 18 
months and sometimes longer. If they are not inspected on a 
timely basis, which often is the case, you can operate without 
any safety review by the Federal Government, and you can carry 
hazardous materials, so I think that this is a situation which 
needs to be corrected.
    In the testimony that we gave on the Mexican trucks, we 
urged that there be on-site safety reviews in Mexico before you 
get the first authority to operate in the United States. We 
believe the same should apply to companies in the United 
States, and for the Mexican companies, that is in the Murray-
Shelby bill. It requires that. I think that should be required 
as well for U.S. companies.
    I would say one other thing, Mr. Chairman, and that is that 
in the creation of the Federal Motor Carrier Safety 
Administration legislation of 1999, you put in a requirement 
for certified motor carrier safety auditors to help expand the 
capacity of the Federal Motor Carrier Safety Administration, 
and we were very concerned about this, because we were 
concerned about third parties doing the Federal Government's 
job, but in view of the lax enforcement and the long time that 
it has taken, we believe that that section should be fully 
implemented. It is one of the other rulemakings that has not 
yet been completed by the agency.
    Senator Breaux. Mr. Sheridan, I am really interested in the 
things you have talked about from the science standpoint, and I 
am sure there are other companies that do similar things, and I 
am sure you think you do them the best, but thank you for being 
with us.
    Basically, the technology can allow us to take a look, 
particularly at containers, and determine whether there are 
explosives in containers. I mean, I have always been fascinated 
in a sense by how difficult it is, when you have a large ship 
coming into the Port of New Orleans or the Port of Long Beach, 
or any of our major ports, which literally has maybe a couple 
of thousand containers on it, I mean, there is almost no way 
for us with any degree of certainty to know what is in each one 
of those containers without opening them up and doing a 
physical inspection, and I take it that science is moving in 
the direction of allowing us to have a better degree of 
security about what is in containers, either on trucks or on 
ships, that move around our country.
    Mr. Sheridan. That is correct, Senator. In the case of 
looking for explosives, we are looking for at least 200 pounds 
of an ammonium nitrite fuel oil type explosive, because that is 
the critical mass necessary to have true destructive power as a 
truck bomb.
    Senator Breaux. And that technology from what I understand 
can work regardless of the mode of transportation, whether it 
is a train, whether it is a truck, whether it is a boat, or 
what-have-you?
    Mr. Sheridan. That is correct, and there are some other 
complementary technologies. Ancore is a company that can detect 
specifically for the presence of certain types of explosives, 
but it is a nonimaging technology, so it winds up being single-
purpose. We can detect both explosives and at the same time 
look for drugs, or look for weapons.
    Senator Breaux. How would you quantify the extent of the 
use of this modern, 21st-Century technology with regard to its 
utilization? It is a hard thing to say 100 percent coverage 
will be every truck, plane, and ship having this sophisticated 
detection system in place. I mean, that is not possible. How 
much of it is being used? Is it just beginning to be used?
    Mr. Sheridan. It is just beginning to be used today. Her 
Majesty's Customs has a goal of scanning every truck coming off 
a ferry. Why? Because they have a problem with both illegal 
aliens and with cigarette smuggling. Cigarette smuggling is 
costing them $4 billion a year, and they have something close 
to 50,000 illegals coming into the country.
    Here in the U.S., we are scanning less than 5 percent of 
the containers coming across the border from Mexico. That is 
truly insufficient.
    Senator Breaux. How much is it?
    Mr. Sheridan. Less than 5 percent, and it varies from port 
of entry to port of entry. For seaports, it is less than 1 
percent of all containers are inspected coming into seaports 
today.
    Your question was, it is possible to scan all containers? 
The answer today is no, but what you can begin to do is create 
a program where you only scan those where you do not is in the 
contents. Customs has a program called the BASC program, which 
is the Business Antismuggling Coalition, where they work with 
shippers such as Mattel, such as Delco, Sara Lee, where they do 
the inspection and certify that the contents of the container 
are as shown on the manifest, and those get expedited clearance 
so you do not have to focus on those. You only have to focus on 
the containers where you do not know their origin, or they are 
suspect.
    Countries such as Peru, interestingly enough, are very 
aware of this problem, and they, before President Fujimori lost 
his position, they wanted to inspect all containers outgoing 
and attach an electronic image of what was in the container 
with the manifest, so when they got to Miami, or they got to 
Long Beach, they would receive expedited clearance. That is 
what we are talking about over the long term.
    Senator Breaux. Well, it is a gigantic undertaking, to be 
able to know what is coming into our ports from around the 
world.
    There is a story today in the London Times of intelligence 
agencies across the world examining Osama bin Laden's 
multimillion pound shipping interests. He maintains a secret 
fleet under various flags of convenience, allowing him to hide 
his ownership and transport goods, arms, drugs, and recruits 
with little official scrutiny.
    Three years ago, nobody paid much attention to a crew 
unloading a cargo from a rusty freighter tied up to the dock in 
Mombasa, Kenya. The freighter was part of Osama's merchant 
fleet, and the crew was delivering supplies for the team of 
suicide bombers who weeks later blew up the U.S. embassies in 
Kenya and Tanzania Osama's shipping interests came open at the 
trial of the bombers, but until now, security services have 
been slow to track down even how many vessels he operates.
    It really points out the seriousness nature of our port 
security and shipping security, and you know, your drivers who 
pick up a container, pick up cargo from a port not knowing 
where it is coming from, are clearly at risk until we get a 
better handle on all of this.
    Mr. Sheridan. Internationally, Senator, Nigeria has just 
announced it intends to go to 100-percent inspection of sea 
containers. Why? Because smuggling is so high going into their 
country, and Saudi Arabia, the Port of Jedda, they inspect 100 
percent by hand. They are soon going to be moving to x-ray 
inspection.
    Senator Breaux. Well, of course, smuggling illegal 
cigarettes is one thing. Smuggling tons of explosives for 
terrorist purposes is quite another.
    Well, I think this panel has been very good. I appreciate 
very much your suggestions. I think you and your industry are 
doing an excellent job of trying to move towards better 
drivers, safer drivers, and more inspections.
    I think one of the things we have seen is a lack of 
movement on the part of our own Government just in keeping what 
we required them to do the last time we addressed these issues, 
and that certainly has to change, and will change.
    So thank you very much for working with the Committee, and 
this Subcommittee will stand adjourned.
    [Whereupon, at 12 noon, the Subcommittee adjourned.]

                                <greek-d>

</pre></body></html>
